<html>
<title> - TRANSPORTATION WORKER IDENTIFICATION CREDENTIAL: A STATUS UPDATE</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



    TRANSPORTATION WORKER IDENTIFICATION CREDENTIAL: A STATUS UPDATE

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON BORDER, MARITIME,
                      AND GLOBAL COUNTERTERRORISM

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 17, 2008

                               __________

                           Serial No. 110-139

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________


                  U.S. GOVERNMENT PRINTING OFFICE
48-090                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001






                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman

Loretta Sanchez, California          Peter T. King, New York
Edward J. Markey, Massachusetts      Lamar Smith, Texas
Norman D. Dicks, Washington          Christopher Shays, Connecticut
Jane Harman, California              Mark E. Souder, Indiana
Peter A. DeFazio, Oregon             Tom Davis, Virginia
Nita M. Lowey, New York              Daniel E. Lungren, California
Eleanor Holmes Norton, District of   Mike Rogers, Alabama
Columbia                             David G. Reichert, Washington
Zoe Lofgren, California              Michael T. McCaul, Texas
Sheila Jackson Lee, Texas            Charles W. Dent, Pennsylvania
Donna M. Christensen, U.S. Virgin    Ginny Brown-Waite, Florida
Islands                              Gus M. Bilirakis, Florida
Bob Etheridge, North Carolina        David Davis, Tennessee
James R. Langevin, Rhode Island      Paul C. Broun, Georgia
Henry Cuellar, Texas                 Candice S. Miller, Michigan
Christopher P. Carney, Pennsylvania
Yvette D. Clarke, New York
Al Green, Texas
Ed Perlmutter, Colorado
Bill Pascrell, Jr., New Jersey

                    I. Lanier Lavant, Staff Director
                     Rosaline Cohen, Chief Counsel
                     Michael Twinchek, Chief Clerk
                Robert O'Connor, Minority Staff Director

                                 ______

     SUBCOMMITTEE ON BORDER, MARITIME, AND GLOBAL COUNTERTERRORISM

                LORETTA SANCHEZ, California, Chairwoman

Jane Harman, California              Mark E. Souder, Indiana
Zoe Lofgren, California              David G. Reichert, Washington
Sheila Jackson Lee, Texas            Michael T. McCaul, Texas
James R. Langevin, Rhode Island      Gus M. Bilirakis, Florida
Henry Cuellar, Texas                 Mike Rogers, Alabama
Al Green, Texas                      Peter T. King, New York (Ex 
Bennie G. Thompson, Mississippi (Ex  Officio)
Officio)

                         Alison Rosso, Director
                         Denise Krepp, Counsel
                       Carla Zamudio-Dolan, Clerk
        Mandy Bowers, Minority Senior Professional Staff Member

                                  (II)














                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Loretta Sanchez, a Representative in Congress From 
  the State of California, and Chairwoman, Subcommittee on 
  Border, Maritime, and Global Counterterrorism..................     1
The Honorable Mark E. Souder, a Representative in Congress From 
  the State of Indiana, and Ranking Member, Subcommittee on 
  Border, Maritime, and Global Counterterrorism..................     2

                               Witnesses
                                Panel I

Rear Admiral James Watson, Director of Prevention Policy for 
  Marine Safety, Security and Stewardship, U.S. Coast Guard, 
  Department of Homeland Security:
  Oral Statement.................................................     4
  Prepared Statement.............................................     6
Ms. Maurine Fanguy, Acting Director for Maritime and Surface 
  Credentialing, Transportation Security Administration, 
  Department of Homeland Security:
  Oral Statement.................................................     9
  Prepared Statement.............................................    11
Mr. Stephen M. Lord, Acting Director, Homeland Security and 
  Justice Issues, Government Accountability Office:
  Oral Statement.................................................    13
  Prepared Statement.............................................    15

                                Panel II

Ms. Judith Marks, President, Transportation and Security 
  Solutions, Lockheed Martin:
  Oral Statement.................................................    30
  Prepared Statement.............................................    32
Ms. Stephanie Bowman, Manager, Federal Government Affairs, Port 
  of Tacoma:
  Oral Statement.................................................    35
  Prepared Statement.............................................    37
Mr. Philip L. Byrd, Sr., President and CEO, Bulldog Hiway 
  Express:
  Oral Statement.................................................    38
  Prepared Statement.............................................    39
Mr. Steve Golding, President, Golding Barge Line:
  Oral Statement.................................................    43
  Prepared Statement.............................................    45
Ms. Laura Moskowitz, Staff Attorney, National Employment Law 
  Project (NELP):
  Oral Statement.................................................    48
  Prepared Statement.............................................    50

                                Appendix

Questions From Honorable Loretta Sanchez.........................    75

 
    TRANSPORTATION WORKER IDENTIFICATION CREDENTIAL: A STATUS UPDATE

                              ----------                              


                     Wednesday, September 17, 2008

             U.S. House of Representatives,
                    Committee on Homeland Security,
              Subcommittee on Border, Maritime, and Global 
                                          Counterterrorism,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:05 a.m., in 
Room 311, Rayburn House Office Building, Hon. Loretta Sanchez 
[Chairwoman of the subcommittee] presiding.
    Present: Representatives Sanchez, Cuellar, Green, and 
Souder.
    Ms. Sanchez. The Subcommittee on Border, Maritime and 
Global Counterterrorism will now come to order. The committee 
is meeting today to receive testimony on the Transportation 
Worker Identification Credential program rollout, a status 
update.
    Good morning. Thank you all for attending this morning to 
receive an update on the progress of the Transportation Worker 
Identification Credential program rollout, as we know it, TWIC. 
The program is rolled out and managed by the Transportation 
Security Administration, or TSA.
    We have two great panels today that will allow us to gain 
some in-depth knowledge of where we stand with the TWIC. Both 
Government and industry are providing testimony for TWIC today. 
However, I am disappointed that TSA Administrator Hawley did 
not make this hearing a priority; his perspective on the 
current status of the TWIC rollout would have been very useful.
    It is imperative that all levels of leadership at the 
Department of Homeland Security make this program a priority. 
TWIC is a key element in ensuring that our ports are secure and 
that the personnel operating them have the access that they 
need.
    In a recent report conducted by the National Maritime 
Security Advisory Committee, which I will be submitting for the 
record, they stated that TWIC is a user-funded program; users 
must not be penalized for working to help TSA meet its goals.
    I ask unanimous consent to submit this for the record that 
is part of report.*
---------------------------------------------------------------------------
    * The information referred to has been retained in Committee files.
---------------------------------------------------------------------------
    Ms. Sanchez. For instance, throughout our Nation's ports, 
there are TWIC enrollees that have been part of our program for 
more than a year-and-a-half. I applaud these working men and 
women for taking the initiative and making the effort to 
enroll, knowing how difficult the process can be.
    However, having had to obtain a TWIC card and never once 
needing to actively use it once on a reader has made many 
workers feel foolish for signing up early, especially when the 
mandatory enrollment date keeps getting pushed back. Of course, 
they are complaining about how they have paid for this. For the 
workers who haven't enrolled yet, the constant delays only give 
them more incentive to wait until the very end until they sign 
up.
    To put this in perspective, the program was authorized in 
the Maritime Transportation Security Act in November 2002. That 
was almost 6 years ago. The TWIC program is still not fully 
rolled out at port, much less at any other transportation 
modes, and we continue to see delays in the mandatory 
enrollment date and in the reader rollout.
    Moreover, there have been significant technical problems in 
the TWIC enrollment rollout. For Example, the TWIC web site is 
frequently down for maintenance, workers often have to make 
multiple trips to the TWIC enrollment facilities. This is 
actually quite unacceptable, as they are working people and 
repeat trips are inefficient and they take up their valuable 
time.
    The TWIC disclosure form that enrollees must sign is not in 
multiple languages, even though a large percentage of the 
workers may have difficulty understanding English. When there 
are multiple Government forms in various languages, there is no 
excuse for that. These workers have a right to know exactly 
what they are disclosing.
    I could go on about this customer service and its issues 
for the program, but because we are pressed for time today, as 
it is a busy day, I will stop there.
    A concern that I have not only with the program, but with 
many programs at the Department of Homeland Security, is what 
is the plan for transition as we go into the next 
administration?
    Tomorrow we will once again hear about the lack of progress 
in the virtual border fence and these problems will be left for 
a new administration. So I hope that today that the panel can 
speak to us about the solutions for what plagues the TWIC and, 
more importantly, the plans for moving this program beyond the 
end of December; in other words, through the transition into 
the new administration.
    I look forward to receiving your testimony and to your 
responses to the concerns that we are raising today. I now 
yield to my Ranking Member, Mr. Souder. Thank you.
    Mr. Souder. Thank you, Madam Chairwoman. For the past 6 
years, there have been numerous challenges and delays in the 
Transportation Worker Identification Credential program. The 
progress made since passage of the Safe Port Act, however, 
leaves me cautiously optimistic. Between October 2007 and 
today, there are over one-half million individuals in various 
stages of the TWIC process, either pre-enrollment, or having 
actually received a card. That having been said, there are 
still a large number of individuals who still need to enroll, 
with some estimates at over 1 million more.
    The real impact will be apparent when the card readers are 
installed. Any problem with the readers, even slight delays, 
could cause major trucking delays at the port gates. With 
implementation deadlines looming, it is important that TSA 
proceed with a sense of urgency, while taking extreme care to 
get it right.
    My congressional district has the highest number of 
manufacturing jobs in the United States. We are among the 
highest producers of steel, medical devices, RVs, boats, 
plastics, defense electronics and auto parts. The ability of 
the trucking community to access materials and components from 
exports and quickly transport them to the manufacturers in my 
district is essential not only for our local economy but for 
the rest of the Nation.
    I have dedicated my time in Congress to making sure that 
U.S. companies are not disadvantaged due to unfair trade laws, 
counterfeiting, and dumping policies.
    It is equally important that our homeland security 
initiatives do not negatively impact the movement of goods in 
and out of the United States or during domestic transportation.
    To that end, I look forward to hearing from the witnesses 
today about the implementation of TWIC and especially how both 
the Government and the private sector are working to 
efficiently roll out the program. I hope to hear more about 
opportunities to improve the enrollment process and reduce the 
burden of workers needing a TWIC. I understand that individuals 
estimate a minimum of two trips to the enrollment center if 
everything goes right, and more if there are any issuance 
delays.
    Given that U.S. passports are mailed to recipients, I am 
wondering why a similar process can't be set up for the TWIC. 
It seems that the cards could be activated in some other way 
without requiring a second in-person meeting.
    I would like all the witnesses to think about where 
additional program efficiencies can be found so that this 
program can be rolled out successfully. Thank you for holding 
this hearing and I yield back the remainder of my time.
    Ms. Sanchez. I thank my Ranking Member. I want to remind 
the other Members of the subcommittee that under committee 
rules, opening statements may be submitted for the record.
    I am told that we are going to have votes at 10:30 or so, 
and so I would like to welcome our first panel. I am actually 
going to cut short your introductions in an effort to get your 
testimony before we go across for votes. I don't know how long 
those votes may be. Just one? There are two? We are unsure. We 
are unsure.
    But what we will try to do is get your testimony in, 
probably go across for votes, and then come back for questions 
because we also have a second panel.
    So our first witness is Rear Admiral James Watson, Director 
of Prevention Policy for Marine Safety, Security, and 
Stewardship, the U.S. Coast Guard.
    Our second witness is Ms. Maurine Fanguy, Acting Director 
for Maritime and Surface Credentialing, Transportation Security 
Administration.
    Our third witness is Mr. Stephen Lord, Acting Director of 
Homeland Security and Justice Issues, Government Accountability 
Office. Without objection, your full statements will be 
inserted into the record. I will now ask each witness to 
summarize his or her statement for 5 minutes, beginning with 
Admiral Watson.

STATEMENT OF REAR ADMIRAL JAMES WATSON, DIRECTOR OF PREVENTION 
POLICY FOR MARINE SAFETY, SECURITY AND STEWARDSHIP, U.S. COAST 
             GUARD, DEPARTMENT OF HOMELAND SECURITY

    Admiral Watson. Good morning, Chairwoman Sanchez and 
Ranking Member Souder. Thank you very much for this opportunity 
to speak with you about the progress that we have made and our 
future plans for the Transportation Worker Identification 
Credential.
    Today I would like to update you on the Coast Guard's 
efforts, in partnership with the Transportation Security 
Administration, to implement the TWIC program. The TWIC is an 
additional layer of security to the Maritime Transportation 
Security Act, which has provided comprehensive security regimen 
for 3,200 waterfront facilities for over 5 years now.
    While a significant portion of the expected maritime worker 
population has either pre-enrolled or enrolled, more work still 
lies ahead to fully realize the potential security benefits 
that TWIC provides. We constantly keep in mind that what we do 
directly impacts individuals, their livelihoods. We continue to 
focus on balancing the need to facilitate commerce while 
minimizing adverse effects on those individuals.
    Since enrollment started in Wilmington, Delaware on October 
16, 2007, the Coast Guard, TSA and TSA's contractor, Lockheed 
Martin, have been closely monitoring the TWIC enrollment 
process to identify and address any areas of concern. For 
example, due to the delay in the opening of enrollment centers, 
the TSA and Coast Guard published a final rule on May 7, 2008, 
changing the compliance date from September 25, 2008 to April 
15, 2009, providing 18 months from the date the initial 
enrollment centers opened to compliance date, the intended 
timeline of the TWIC final rule. This ensures that every 
individual, particularly mariners who are at sea for extended 
periods of time that require a TWIC, will have ample 
opportunity to enroll prior to the compliance date.
    We also have been working closely with TSA in the 
development of phased-in Captain of the Port Zone compliance 
dates in accordance with the TWIC final role. Factors taken 
into account when determining dates include progress of TWIC 
enrollments and activation, estimated local and regional TWIC 
populations, regional maritime commerce and enrollment capacity 
in a given Captain of the Port Zone. Currently, TWIC compliance 
dates have been announced for 30 of the 42 Captain of the Port 
Zones.
    From the outset, engagement with our affected stakeholders 
has been crucial to the program's success. From the thousands 
of comments received during the initial TWIC making to the 
National Maritime Security Advisory Committee, NMSAC, 
recommendations on reader specifications, stakeholder dialog 
continues to play a key role in the creation of critical Coast 
Guard policies related to TWIC.
    While TSA has primary responsibility for outreach during 
the initial enrollment phase, the Coast Guard through captains 
of the port and area maritime security committees continue to 
closely monitor and encourage TWIC enrollment by working 
closely with owners and operators of MTSA-regulated facilities 
and vessels to ensure industry will be ready for the compliance 
date.
    As enrollment moves forward and compliance is on the 
horizon, the Coast Guard is focused on the implementation and 
enforcement of TWIC regulations. Phased-in COTP zone compliance 
for MTSA-regulated facilities allows for the security benefits 
of the program to begin as early as possible.
    The first group of the Captain of the Port Zones is in the 
northern New England area. It has a TWIC compliance date of 
October 15, 2008. Internal guidance documents for training 
implementation and enforcement for Coast Guard personnel are 
being finalized for completion this month.
    We also continue to work on proposed rulemaking that 
addresses potential requirements for regulated vessels and 
facilities to apply electronic card readers to verify a TWIC 
holder's identity before gaining unescorted access to secured 
areas.
    Card readers are a key step in maximizing the secure 
benefits of a TWIC. But we need to be mindful of the 
technological challenges and potential adverse impacts that are 
involved. A key component of this second role will be 
operational, environmental and technical data that will be 
collected from a TWIC reader pilot test. TSA and the Coast 
Guard have already identified geographically and operationally 
diverse port and vessel locations willing to participate in the 
reader pilot testing. The initial planning and testing 
protocols have been developed and we look forward to deploying 
and testing readers in the real-world maritime environments in 
the very near future.
    In the meantime, to maximize the security benefit of the 
current TWIC retirement, the Coast Guard is in the process of 
procuring and will deploy hand-held readers in the coming 
months for use during routine and unscheduled vessel and 
facility security examinations after the compliance date. These 
readers will supplement our already established examinations 
which verify that facility and vessel owners and operators are 
in compliance with the approved MTSA security plans.
    The first compliance date, next month, marks a major 
milestone in the MTSA port security program. We approach that 
milestone with a steadfast commitment to protecting the 
maritime transportation system while facilitating commerce. We 
remain committed to the developing and operationally sound 
framework that maximizes the security benefit that TWIC 
provides.
    These vetted individuals are a vital component of our 
multilayered approach to preventing a transportation security 
incident and serve as the eyes and ears of our maritime 
commerce. While we have accomplished a great deal thus far, we 
acknowledge that the process has not been free from challenges. 
As we have in the past, we will address any future challenges 
in turn to the best of our ability in keeping with the best 
public interest, and we will keep you informed on our progress.
    Thank you very much for the opportunity to speak today and 
I will be happy to answer questions.
    [The statement of Admiral Watson follows:]
                   Prepared Statement of James Watson
                           September 17, 2008
    Good morning, Mr. Chairman and distinguished Members of the 
committee, thank you for the opportunity to provide you an update about 
how the Coast Guard and the Transportation Security Administration 
(TSA) are partnering to implement the Transportation Worker 
Identification Credential (TWIC) program. I am Rear Admiral James 
Watson, Director of Prevention Policy.
    At the outset, I would like to note with the commencement of TWIC 
enrollment in Wilmington, Delaware on October 16, 2007, and the 148 
other enrollment centers thereafter, this program reached a major 
milestone where the plans and capabilities developed in the past will 
yield the security benefits envisioned for our ports and vessels. In 
the 20 months since the Department of Homeland Security (DHS) published 
the TWIC requirements in a Final Rule, the Coast Guard and TSA have 
been developing regulations, policies, systems, and capabilities to 
serve as a solid foundation for enrollment and compliance. The 
deliberate process and careful steps taken to lay this foundation have 
been absolutely crucial to ensuring that we gain the full security 
benefit from TWIC, facilitating compliance for the approximate 1.2 
million people who are required to enroll.
                               background
    The TWIC program builds on the security framework established by 
Congress in the Maritime Transportation Security Act (MTSA) of 2002. 
Coast Guard regulations stemming from the Act established security 
requirements for maritime vessels and facilities posing a high risk of 
being involved in a transportation security incident. MTSA also 
required DHS to issue a biometric transportation security card to all 
licensed and documented U.S. mariners as well as those individuals 
granted unescorted access to secure areas of MTSA-regulated vessels and 
facilities. TSA was assigned this requirement, and because of our 
overlapping responsibilities, the Coast Guard and TSA formally joined 
efforts to carry out the TWIC program in November 2004. In this 
partnership, TSA is responsible for TWIC enrollment, security threat 
assessment and adjudication, card production, technology, TWIC 
issuance, conduct of the TWIC appeal and waiver process as it pertains 
to credential issuance, and management of Government support systems. 
The Coast Guard is responsible for establishing and enforcing TWIC 
access control requirements at MTSA-regulated vessels and facilities. 
Both agencies communicate daily to make sure our collective efforts 
achieve the increased security objectives envisioned in MTSA.
    TSA and the Coast Guard published a joint TWIC Notice of Proposed 
Rulemaking (NPRM) on May 22, 2006. Following the publication of the 
NPRM and the subsequent comment period, Congress enacted the Security 
and Accountability for Every Port Act of 2006 (the SAFE Port Act). The 
SAFE Port Act created new statutory requirements for the TWIC Program, 
including: The commencement of a pilot program to test the viability of 
TWIC cards and readers in the maritime environment; deployment of the 
program in priority ports by set deadlines; inclusion of a provision to 
allow newly hired employees to work while their TWIC application is 
being processed; and concurrent processing of the TWIC and merchant 
mariner applications.
    TSA and the Coast Guard published the TWIC 1 Final Rule on January 
25, 2007, in which the Coast Guard's MTSA regulations and TSA's 
Hazardous Material Endorsement regulations were amended to incorporate 
the TWIC requirements. After receiving many comments and concerns 
regarding technology issues of the reader requirements as proposed in 
the NPRM, we removed from this final rule the requirements to install 
TWIC readers at vessels and facilities. This requirement is currently 
being addressed in a second notice and comment rulemaking which I will 
discuss hereafter.
    On May 7, 2008, TSA and the Coast Guard published a Final Rule 
moving the compliance date from September 25, 2008 to April 15, 2009. 
This extension provides 18 months from the initial enrollment center 
opening to the compliance date, the intended timeline of the TWIC 1 
Final Rule. By extending the compliance date, this ensures that every 
individual who requires a TWIC will have the opportunity to enroll and 
TSA will have time to complete the security threat assessments on all 
applicants. This now allows mariners until April 15, 2009, to obtain a 
valid TWIC.
    Owners and operators of MTSA-regulated vessels have until the new 
compliance date to implement access control procedures using TWIC. For 
owners and operators of facilities and Outer Continental Shelf (OCS) 
facilities, the Coast Guard has begun announcing rolling Captain of the 
Port (COTP) zone compliance dates requiring the use of TWIC in access 
control procedures before April 15, 2009 in accordance with the TWIC 1 
Final Rule.
    The Coast Guard, TSA and TSA's contractor, Lockheed Martin, worked 
collaboratively to develop the rolling COTP zone compliance dates. 
Factors taken into account when determining dates include progress of 
TWIC enrollment and activation, estimated TWIC population, and the 
enrollment capacity in a given COTP zone. COTP zones are grouped 
geographically for compliance where possible to account for the 
regional nature of commercial operations and to address concerns 
regarding port competition within geographical regions. Compliance 
dates seek to balance progress of enrollment with the need to motivate 
individuals to enroll. Capacity to enroll the TWIC populations is also 
a critical factor. In general, COTPs with smaller estimated TWIC 
populations and fewer enrollment locations were grouped together for 
earlier compliance while larger populated port areas with multiple 
locations were grouped later in the compliance schedule to facilitate a 
smooth transition from the enrollment phase to compliance.
    At present, TWIC compliance dates have been announced for 30 of the 
42 COTP zones. The first compliance date of October 15, 2008, was 
published in the Federal Register on May 7, 2008, for COTP Zones 
Boston, Northern New England, and Southeastern New England. The most 
recent announcement for a TWIC compliance date of January 13, 2009, was 
announced for COTP zones Hampton Roads, Morgan City, New Orleans, Upper 
Mississippi River, Miami, Key West, and St. Petersburg on September 9, 
2008.
                                 policy
    The Coast Guard and TSA developed several supplementary documents 
to help those who are required to comply with the regulation. To 
explain in detail how the Coast Guard intends to apply TWIC 
regulations, we established policy guidance in the form of a Navigation 
and Vessel Inspection Circular (NVIC), and provided answers in three 
Policy Advisory Council Frequently Asked Questions documents which were 
made available to the industry and general public on July 6, 2007, 
November 21, 2007 and January 7, 2008 respectively.
    The Policy Advisory Council is a group which was established during 
the original implementation of the MTSA regulations. It is made up of 
Coast Guard representatives from Headquarters, Area, and District level 
commands that are charged with considering questions from stakeholders 
and/or field offices to ensure consistent interpretation of regulation. 
These guidance documents will assist the maritime industry and general 
public with TWIC compliance and are designed to ensure consistent 
application across all of our MTSA-regulated facilities and vessels.
    Additionally two Small Business Administration Compliance Guides, 
one for owners and operators and another for TWIC applicants, were 
written to explain the program in basic language intended for the 
general public. These guides are available on our web sites and at our 
field units in printed form.
    Internal guidance documents for training, implementation, and 
enforcement for Coast Guard and TSA personnel were approved and 
distributed to field personnel during the first week of September.
                  stakeholder engagement and outreach
    From the onset, we have recognized that engagement with our 
affected stakeholders is crucial to successful implementation. The 
responses received during the NRPM comment period, for example, 
provided valuable insight into the unique operational issues facing 
labor, maritime facilities, and vessels required to comply with TWIC 
requirements. Comments questioning the technological and economic 
feasibility of employing the TWIC cards and card readers in the 
maritime environment led to splitting the rule, with the card reader 
requirements forming a separate, pending rulemaking.
    The Coast Guard also solicited comments from Coast Guard field 
units and industry stakeholders while drafting the TWIC NVIC. We 
received over 400 comments voicing general support for the policy and 
highlighting issues which needed more clarification. The stakeholder 
dialog continues and informs Policy Advisory Council decisions that aid 
in consistent TWIC implementation.
    Since publication of the Final Rule, the Coast Guard, TSA and TSA's 
contractor Lockheed Martin have conducted numerous outreach events at 
national venues such as the Passenger Vessel Association, American 
Waterways Operators, National Association of Charter Boat Operators, 
National Association of Waterfront Employers, and National 
Petrochemical Refiners Association meetings, SMART card and biometric 
industry conferences, maritime union meetings, American Association of 
Port Authorities conferences, and many others.
    While TSA has primary responsibility for outreach, the Coast Guard 
through Captain of the Port (COTP) and Area Maritime Security 
Committees (AMSC) continues to closely monitor and encourage enrollment 
for TWIC and work collaboratively with owners and operators of 
regulated facilities and vessels to ensure industry will be ready for 
compliance.
                           enrollment status
    The first enrollment center opened on October 16, 2007. With the 
opening of the enrollment center in Saipan, all 149 enrollment centers 
are currently operational. As of September 5, 2008, more than 483,000 
people have enrolled for their TWIC. The estimated population for those 
who will require this credential is between 750,000 and 1.2 million 
individuals.
                               compliance
    The Coast Guard has the primary responsibility for ensuring 
compliance with the TWIC regulations. We are working extensively with 
our DHS partners, including TSA and Customs and Border Protection 
(CBP), to develop enforcement assistance protocols.
    We have instituted several initiatives to encourage TWIC enrollment 
and to prepare owners and operators for compliance. One example is 
allowing MTSA exercise credit for facilities and vessels that survey 
TWIC holders through anticipated screening tactics and provide the data 
to the COTPs on the number of employees who have enrolled and activated 
their TWICs.
    We are also performing spot checks at facilities to gauge overall 
compliance. The data collected from these efforts is critical in 
understanding the overall readiness for compliance within a geographic 
region.
                          reader requirements
    The Coast Guard, with the support of TSA, has commenced work on the 
second TWIC rule which will address the requirement for TWIC readers in 
the maritime environment. Our intent for this rulemaking is to apply 
requirements in a risk-based fashion to leverage security benefits and 
capabilities. The Coast Guard solicited and received valuable input and 
recommendations from the Towing Safety Advisory Committee (TSAC), 
Merchant Marine Personnel Advisory Committee (MERPAC), and the National 
Maritime Security Advisory Committee (NMSAC) on specific aspects of 
potential applications of readers for vessels and facilities. As in all 
aspects of the TWIC program, our goal is to enhance maritime security 
while balancing the impact upon the stakeholders who are at the 
forefront of providing that security. As we evaluate the economic and 
operational impact on the maritime industry, we will continue to seek 
input and recommendations to develop and propose regulations requiring 
industry compliance.
                          reader pilot testing
    In accordance with the SAFE Port Act of 2006, TSA and the Coast 
Guard identified geographically and operationally diverse port and 
vessel locations willing to participate in the TWIC reader pilot 
testing. We are engaged in planning these pilot tests with ports and 
facilities including Los Angeles, Long Beach, New York, New Jersey, 
Brownsville, Magnolia Marine in Vicksburg, MS, Kinder Morgan in 
Chicago, IL, and Watermark Cruises in Annapolis, MD. All involved ports 
and facilities volunteered to participate and have received grants to 
purchase and install readers with necessary equipment. The initial 
planning and testing protocols have been developed and we look forward 
to deploying and testing readers in real world environments over the 
coming months. The data and lessons learned from the pilot tests will 
be invaluable information for the second proposed rulemaking.
                             the way ahead
    As enrollment rolls out across the country, the Coast Guard is also 
focusing on implementation and enforcement of the TWIC regulations. 
Compliance for MTSA-regulated facilities will be staged for each COTP 
Zone to gain the security benefits of the program as early as possible. 
TSA and the Coast Guard are continuing to monitor enrollment progress 
and trends. As we consider appropriate COTP zone compliance dates, we 
are mindful to balance the motivation to enroll with the capacity to 
deliver. In each case, the Coast Guard will announce compliance dates 
for each zone at least 90 days in advance. Currently, vessels and all 
mariners will be required to have TWICs by the national compliance date 
of April 15, 2009. Thus far, we have announced compliance dates for 
MTSA-regulated facilities in 30 out of 42 COTP zones.
    To leverage TWIC's biometric capability, the Coast Guard is 
procuring handheld biometric card readers to enable verification of 
identity and validity of credentials during vessel and facility 
inspections and spot checks. We are also on track with developing the 
systems necessary to implement the provision for newly hired employees 
to work while they await issuance of a TWIC.
                               conclusion
    The TWIC program is a complex endeavor. We continue to work closely 
with TSA to facilitate outreach to the maritime industry and improve 
enrollment processes. We have accomplished important milestones, 
strengthened working relationships with public and industry 
stakeholders, and held a steadfast commitment to protecting the 
maritime transportation system while facilitating commerce. While we 
have accomplished a great deal, much work remains involving 
implementation, compliance, enforcement, and continued industry 
engagement. As in the past, we will ensure Congress is informed of our 
progress.
    Thank you for the opportunity to testify today. I look forward to 
your questions.

    Ms. Sanchez. Thank you for your testimony. I now recognize 
Ms. Fanguy. Is that correct? I always slaughter your name.
    Ms. Fanguy. You have it exactly right.
    Ms. Sanchez. To summarize her statement for 5 minutes.

 STATEMENT OF MAURINE FANGUY, ACTING DIRECTOR FOR MARITIME AND 
SURFACE CREDENTIALING, TRANSPORTATION SECURITY ADMINISTRATION, 
                DEPARTMENT OF HOMELAND SECURITY

    Ms. Fanguy. Good morning, Chairwoman Sanchez, Ranking 
Member Souder and distinguished Members of the subcommittee. 
Thank you for this opportunity to speak about the steady 
progress we have made in implementing the Transportation Worker 
Identification Credential, or TWIC program.
    My name is Maurine Fanguy and I am the program director for 
TWIC. Today I am pleased to announce that we opened the final 
enrollment center in Saipan, successfully completing TWIC 
deployment. This makes 149 enrollment centers, 19 more than 
originally planned, and together with our mobile units provides 
an extensive network to support workers.
    We have the facilities and resources in place to support a 
smooth transition to compliance starting in October. We 
encourage workers who have not yet enrolled to start the 
process as soon as possible.
    Since we began TWIC enrollment 11 months ago, we have a 
number of other accomplishments to report. This week we crossed 
the half-million mark on enrollments and are well positioned to 
enroll all workers prior to April 2009. We have partnered with 
over 200 local businesses, unions and industry groups to enroll 
workers at their places of business. This has made the process 
much easier and saved the industry millions of dollars in 
travel and time away from work.
    We are enrolling nearly 20,000 workers per week and that 
number is climbing. Processing time has been streamlined and 
turnaround times continue to decrease. Currently the average 
time to get a card after enrollment is less than 2 weeks for 
workers with routine cases.
    We have 98.8 percent success rate with fingerprint 
submissions to the FBI, which is better than the industry 
standard. We have worked closely with the National Institute of 
Standards and Technology to ensure that those workers with poor 
quality or no prints are provided with cards that reflect that 
status. Help desk wait times average less than a minute, and 
customer satisfaction surveys indicate that the process is 
working.
    TWIC is by far the largest biometric smart card program of 
its kind in the world. As leaders in Federal credentialing, we 
continually analyze data in the field to find ways to 
streamline processes, refine the technology, and make TWIC 
easier and more convenient for workers.
    Partnership with industry is critical to developing 
practical approaches to make the program successful now and in 
the future. Some of these common-sense solutions include adding 
and relocating enrollment centers and direct response 
stakeholder feedback.
    For example, we recently added new centers on terminal 
islands between Los Angeles and Long Beach, and also in 
Houston, offering flexible hours of operation to accommodate 
after-hours enrollment when requested by stakeholders; adding 
on-line status checks so that workers can track the progress of 
their credentials; redesigning the disclosure form and 
translating it into 12 languages; rewriting the eligibility 
letters to make them easier for workers to understand and 
facilitate the appeals and waivers process; adding new help 
desk features, including e-mail and on-line and phone self-help 
to facilitate resolution of questions.
    We also continue with our aggressive communications 
campaign in partnership with the Coast Guard and industry. We 
have provided communications tool kits to our industry partners 
and maintain an outreach database with over 7,000 stakeholders. 
We applaud the efforts of maritime stakeholders to aggressively 
get the word out to their workers.
    We have developed targeted marketing materials for trucking 
and rail, advertising industry publications, attended numerous 
conferences and local meetings and participated in trucking 
radio call-in programs. We redesigned the TWIC web site to 
provide information tailored more specifically to workers, 
owners and operators, and technology providers.
    We also have several milestones to report on the TWIC 
reader pilot. In June we issued an announcement calling for 
biometric reader manufacturers to provide products for testing. 
We completed one round of testing and are pleased with the 
results. We are preparing to publish those results in the next 
few weeks.
    Based on the interest of additional manufacturers, we 
opened a second round of testing in August and expect to 
complete this testing in early October. The two rounds of 
testing will provide pilot participants with a wide selection 
of readers to choose from for their operational tests.
    We have completed initial baseline analysis at all of the 
pilot locations. We currently have more than 20 participants at 
four port authorities and three vessel operators, including the 
Port Authority of Los Angeles, Long Beach, New York and New 
Jersey, Brownsville, Magnolia Marine in Mississippi, Watermark 
Cruises in Annapolis, and the Staten Island Ferry.
    Based on the progress of our port partners in developing 
their operational test plans, we expect to begin field testing 
readers this winter. Much progress has been made in the first 
11 months of the TWIC enrollment program. When compliance 
begins next month, it will mark a significant milestone in our 
multilayered approach to securing our Nation's ports.
    We will continue to work with our partner, the Coast Guard, 
maritime stakeholders, and this subcommittee to ensure the on-
going success of the TWIC program.
    Thank you for the opportunity to appear today, and I would 
be happy to answer any questions.
    [The statement of Ms. Fanguy follows:]
                  Prepared Statement of Maurine Fanguy
                           September 17, 2008
    Good morning Chairwoman Sanchez, Ranking Member Souder, and 
distinguished Members of the subcommittee. Thank you for this 
opportunity to speak about the steady progress we have made in 
implementing the Transportation Worker Identification Credential (TWIC) 
program.
    My name is Maurine Fanguy and I am the Director of the TWIC 
program.
    TWIC, as you know, is a Department of Homeland Security (DHS) 
program with joint participation from the Transportation Security 
Administration (TSA) and the United States Coast Guard (USCG) to 
provide a tamper-resistant biometric credential to maritime workers 
requiring unescorted access to secure areas of port facilities and 
vessels regulated under the Maritime Transportation Security Act of 
2002 (MTSA), (Pub. L. 107-295). The operational costs of the TWIC 
program are entirely funded from fee revenue with no direct 
appropriated funds.
    I am especially pleased to announce today that we are completing 
the rollout of fixed enrollment centers with the opening of a center in 
Saipan. In 11 months since our beginning in Wilmington, Delaware, TSA 
has opened 149 fixed enrollment centers across the United States--from 
Maine to Hawaii; from Florida to Alaska, and the territories of Puerto 
Rico, the U.S. Virgin Islands, Guam, and now, Saipan.
                                progress
    As we continue rolling-out the TWIC program throughout the Nation, 
we have also made steady progress in several other areas in the past 
year.
Successful Program Rollout
    In addition to the 149 fixed enrollment centers, TSA continues to 
establish mobile enrollment centers Nation-wide, and has opened 183 
mobile centers to date, with plans for more than 100 additional mobile 
centers to bring TWIC to the worker. These mobile centers save workers 
significant travel costs, particularly in remote locations such as 
Alaska. As of the first week of this month, nearly 500,000 workers 
enrolled for their card, with more than 447,000 cards printed and 
319,000 cards activated. We are pleased with the program's start and 
look forward to continuing our efforts to complete the initial 
enrollment and support the full implementation of the TWIC program. A 
dashboard containing all pertinent enrollment statistics is updated 
weekly and publicly available through our web site at: www.tsa.gov/
assets/pdf/twic_dashboard.pdf.
Online Self-Service Capability
    As the enrollment program has grown over the past year, we enhanced 
our customer service by providing many services on the TSA TWIC web 
site. We offer workers the opportunity to pre-enroll by entering basic 
biographic data in advance of an appointment; locate enrollment center 
addresses and hours of operation; schedule appointments for enrollment 
and activation; check the status of the TWIC; access frequently asked 
questions; and obtain port-specific information, including timely 
information on enrollment center closings due to hurricanes.
Improved Operational Efficiency
    We have significantly shortened the time required for a worker to 
enroll in the program, produce the card, and return the card to the 
enrollment center. Currently, we are showing an average turnaround time 
of 2 weeks or less to provide a TWIC for a worker who completes the 
enrollment process with no additional issues requiring attention.
Establishing Reader Technical Specifications
    On June 20, 2008, TSA issued a Broad Agency Announcement (BAA) 
inviting vendors to express their interest, provide information, and 
demonstrate their capability to provide Smart Card biometric readers. 
Through the BAA, TSA is interested in obtaining information on both 
fixed and handheld portable readers that will fully read a TWIC and the 
biometric capabilities. A number of vendors participated in the first 
round of Initial Capability Evaluation (ICE) testing. Although TSA has 
not completed the formal review of the results of the first round of 
ICE testing, we are encouraged with the preliminary findings. TSA 
issued a second BAA on August 28, 2008, to solicit additional vendors 
to participate in the ICE testing of readers. Our intent is to continue 
ICE testing on an on-going basis to assist our stakeholders with 
identifying a choice of readers for deployment at secure areas of the 
marine transportation system.
Update on Card Reader Pilot Program
    As required by the SAFE Port Act, in cooperation with the USCG we 
have initiated pilot programs with over 20 participants at 7 locations 
across the country to test card readers. The pilots will test access 
control technologies in real world marine environments by investigating 
the impacts of requiring biometric identity verification on business 
processes, technology, and operational impacts on facilities and 
vessels of various size, type, and location. Our current list of 
locations includes the Port Authorities of Los Angeles, Long Beach, 
Brownsville, and New York/New Jersey, in addition to Watermark Cruises 
in Annapolis, Maryland, Staten Island Ferry, New York, and Magnolia 
Marine Transport of Vicksburg, Mississippi. For fiscal year 2008, 
Congress appropriated $8.1 million to support the card reader pilots, 
enabling TSA and the USCG to move forward with this important program. 
As part of the outreach efforts for the TWIC program and in conjunction 
with the Department's Port Security Grant Program, we continue to seek 
additional participants. Our objective is to include pilot test 
participants that are representative of a variety of facilities and 
vessels in a variety of geographic locations and environmental 
conditions. There appears to be sufficient interest from the maritime 
community to achieve this objective.
    Through collaborative efforts with our DHS and stakeholder partners 
we have made steady progress. We gained DHS approval of the pilot Test 
& Evaluation Master Plan. We obtained initial baseline data collection 
from all the pilot test locations and are working with each participant 
as they develop facility and vessel plans for the installation of 
readers and access control systems. As one example, the Port of Los 
Angeles has made commendable progress by completing detailed facility 
plans and utilizing an integrated approach for the facilities 
participating at the Port. As the program proceeds, the pilot tests 
will inform the USCG's TWIC reader rulemaking process and ultimately 
result in final regulations that require the deployment of 
transportation security card readers consistent with the findings of 
the pilot program.
Implementation of Compliance Date
    The TWIC Final Rule established an 18-month enrollment period. To 
better synchronize the implementation of the TWIC enrollment program 
with the TWIC Final Rule, TSA and the USCG published a final rule on 
May 7, 2008 (May Final Rule), moving the compliance date from September 
25, 2008 to April 15, 2009. The extension ensures that every individual 
who requires a TWIC will have the full 18-month enrollment period and 
provides adequate time for completion of the required security threat 
assessment, especially for workers who may be on the road or at sea for 
long periods of time. The May Final Rule also extends the compliance 
period for implementation of access control procedures for owners and 
operators of MTSA regulated vessels. Owners and operators of facilities 
and Outer Continental Shelf facilities should note, however, in 
accordance with the TWIC Final Rule, the Coast Guard has begun 
announcing rolling Captain of the Port zone compliance dates that 
require the use of TWIC in their access control procedures before April 
15, 2009.
                   lessons learned and future efforts
    As we move forward with the TWIC program, we continue to 
incorporate our ``lessons learned'' to drive sound management decisions 
that improve all aspects of the program and continue to closely monitor 
the end-to-end process to ensure accurate and timely security threat 
assessments are being conducted and high quality credentials are 
produced. We are proud of the significant progress we have made during 
the past year and we remain mindful of the challenges that lie ahead. 
These include:
  <bullet> Looking for efficiencies by eliminating duplicative 
        regulatory processes.--TSA and Coast Guard continue to develop 
        procedures for the sharing of fingerprints, identity 
        verification, criminal history, and photographs for TWIC and 
        Merchant Mariner Documents, which is expected to save not only 
        money but time. In addition, merchant mariners will no longer 
        be required to visit a Regional Exam Center to obtain and renew 
        their credentials, resulting in substantial time and travel 
        savings.
  <bullet> Placing the highest value in stakeholder input; it is time 
        well spent.--The public hearings, comments to the Notice of 
        Proposed Rulemaking, meetings with operators and associations, 
        and contributions of advisory councils all added great value. 
        We came away from each and every one of these efforts better 
        informed about the challenges, the impacts, and the practicable 
        options for protecting our ports. As an example, we added 19 
        fixed enrollment centers as a result of stakeholder feedback.
  <bullet> Promoting and safeguarding privacy.--All data collected at 
        an enrollment center is completely deleted from the enrollment 
        center work stations after transmission to TSA. The entire 
        enrollment record (including all fingerprints collected) is 
        stored solely in a secure TSA system, which is protected 
        through role-based entry, encryption, and segmentation to 
        prevent unauthorized use. No paper records with personally 
        identifiable information are created in the enrollment process.
  <bullet> Implementing technical innovation and adaptive contract 
        management.--The TWIC card is a 21st Century technology that 
        accommodates evolving IT standards suited to emerging needs 
        that span local, international, public, and private interests. 
        This requires continual reevaluation of the scope and methods 
        of contracting. We will continue to look for and implement 
        adaptive program planning, aggressive contractor oversight, and 
        metrics to ensure the success of the program.
  <bullet> Addressing new issues that may arise as we continue to 
        implement the program.--TSA is working towards coordinating the 
        technology, such as card readers, and creating a changing 
        environment and program control constraints. This is especially 
        a concern when the technology must be deployed to a vast 
        multitude of entities with remote connectivity challenges 
        (e.g., vessels) and varying degrees of access control system 
        capabilities. We will closely monitor the results of the card 
        reader pilot and work with the USCG to ensure the results are 
        reflected in the final rulemaking.
                               conclusion
    In implementing TWIC, we are taking steps that constitute an 
extremely important aspect to the security of our port facilities and 
vessels. TSA will continue to work with the U.S. Coast Guard and our 
maritime stakeholders to ensure that, for the first time in history, 
thousands of independent businesses will have one interoperable 
security network and workers will hold a common credential that can be 
used across that entire network.
    I appreciate the subcommittee's keen interest in an effective 
implementation of TWIC and I thank you for your support. Madam 
Chairwoman, this concludes my testimony, and I would be pleased to 
answer any questions that you may have.

    Ms. Sanchez. Thank you for your testimony.
    I now recognize Mr. Lord to summarize his statement for 5 
minutes.

    STATEMENT OF STEPHEN M. LORD, ACTING DIRECTOR, HOMELAND 
 SECURITY AND JUSTICE ISSUES, GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Lord. Thank you, Chairwoman Sanchez, Ranking Member 
Souder and Members of the subcommittee for inviting me here 
today to discuss GAO's work on TWIC. We have reported on the 
status of TWIC several times over the last few years, most 
recently in October 2007. My statement today is based on the 
information in these prior reports as well as some of the 
updated information we are collecting as part of our ongoing 
audit.
    Today I will highlight the recent progress made in 
implementing the program as well as some of the challenges 
facing TSA, the Coast Guard, and the maritime industry in 
implementing the program.
    I would now like to summarize my key observations. Overall, 
TSA and the Coast Guard continue to make progress in rolling 
out this program on a Nation-wide basis.
    First, TSA and the Coast Guard issued a first TWIC rule in 
January 2007, which establishes the basic enrollment 
requirements for the program. In addition, in July 2007, the 
Coast Guard issued additional guidance to clarify requirements 
for industry stakeholders.
    Second, enrollment numbers continue to grow. Close to 
500,000 of the estimated 1.2 million TWIC users are now 
enrolled in the program. Further, about 319,000 cards have been 
activated and issued to workers.
    Third, a TWIC reader pilot has been initiated to test TWIC 
access control technologies and their impact on maritime 
operations. This testing is an important step as the results of 
the pilot test will help inform the development of the second 
TWIC rule. However, given the complexities of the program, it 
will be important that TSA and the Coast Guard continue to work 
with industry stakeholders to monitor the program and 
effectively address any challenges that arise.
    One challenge is related to enrollment. TSA and the 
enrollment contractor continue to face the challenge of 
enrolling and issuing TWICs to a large population of workers by 
the April 15, 2009 deadline. Although TSA and its enrollment 
contractor have enrolled close to 500,000 people in the 
program, they still need to enroll an additional 700,000 
workers by the April 15, 2009 deadline. However, based on our 
review of average monthly enrollment trends, TSA could 
experience challenges in meeting this enrollment target.
    A second potential challenge is related to testing, as 
highlighted in our prior work, TSA and industry stakeholders 
need to carefully test the TWIC technology to ensure it works 
effectively in the harsh maritime environment. However, TSA and 
the Coast Guard have yet to complete these tests, distill the 
lessons learned of these tests, and incorporate these results 
in the proposed second rule. Thus, until the testing is 
completed and the second rule is issued, we will not know how 
well the technology works in practice or the time frames for 
final program implementation.
    In closing, as highlighted in our recent work, TSA has 
taken some important steps to strengthen the program. We 
commend their efforts. However, we still have several 
unanswered questions about the TWIC program:
    No. 1: How many people will eventually enroll in the 
program? Will TSA meet its looming April 15, 2009 enrollment 
deadline?
    No. 2: Will the technology work as designed in the harsh 
maritime environment? What are the lessons learned of the 
initial test?
    Finally, when will the second TWIC rule be issued? When 
will the TWIC program be thought fully operational? As you 
know, this program has been on-going for several years.
    Chairman Sanchez and Members of the subcommittee, this 
concludes my statement. I look forward to your questions.
    [The statement of Mr. Lord follows:]
                 Prepared Statement of Stephen M. Lord
                           September 17, 2008
                             gao highlights
    Highlights of GAO-08-1151T, a testimony before the Subcommittee on 
Border, Maritime, and Global Counterterrorism, Committee on Homeland 
Security, House of Representatives.
                         why gao did this study
    U.S. transportation systems and the estimated 4,000 transportation 
facilities move over 30 million tons of freight and provide an 
estimated 1.1 billion passenger trips each day. Since 2001 the 
Transportation Security Administration (TSA), part of the Department of 
Homeland Security (DHS) has protected these systems and facilities from 
terrorist attack. One program TSA utilizes is the Transportation Worker 
Identification Credential (TWIC) program, through which a common 
credential is being developed for transportation workers with access to 
secure areas. Ultimately planned for all transportation sectors, TSA, 
in cooperation with the U.S. Coast Guard, is initially focusing the 
TWIC program on the maritime sector.
    This testimony discusses: (1) The progress made in implementing the 
TWIC program and (2) some of the remaining program challenges. This 
testimony is based on GAO's September 2006 TWIC report, as well as 
selected updates and on-going work. To conduct this work, GAO reviewed 
program requirements and guidance, documentation on the status of the 
TWIC program, and interviewed program officials from TSA and the Coast 
Guard.
                          what gao recommends
    GAO has previously recommended that TSA conduct additional testing 
of the TWIC program to help ensure that all key components work 
effectively. TSA agreed with this recommendation and has taken action 
to implement it.
    transportation security.--transportation worker identification 
                      credential: a status update
What GAO Found
    Since GAO's 2006 report on the TWIC program, TSA and the Coast 
Guard have made progress in addressing legislative requirements and 
implementing and testing the program through a prototype and pilot, as 
well as addressing GAO recommendations related to conducting additional 
systems testing. Although GAO has not yet evaluated the effectiveness 
of TSA's and the Coast Guard's efforts, the two agencies have taken the 
following actions to continue to implement the TWIC program:
  <bullet> In January 2007, TSA and the Coast Guard issued the first 
        rule in Federal regulation to govern the TWIC program, setting 
        the requirements for enrolling maritime workers in the TWIC 
        program and issuing TWICs to these workers. The Coast Guard 
        issued complementary guidance in July 2007 to explain how the 
        maritime industry is to comply with these requirements.
  <bullet> Enrollment efforts began at the Port of Wilmington, 
        Delaware, in October 2007, and additional enrollments are under 
        way through a contractor. Of the 1.2 million identified TWIC 
        users, 492,928 (41 percent) were enrolled as of September 12, 
        2008.
  <bullet> The TWIC program has initiated its TWIC Reader pilot to test 
        card reader technology for use in controlling access to secure 
        areas of maritime transportation facilities and vessels, and 
        assess the impact of their installation on maritime operations. 
        This pilot is expected to inform the development of a second 
        TWIC rule on implementing access controls in the maritime 
        environment.
    TSA and the maritime industry continue to face two potential 
challenges in implementing the TWIC program.
  <bullet> TSA and its enrollment contractor continue to face 
        challenges in enrolling and issuing TWICs to a significantly 
        larger population than was done during TWIC program prototype 
        testing. TSA and its enrollment contractor now plan to enroll 
        and issue TWICs to an estimated target population of 1.2 
        million workers by April 15, 2009, compared to 770,000 workers 
        estimated in January 2007. Over 700,000 additional workers (59 
        percent of projected enrollees) still need to be enrolled in 
        the program by the April 15, 2009 deadline.
  <bullet> TSA and industry stakeholders will need to ensure that TWIC 
        access control technologies perform effectively in the harsh 
        maritime environment and balance security requirements with the 
        flow of maritime commerce. While testing is underway, the 
        lessons learned of the on-going tests remain to be distilled 
        and used to inform the development of additional regulatory 
        requirements.
    Madame Chairwoman and Members of the subcommittee: Thank you for 
inviting me to participate in today's hearing on the status of the 
Transportation Security Administration's (TSA) Transportation Worker 
Identification Credential (TWIC) program. The TWIC program was created 
to help protect the Nation's transportation facilities from the threat 
of terrorism by issuing identification cards only to workers who are 
not known to pose a terrorist threat and allowing these workers 
unescorted access to secure areas of the transportation system. Key 
aspects of the TWIC program include collecting personal and biometric 
information, such as fingerprints, to validate workers' identities; 
conducting background checks on transportation workers to ensure that 
they do not pose a security threat; and issuing tamper-resistant, 
biometric credentials, such as identification cards, for use in 
granting workers unescorted access to secure areas. The TWIC program is 
ultimately intended to support all modes of transportation. However, 
TSA, in partnership with the Coast Guard, is focusing initial 
implementation on the maritime sector.
    The TWIC program was established to respond to the provisions of 
several pieces of legislation and subsequent programming decisions. In 
the aftermath of the September 11, 2001, terrorist attacks, the 
Aviation and Transportation Security Act (ATSA) \1\ was enacted in 
November 2001 and, among other things, requires TSA, an agency within 
the Department of Homeland Security (DHS), to work with airport 
operators to strengthen access control points in secure areas and 
consider using biometric access control systems \2\ to verify the 
identity of individuals who seek to enter a secure airport area. In 
response to ATSA, TSA established the TWIC program in December 2001. 
Enacted in November 2002, the Maritime Transportation Security Act of 
2002 (MTSA) \3\ required the Secretary of Homeland Security to issue a 
maritime worker identification card that uses biometrics to control 
access to secure areas of maritime transportation facilities and 
vessels. In addition, the Security and Accountability For Every (SAFE) 
Port Act of 2006 amended MTSA to direct the Secretary of Homeland 
Security to, among other things, implement the TWIC Program at the 10 
highest-risk ports by July 1, 2007.\4\ TSA's responsibilities include 
enrolling TWIC users, conducting security threat assessments, and 
processing appeals to adverse TWIC qualification decisions. The Coast 
Guard is responsible for developing maritime security regulations and 
ensuring that maritime facilities and vessels are in compliance with 
these regulations.
---------------------------------------------------------------------------
    \1\ Pub. L. No. 107-71, 115 Stat. 597 (2001).
    \2\ A biometric access control system consists of technology that 
determines an individual's identity by detecting and matching unique 
physical or behavioral characteristics, such as fingerprint or voice 
patterns, as a means of verifying personal identity.
    \3\ Pub. L. No. 107-295, 116 Stat. 2064 (2002).
    \4\ Pub. L. No. 109-347, 120 Stat. 1884 (2006).
---------------------------------------------------------------------------
    We have reported on the status of the development and testing of 
the TWIC program several times. Our 2004 report \5\ identified 
challenges that TSA faced in developing regulations and a comprehensive 
plan for managing the program, as well as several factors that caused 
TSA to miss initial deadlines for issuing TWICs. In September 2006, we 
reported \6\ on challenges TSA encountered during TWIC program testing 
and several problems related to contract planning and oversight. We 
have since provided updates to this work in April and October 2007.\7\
---------------------------------------------------------------------------
    \5\ GAO, Port Security: Better Planning Needed to Develop and 
Operate Maritime Worker Identification Card Program, GAO-05-106 
(Washington, DC: Dec. 10, 2004).
    \6\ GAO, Transportation Security: DHS Should Address Key Challenges 
Before Implementing the Transportation Worker Identification Credential 
Program, GAO-06-982 (Washington, DC: Sept. 29, 2006).
    \7\ GAO, Transportation Security: TSA Has Made Progress in 
Implementing the Transportation Worker Identification Credential, but 
Challenges Remain, GAO-07-681T (Washington, DC: Apr. 12, 2007), and 
GAO, Transportation Security: TSA Has Made Progress in Implementing the 
Transportation Worker Identification Credential Program, but Challenges 
Remain, GAO-08-133T (Washington, DC: Oct. 31, 2007).
---------------------------------------------------------------------------
    My testimony today focuses on: (1) The progress made since 
September 2006 in implementing the TWIC program; and, (2) some of the 
remaining challenges that TSA, the Coast Guard, and the maritime 
industry must overcome to ensure the successful implementation of the 
program. Today's observations are based on our September 2006 TWIC 
report, which reflects work conducted at TSA and the Coast Guard, as 
well as site visits to transportation facilities that participated in 
testing the TWIC program; our subsequent updates to this work issued in 
April and October 2007; and our on-going review of the TWIC program 
initiated in July 2008. This current review of the implementation of 
the TWIC program will be published in 2009, and is being conducted for 
the Senate Committee on Commerce, Science, and Transportation; the 
House Committee on Homeland Security; and the House Committee on 
Transportation and Infrastructure. As part of our current engagement, 
we reviewed program documentation on the status of TWIC implementation; 
related guidance provided by the Coast Guard; information from maritime 
industry stakeholders, such as TWIC Stakeholder Communication Committee 
meeting minutes and reporting by the National Maritime Security 
Advisory Committee--an advisory council to DHS. In addition, we 
interviewed TWIC program officials from TSA--including the TWIC Program 
Director--and the Coast Guard regarding their efforts to implement the 
TWIC program and our prior recommendations although we did not 
independently assess the effectiveness of these efforts. We requested 
and received comments on the draft statement from TSA. We conducted 
this work from July 2008 through September 2008 in accordance with 
generally accepted government auditing standards. Those standards 
require that we plan and perform the audit to obtain sufficient, 
appropriate evidence to provide a reasonable basis for our findings and 
conclusions based on our audit objectives. We believe that the evidence 
obtained provides a reasonable basis for our findings and conclusions 
based on our audit objectives.
                                summary
    Since we reported on the TWIC program in September 2006,\8\ 
progress has been made in implementing the program. Although we have 
not yet independently assessed the effectiveness of these efforts, TSA 
and the Coast Guard have taken action to address legislative 
requirements to implement and test the program as well as our 
recommendations related to conducting additional systems testing. 
Specifically:
---------------------------------------------------------------------------
    \8\ GAO-06-982.
---------------------------------------------------------------------------
  <bullet> TSA and the Coast Guard issued the first TWIC rule in 
        January 2007, which sets forth the requirements for enrolling 
        maritime workers in the TWIC program and issuing TWICs to these 
        workers. In July 2007 the Coast Guard issued guidance 
        complementing the January 2007 TWIC rule. This guidance 
        provides additional context for how the maritime industry is to 
        comply with this TWIC rule.
  <bullet> Enrollment efforts have been underway. As of September 12, 
        2008, 492,928 enrollees, or 41 percent of the anticipated 1.2 
        million TWIC users, have enrolled in the TWIC program. Further, 
        318,738 TWICs have been activated and issued.
  <bullet> The TWIC program initiated the TWIC reader pilot to test 
        TWIC access control technologies and their impact on maritime 
        operations. A second rule is planned to be issued on the use of 
        TWIC access control technologies,\9\ including TWIC readers, 
        for confirming the identity of the TWIC holder against the 
        biometric information on the TWIC. However, TSA has not 
        established a date for completing the pilot.
---------------------------------------------------------------------------
    \9\ With regard to TWICs, access control technologies include, for 
example, card readers capable of reading TWICs, existing systems for 
controlling access at maritime transportation facilities and vessels, 
the TWIC database containing biometric information, and the interface 
between existing access control systems and the TWIC database.
---------------------------------------------------------------------------
    TSA and maritime industry stakeholders face two potential 
challenges in implementing the TWIC program.
  <bullet> As we have previously reported, TSA and its enrollment 
        contractor continue to face the challenge of enrolling and 
        issuing TWICs to a significantly larger population of workers 
        than was previously estimated. TSA and its enrollment 
        contractor now plan to enroll and issue TWICs to an estimated 
        target population of 1.2 million workers by April 15, 2009, 
        compared to 770,000 workers estimated in January 2007.\10\ 
        While 492,928 enrollments (41 percent) out of an estimated 
        target population of 1.2 million had been processed as of 
        September 12, 2008, an additional 707,072 workers (59 percent) 
        still need to be enrolled in the program by the April 15, 2009, 
        deadline.
---------------------------------------------------------------------------
    \10\ The January 2007 TWIC rule established that all maritime 
workers were expected to hold TWICs by September 25, 2008; however, the 
final compliance date has been extended from September 25, 2008 to 
April 15, 2009, pursuant to 73 Fed. Reg. 25562.
---------------------------------------------------------------------------
  <bullet> As highlighted in our prior work, TSA and industry 
        stakeholders will need to ensure that TWIC readers perform 
        effectively in the harsh maritime environment and balance 
        security requirements with the flow of maritime commerce. 
        However, since testing of how this technology works in practice 
        and accumulating the lessons learned remains on-going, TSA and 
        Coast Guard have yet to incorporate the results of these tests 
        into the second rule establishing the requirements and time 
        frames for implementing TWIC access control technologies. Our 
        on-going work will assess how the results of this testing is 
        used to inform the development of a second TWIC rule, and help 
        ensure an appropriate balance between security and commerce 
        requirements.
                               background
    Securing transportation systems and facilities is complicated, 
requiring balancing security to address potential threats while 
facilitating the flow of people and goods. These systems and facilities 
are critical components of the U.S. economy and are necessary for 
supplying goods throughout the country and supporting international 
commerce. U.S. maritime transportation systems and facilities \11\ move 
over 30 million tons of freight and provide approximately 1.1 billion 
passenger trips each day. The ports of Los Angeles and Long Beach 
estimate that they alone handle about 43 percent of the Nation's ocean-
going cargo. The importance of these systems and facilities also makes 
them attractive targets to terrorists.
---------------------------------------------------------------------------
    \11\ For the purposes of this report, the term maritime 
transportation facilities refers to seaports, inland ports, offshore 
facilities, and facilities located on the grounds of ports.
---------------------------------------------------------------------------
    These systems and facilities are vulnerable and difficult to secure 
given their size, easy accessibility, large number of potential 
targets, and proximity to urban areas. A terrorist attack on these 
systems and facilities could cause a tremendous loss of life and 
disruption to our society. An attack would also be costly. According to 
testimony by a Port of Los Angeles official, a 2002 labor dispute that 
led to a 10-day shutdown of West Coast port operations cost the 
Nation's economy an estimated $1.5 billion per day.\12\ A terrorist 
attack at a port facility could have a similar or greater impact.
---------------------------------------------------------------------------
    \12\ Testimony of the Director of Homeland Security, Port of Los 
Angeles, before the U.S. Senate Committee on Commerce, Science, and 
Transportation, May 16, 2006.
---------------------------------------------------------------------------
    One potential security threat stems from those individuals who work 
in secure areas of the Nation's transportation system, including 
maritime transportation facilities, airports, railroad terminals, mass 
transit stations, and other transportation facilities. It is estimated 
that about 6 million workers, including longshoremen, mechanics, 
aviation and railroad employees, truck drivers, and others access 
secure areas of the Nation's estimated 4,000 transportation facilities 
each day while performing their jobs. Some of these workers, such as 
truck drivers, regularly access secure areas at multiple transportation 
facilities. Ensuring that only workers who are not known to pose a 
terrorism security risk are allowed unescorted access to secure areas 
is important in helping to prevent an attack.
TWIC Program History
    In the aftermath of the September 11, 2001, terrorist attacks, the 
TWIC program was established in December 2001 to mitigate the threat of 
terrorists and other unauthorized persons from accessing secure areas 
of the entire transportation network, by creating a common 
identification credential that could be used by workers in all modes of 
transportation.\13\ As of September 2008 appropriated funds for the 
program totaled $103.4 million. Below are a number of key actions taken 
with respect to the implementation of the TWIC program.
---------------------------------------------------------------------------
    \13\ TSA was transferred from the Department of Transportation to 
DHS pursuant to requirements in the Homeland Security Act of 2002 (Pub. 
L. No. 107-296, 116 Stat. 2135 (2002)).
---------------------------------------------------------------------------
  <bullet> November 2002.--Enactment of the Maritime Transportation 
        Security Act of 2002, which required the Secretary of Homeland 
        Security to issue a maritime worker identification card that 
        uses biometrics to control access to secure areas of maritime 
        transportation facilities and vessels.
  <bullet> August 2004 through June 2005.--As part of its prototype 
        testing, TSA--through a private contractor--tested the TWIC 
        program at 28 transportation facilities across the country.
  <bullet> August 2006.--TSA decided that the TWIC program would be 
        implemented in the maritime sector using two separate rules. 
        The first rule covers use of TWICs as a credential for gaining 
        access to facilities and vessels. The second rule is planned to 
        address the use of access control technologies, such as TWIC 
        readers, for confirming the identity of the TWIC holder against 
        the biometric information on the TWIC.
  <bullet> October 2006.--The SAFE Port Act directed the Secretary of 
        Homeland Security to, among other things, implement the TWIC 
        program at the 10 highest-risk ports by July 1, 2007, and to 
        conduct a pilot program to test TWIC access control 
        technologies, such as TWIC readers, in the maritime 
        environment.
  <bullet> January 2007.--TSA and the Coast Guard issued a rule 
        requiring worker enrollment and TWIC issuance. TSA also awarded 
        a $70 million contract to begin enrolling workers and issuing 
        TWICs to workers.
  <bullet> July 2007.--The Coast Guard issued guidance on how the 
        maritime industry is to comply with the January 2007 TWIC rule 
        and how the Coast Guard will implement TWIC compliance efforts.
  <bullet> June 2008.--As part of the TWIC reader pilot, TSA issued an 
        agency announcement calling for biometric card readers to be 
        submitted for assessment as TWIC readers.
Key Components of the TWIC Program
    The TWIC program includes several key components:
  <bullet> Enrollment.--Transportation workers will be enrolled in the 
        TWIC program at enrollment centers by providing personal 
        information, such as name, date of birth, and address, and will 
        be photographed and fingerprinted. For those workers who are 
        unable to provide quality fingerprints, TSA is to collect an 
        alternate authentication identifier.
  <bullet> Background checks.--TSA will conduct background checks on 
        each worker to ensure that individuals do not pose a security 
        threat. These will include several components. First, TSA will 
        conduct a security threat assessment that may include, for 
        example, checks of terrorism databases or watch lists, such as 
        TSA's No-fly and selectee lists. Second, a Federal Bureau of 
        Investigation criminal history records check will be conducted 
        to identify if the worker has any disqualifying criminal 
        offenses. Third, the worker's immigration status and prior 
        determinations related to mental capacity will be checked. 
        Workers will have the opportunity to appeal negative results of 
        the threat assessment or request a waiver in certain 
        circumstances.
  <bullet> TWIC production.--After TSA determines that a worker has 
        passed the background check, the worker's information is 
        provided to a Federal card production facility where the TWIC 
        will be personalized for the worker, manufactured, and then 
        sent back to the enrollment center.
  <bullet> Card issuance.--Transportation workers are to be informed 
        when their TWICs are ready to be picked up at enrollment 
        centers. Once a TWIC has been activated and issued, workers may 
        present their TWICs to security officials when they seek to 
        enter a secure area, and in the future may use biometric card 
        readers to verify identity.
        progress has been made in implementing the twic program
    Several positive steps have been taken since our September 2006 
report \14\ toward successfully implementing the TWIC program. One key 
step was the issuance of the first TWIC rule by TSA and the Coast Guard 
in January 2007 establishing requirements for providing workers and 
merchant mariners access to maritime transportation facilities and 
vessels. To help facilitate the rule's implementation, in July 2007 the 
Coast Guard issued complementary guidance to help the maritime industry 
comply with the new TWIC regulations and facilitate the Coast Guard's 
implementation of TWIC-related compliance efforts. In addition, 
enrollment efforts have been under way, and 41 percent of the estimated 
1.2 million people needing TWICs have been enrolled. Finally, the TWIC 
program has initiated the TWIC reader pilot and is moving forward in 
testing TWIC access control technologies and their impact on maritime 
operations. However, TSA has not established time frames for completing 
this pilot program, the results of which will be used to inform the 
second rulemaking related to TWIC access control technologies.
---------------------------------------------------------------------------
    \14\ GAO-06-982.
---------------------------------------------------------------------------
TSA and the Coast Guard Issued a TWIC Rule, and Coast Guard Has Issued 
        Complementary Guidance to Facilitate TWIC's Implementation
    On January 25, 2007, TSA and the Coast Guard issued the first TWIC 
rule that, among other things, sets forth the regulatory requirements 
for enrolling workers and issuing TWICs to workers in the maritime 
sector. Specifically, this TWIC rule provides that workers and merchant 
mariners requiring unescorted access to secure areas of maritime 
transportation facilities and vessels must enroll in the TWIC program, 
undergo a background check, and obtain a TWIC before such access is 
granted. In addition, the rule requires owners and operators of MTSA-
regulated maritime transportation facilities and vessels to change 
their existing access control procedures to ensure that a merchant 
mariner and any other individual seeking unescorted access to a secure 
area of a facility or vessel has a TWIC.\15\ Table 1 describes the key 
requirements in the first TWIC rule.
---------------------------------------------------------------------------
    \15\ Persons not required to obtain or possess TWICs before 
accessing secure areas include, for example, Federal officials with 
specified types of credentials, State or local law enforcement 
officials, and State or local emergency responders.

        TABLE 1.--KEY REQUIREMENTS IN THE JANUARY 2007 TWIC RULE
------------------------------------------------------------------------
              Requirement                   Description of Requirement
------------------------------------------------------------------------
Transportation Workers.................  Individuals who require
                                          unescorted access to secure
                                          areas of maritime
                                          transportation facilities and
                                          vessels, and all merchant
                                          mariners, must obtain a TWIC
                                          before such access is granted.
Fees...................................  All workers applying for a TWIC
                                          will pay a fee of $132.50 to
                                          cover the costs associated
                                          with the TWIC program. Workers
                                          that have already undergone a
                                          Federal threat assessment
                                          comparable to the one required
                                          to obtain a TWIC will pay a
                                          reduced fee of $105.25. The
                                          replacement fee for a TWIC
                                          will be $60.
Access to secure areas of maritime       By no later than April 15,
 facilities and vessels.                  2009, facilities and vessels
                                          currently regulated under the
                                          Maritime Transportation
                                          Security Act must change their
                                          current access control
                                          procedures to ensure that any
                                          individual or merchant mariner
                                          seeking unescorted access to a
                                          secure area has a TWIC.
Newly hired workers and escorting        Newly hired workers who have
 procedures.                              applied for, but have not
                                          received, their TWIC, will be
                                          allowed access to secure areas
                                          for 30 days as long as they
                                          meet specified criteria, such
                                          as passing a TSA name-based
                                          background check, and only
                                          while accompanied by another
                                          employee with a TWIC.
                                          Individuals that need to enter
                                          a secure area but do not have
                                          a TWIC must be escorted at all
                                          times by individuals with a
                                          TWIC.
Background checks......................  All workers applying for a TWIC
                                          must provide certain personal
                                          information and fingerprints
                                          to TSA so that they can
                                          conduct a security threat
                                          assessment, which includes a
                                          Federal Bureau of
                                          Investigation fingerprint-
                                          based criminal history records
                                          check, and an immigration
                                          status check. In order to
                                          qualify for a TWIC, workers
                                          must not have been
                                          incarcerated or convicted of
                                          certain disqualifying crimes,
                                          must have legal presence or
                                          authorization to work in the
                                          United States, must have no
                                          known connection to terrorist
                                          activity, and cannot have been
                                          adjudicated as lacking mental
                                          capacity or have been
                                          committed to a mental health
                                          facility.
Appeals and waiver process.............  All TWIC applicants will have
                                          the opportunity to appeal a
                                          background check
                                          disqualification through TSA,
                                          or apply to TSA for a waiver
                                          of certain disqualifying
                                          factors, either during the
                                          application process or after
                                          being disqualified for certain
                                          crimes, mental incapacity, or
                                          if they are aliens in
                                          Temporary Protected Status.
                                          Applicants who apply for a
                                          waiver and are denied a TWIC
                                          by TSA, or applicants who are
                                          disqualified based on a
                                          determination that he or she
                                          poses a security threat, may,
                                          after an appeal, seek review
                                          by a Coast Guard
                                          administrative law judge.
Access control systems.................  The Coast Guard will conduct
                                          unannounced inspections to
                                          confirm the identity of TWIC
                                          holders using hand-held
                                          biometric card readers (i.e.,
                                          TWIC readers) to check the
                                          biometric on the TWIC against
                                          the person presenting the
                                          TWIC. In addition, security
                                          personnel will conduct visual
                                          inspections of the TWICs and
                                          look for signs of tampering or
                                          forgery when a worker enters a
                                          secure area.
------------------------------------------------------------------------
Source: GAO analysis of TWIC rule and TSA information.

    The January 2007 TWIC rule does not currently require owners and 
operators of maritime transportation facilities and vessels to employ 
TWIC readers to verify the biometric feature (e.g., TWIC holder's 
fingerprints) of the TWIC. These requirements are to be issued under a 
second rule at a later date. As a result, the TWIC will initially serve 
as a visual identity badge (i.e., a ``flash pass '') until the new rule 
requires that TWIC access control technologies, such as TWIC readers, 
be installed to verify the credentials when a worker enters a secure 
area. According to TSA, during initial implementation, workers will 
present their TWICs to authorized security personnel, who will compare 
each TWIC holder to his or her photo and inspect the card for signs of 
tampering. In addition, the Coast Guard will verify TWICs when 
conducting vessel and facility inspections and during spot checks using 
handheld TWIC readers to ensure that credentials are valid.
    On July 2, 2007, the Coast Guard also issued some supplementary 
guidance to help facilitate implementation of the January 2007 TWIC 
rule. Among other issues, the Coast Guard's Navigation and Vessel 
Inspection Circular (NVIC) Number 03-07 is designed to clarify the TWIC 
enrollment and issuance process, the waiver and application process, 
and approaches for enforcing TWIC program compliance. For instance, 
with regard to TWIC enrollment, the NVIC provides guidance on applying 
for appeals to disqualification decisions. The NVIC also provides 
guidance for escorting non-TWIC holders in secure areas. Under current 
procedures, one TWIC holder is allowed to escort 10 non-TWIC holders in 
secure areas of a facility.
TWIC Enrollment Efforts Are Progressing
    As we reported in October 2007,\16\ following the issuance of the 
first TWIC rule in January 2007, TSA awarded a $70 million contract to 
a private contractor to enroll the then estimated 770,000 workers 
required to obtain TWICs. Since our last update, enrollment in the TWIC 
program has progressed. TSA began enrolling and issuing TWICs to 
workers at the Port of Wilmington, Delaware, on October 16, 2007. Since 
then, 148 of 149 enrollment centers have been opened to meet TWIC 
enrollment demand, with the remaining center scheduled to be opened by 
September 17, 2008. Additionally, according to TSA, mobile centers have 
been deployed on an as-needed basis. As of September 12, 2008, TSA 
reports 492,928 enrollments and 318,738 TWICs activated and issued. All 
maritime workers are expected to hold TWICs by the January 2007 TWIC 
rule's revised compliance deadline of April 15, 2009.
---------------------------------------------------------------------------
    \16\ GAO-08-133T.
---------------------------------------------------------------------------
TWIC Reader Pilot Has Been Initiated to Test TWIC-Related Access 
        Control Technologies
    In response to our recommendation,\17\ and as required by the Safe 
Port Act,\18\ TSA has initiated a pilot, known as the TWIC reader 
pilot, to test TWIC-related access control technologies. This pilot is 
intended to test the business processes, technology, and operational 
impacts resulting from the deployment of TWIC readers at secure areas 
of the marine transportation system. As such, the pilot is expected to 
test the viability of existing biometric card readers for use in 
reading TWICs within the maritime environment. It will also test the 
technical aspects of connecting existing access control systems at 
maritime transportation facilities and vessels to TWIC readers and 
databases containing the required biometric information, for confirming 
the identity of the TWIC holder against the biometric information on 
the TWIC. After the pilot has concluded, the results are expected to 
inform the development of the second rule requiring the deployment of 
TWIC readers for use in controlling access in the maritime environment. 
However, at this time, TSA officials do not yet have a date established 
for the completion of this pilot. Further, time frames for completing 
the second rule are not set.
---------------------------------------------------------------------------
    \17\ GAO-06-982.
    \18\ Pub. L. No. 109-347, 120 Stat. 1884, 1889-90 (2006).
---------------------------------------------------------------------------
    The TWIC reader pilot consists of three assessments with the 
results of each assessment intended to inform subsequent assessments. 
This testing is currently under way, and we will analyze the test 
results as part of our on-going work. The three assessments are as 
follows:
  <bullet> Initial technical testing.--This assessment is laboratory-
        based and is designed to determine if selected biometric card 
        readers meet TWIC card-reader specifications.\19\ These 
        specifications include technical and environmental requirements 
        deemed necessary for use in the harsh maritime environment. At 
        the completion of initial technical testing, a formal test 
        report will be developed to prioritize all problems with 
        readers based on their potential to adversely impact the 
        maritime transportation facility or vessel. Based on this 
        assessment, readers with problems that would severely impact 
        maritime operations are not to be recommended for use in the 
        next phase of testing. At this time, TSA is conducting the 
        initial technical testing portion of the TWIC reader pilot. As 
        part of this assessment, in June 2008, TSA issued an 
        announcement calling for biometric card readers to be submitted 
        for assessment as TWIC readers. According to the TWIC Program 
        Director, an initial round of TWIC reader testing has been 
        completed and a second round of testing has been initiated. 
        This is expected to provide a broader range of readers to be 
        used as part of subsequent assessments.
---------------------------------------------------------------------------
    \19\ TWIC Card Reader Specifications were first published in 
September 2007 and last updated on May 30, 2008.
---------------------------------------------------------------------------
  <bullet> Early operational assessment.--This assessment is to 
        evaluate the impact of TWIC reader implementation on the flow 
        of commerce. Key results to be achieved as part of this 
        assessment include obtaining essential data to inform 
        development of the second rule, assessing reader suitability 
        and effectiveness, and further refining reader specifications. 
        As part of this process, maritime transportation facilities and 
        vessels participating in the pilot are to select the readers 
        they plan to test and install, and test readers as part of the 
        test site's normal business and operational environment. In 
        preparation for the early operational assessment segment of 
        this pilot, the TWIC Program Director stated that program staff 
        have started working with pilot participants to review test 
        plans and expect to initiate the early operational assessment 
        portion of the pilot in early 2009. As part of this pilot, TSA 
        is partnering with maritime transportation facilities at five 
        ports as well as three vessel operators.\20\ TSA's objective is 
        to include pilot test participants that are representative of a 
        variety of maritime transportation facilities and vessels in 
        different geographic locations and environmental conditions.
---------------------------------------------------------------------------
    \20\ Port test participants include the port authorities of Los 
Angeles, Long Beach, Brownsville, New York, and New Jersey. In 
addition, vessel operation participants include the Staten Island Ferry 
in Staten Island, New York; Magnolia Marine Transports in Vicksburg, 
Mississippi; and Watermark Cruises in Annapolis, Maryland.
---------------------------------------------------------------------------
  <bullet> System test and evaluation.--Building on the results of the 
        initial technical testing and the early operational assessment, 
        the system test and evaluation is intended to evaluate the full 
        impact of maritime transportation facility and vessel operators 
        complying with a range of requirements anticipated to be 
        included in the second TWIC rule, such as TWIC reader 
        effectiveness, suitability, and supportability. In addition, 
        this evaluation is expected to establish a test protocol for 
        evaluating readers prior to acquiring them for official TWIC 
        implementation.
    Our on-going review of the TWIC program will provide additional 
details on the results of the TWIC reader pilot and how these results 
helped inform the anticipated second TWIC rule.
tsa and maritime industry stakeholders face two potential challenges in 
                     implementing the twic program
    TSA and maritime industry stakeholders face two potential 
challenges in ensuring that the TWIC program will be implemented 
successfully. TSA and its enrollment contractor are planning to enroll 
and issue TWICs to a significantly larger population of workers than 
was originally estimated. Specifically, TSA estimates that it will need 
to issue TWICs to 1.2 million workers by April 15, 2009.\21\ This 
target population is significantly larger than the estimated target 
population identified in the January 2007 rule. Further, TSA and 
maritime industry stakeholders also face challenges in ensuring that 
TWIC access control technologies, such as biometric card readers, work 
effectively in the harsh maritime environment and ensuring that 
security requirements are balanced with the flow of commerce. However, 
since TSA is still testing this technology and accumulating the lessons 
learned from this testing, it is unclear how effectively this 
technology works in practice. These testing results will be used to 
help inform the development of the second rule establishing the 
requirements and time frames for implementing TWIC access control 
technologies. Our on-going work will assess how the results of this 
testing are used to inform the development of the second rule and help 
ensure an appropriate balance between security and commerce.
---------------------------------------------------------------------------
    \21\ As previously noted, the final compliance date has been 
extended from September 25, 2008, to April 15, 2009 (73 Fed. Reg. 25562 
(May 7, 2008)).
---------------------------------------------------------------------------
Increase in Estimated Target Population one of Several Issues 
        Identified During the Initial Enrollment Process
    In September 2006 we reported \22\ that TSA faced the challenge of 
enrolling and issuing TWICs in a timely manner to a significantly 
larger population of workers than was done during the TWIC prototype 
test, which was conducted from August 2004 through June 2005. Since 
then, steps have been taken to improve the enrollment and TWIC issuance 
process. For example, according to TSA officials, the TWIC enrollment 
systems were tested to ensure that they would work effectively and be 
able to handle the full capacity of enrollments during implementation.
---------------------------------------------------------------------------
    \22\ GAO-06-982.
---------------------------------------------------------------------------
    Despite these positive steps, there have been issues associated 
with the TWIC enrollment process. As documented in TWIC program 
documentation, enrollment issues include miscommunication about the 
wait time for TWICs to be available, such as enrollees being told that 
TWICs would be available in 10 to 30 days rather than 6 to 8 weeks. In 
addition, help desk issues existed, such as approximately 70 percent of 
calls placed to the help desk being abandoned and call wait times 
reported to be as long as 20 minutes when they were planned for 3 
minutes. According to TSA officials, actions have been taken to address 
these problems.
    Additionally, in July 2008, the National Maritime Security Advisory 
Committee--chartered to advise, consult with, report to, and make 
recommendations to the Secretary of the Department of Homeland Security 
on matters relating to maritime security--reported \23\ on several 
unresolved problems, which it contends help to foster an unfavorable 
sentiment among stakeholders. \24\ Among other issues, the committee 
report noted:
---------------------------------------------------------------------------
    \23\ National Maritime Security Advisory Committee, TWIC Working 
Group, Discussion Items, as amended July 30, 2008.
    \24\ The National Maritime Security Advisory Committee was 
established under the authority of the Maritime Transportation Security 
Act of 2002 to provide advice and make recommendations to the Secretary 
of Homeland Security via the Commandant of the Coast Guard on national 
maritime security matters.
---------------------------------------------------------------------------
  <bullet> poor communication and outreach regarding the trucking and 
        merchant mariner communities, and whether these communities are 
        fully aware of TWIC program requirements, and:
  <bullet> technical issues whereby biometric scanning equipment did 
        not accurately record and process enrollee fingerprint 
        templates.
    TWIC program management disputed the National Maritime Security 
Advisory Committee's findings, stating that some of the findings in the 
report are outdated or inaccurate. For instance, according to the TWIC 
Program Director, the fingerprint rejection rates for the program are 
within acceptable standards as defined in the contract and are 
consistent with other Government experiences. Moreover, the Program 
Director noted that to be helpful, the committee needs to prioritize 
the issues it identified. TSA plans to meet with the committee on 
September 18, 2008 to respond to the report.
    Nevertheless, TWIC program management and the contractor report 
that they have taken action to remediate several of the problems 
identified above. For example, to address the issues related to the 
help desk, TWIC program management reports that it worked with its 
contractor to add additional resources at the help desk to meet call 
volume demand. Similarly, to counter the lack of access or parking at 
enrollment centers at the Port of Los Angeles, TSA's contractor opened 
an additional enrollment facility with truck parking access as well as 
extended operating hours.
            Additional Steps Are Being Taken to Clarify Final 
                    Enrollment Figures and Address Enrollment 
                    Challenges
    To help meet the challenge of enrolling and issuing TWICs to an 
estimated 1.2 million workers by April 15, 2009, TSA and the Coast 
Guard are working to update estimates for the number of people 
requiring TWICs. TWIC program management does not have a precise 
estimate of the total number and location of potential enrollees. For 
instance, while the January 2007 TWIC rule identifies that 770,000 TWIC 
enrollments were anticipated, that number has been revised to 
approximately 1.2 million--nearly double the original estimate. 
According to the TWIC Program Director, it is difficult to know how 
many individuals will enroll in the program as no association, port 
owner, or government agency previously tracked this information. The 
Program Director also told us that some anticipated enrollees may have 
been double-counted. Therefore, the number of enrollees that actually 
enroll may be fewer than the estimated 1.2 million. As part of an 
effort to develop better enrollee estimates, TSA reports that it is 
currently completing a contingency analysis in coordination with the 
Coast Guard that will better identify the size of its target enrollee 
population at major ports. For example, in preparation for meeting 
enrollment demands at the Port of Houston, TWIC program officials are 
updating prior estimates of maritime workers requiring TWICs for access 
to this port's facilities. To better meet possible short-term spikes in 
enrollment application demand--such as in final weeks before individual 
ports must meet final TWIC enrollment requirements--the TWIC program is 
promoting the use of mobile enrollment centers whereby temporary 
centers are set up to help enroll employees for TWICs.
    However, given that 492,928 enrollments (41 percent) out of an 
estimated target population of 1.2 million had been processed as of 
September 12, 2008, an additional 707,072 workers (59 percent) still 
need to be enrolled in the program by the April 15, 2009 deadline. 
Further, assuming the current rate of enrollment, there will be an 
estimated shortfall of 393,391 TWIC enrollees in April 2009. As such, 
meeting final enrollment and TWIC issuance requirements by April 15, 
2009, could pose a challenge. We will continue to monitor these efforts 
as part of our on-going engagement.
TSA and Industry Stakeholders Taking Steps to Ensure That TWIC Access 
        Control Technologies Work Effectively in a Harsh Maritime 
        Environment
    In our September 2006 report,\25\ we noted that TSA and maritime 
industry stakeholders faced significant challenges in ensuring that 
TWIC access control technologies, such as biometric card readers, work 
effectively in the maritime sector. Few facilities that participated in 
the TWIC prototype tested the use of biometric card readers. As a 
result, TSA obtained limited information on the operational 
effectiveness of biometric card readers for use with TWICs, 
particularly when individuals use these readers outdoors in the harsh 
maritime environment, where they can be affected by dirt, salt, wind, 
and rain. In addition, TSA did not test the use of biometric card 
readers on vessels, although they will be required on vessels in the 
future. Further, industry stakeholders with whom we spoke were 
concerned about:
---------------------------------------------------------------------------
    \25\ GAO-06-982.
---------------------------------------------------------------------------
  <bullet> the costs of implementing and operating TWIC access control 
        systems;
  <bullet> linking card readers to their local access control systems; 
        and,
  <bullet> how biometric card readers would be implemented and used on 
        vessels.
    Because of comments received from maritime industry stakeholders 
prior to issuing its January 2007 TWIC rule, TSA and Coast Guard 
excluded all access control requirements from this rule. Instead, TSA 
and Coast Guard now plan to issue a second TWIC rule pertaining to 
access control requirements, such as TWIC readers.
    In our September 2006 report, we noted \26\ that TSA and industry 
stakeholders will need to consider the security benefits of the TWIC 
program and the impact the program could have on maritime commerce. 
According to TSA, if implemented effectively, the security benefits of 
the TWIC program in preventing a terrorist attack could save lives and 
avoid a costly disruption in maritime commerce. Alternatively, if key 
components of the TWIC program, such as biometric card readers, do not 
work effectively, they could slow the daily flow of commerce.
---------------------------------------------------------------------------
    \26\ GAO-06-982.
---------------------------------------------------------------------------
    Our September 2006 report \27\ also recommended that TSA conduct 
additional testing to ensure that TWIC access control technologies work 
effectively and that the TWIC program balances the security benefits of 
the program with the impact that it could have on the flow of maritime 
commerce. In response to our recommendation and to address SAFE Port 
Act requirements,\28\ TSA has initiated a TWIC reader pilot that, as 
previously discussed, includes an assessment of card readers against 
TWIC technical and environmental specifications. In addition, the pilot 
will include testing at various maritime transportation facilities and 
vessels to assess the performance of biometric card readers as well as 
the impact TWIC use will have on operations when used as part of 
existing maritime transportation facility and vessel access control 
systems. The results of this pilot are to be used to help develop the 
second TWIC rule on TWIC access control technologies, such as TWIC 
readers. However, as discussed earlier, this testing is still under way 
and TSA has not established a date for completing the pilot program. 
Moreover, a date has not been set for issuing the second TWIC rule on 
the requirements and time frames for implementing the TWIC access 
control technology. Our on-going work will assess how the lessons 
learned from the testing are used to inform the development of the 
second rule and help ensure an appropriate balance between security and 
commerce.
---------------------------------------------------------------------------
    \27\ GAO-06-982.
    \28\ The SAFE Port Act requires TSA to issue a final rule 
containing the requirements for installing and using TWIC access 
control technologies no later than 2 years after the initiation of the 
pilot.
---------------------------------------------------------------------------
                        concluding observations
    Addressing the issue of maritime security is a major challenge 
given the size and complexity of the maritime transportation network. 
Since we first reported on the TWIC program in December 2004,\29\ TSA 
has made progress toward implementing the program, including issuing a 
TWIC rule, enrolling some workers in the program, and conducting 
additional testing at several key maritime transportation facilities 
and vessels. While the additional testing that TSA reports conducting 
and the actions it has taken should help address the challenges that we 
have previously identified, the effectiveness of these efforts will not 
be clear until the program further matures. TSA still faces the 
challenges of clarifying the size of its target enrollee population and 
ensuring that the lessons learned from the ongoing TWIC pilot are 
distilled and used to inform the development of additional regulatory 
requirements. Given the looming April 2009 enrollment deadline and that 
more than 700,000 workers still need to be enrolled in the program, a 
late enrollment surge could potentially impact maritime security and 
trade. Successfully addressing these challenges will help ensure that 
TWIC meets the goal of establishing an interoperable security network 
based on a common identification credential.
---------------------------------------------------------------------------
    \29\ GAO-05-106.
---------------------------------------------------------------------------
    Madam Chairwoman, this concludes my statement. I would be pleased 
to answer any questions that you or other Members of the subcommittee 
may have at this time.

    Ms. Sanchez. I thank the witnesses. I remind each Member 
that they will have 5 minutes to question the panel. I will now 
recognize myself for questions.
    Ms. Fanguy, Mr. Lord had a series of questions at the end 
of his testimony, including how many people do we think will 
eventually be signed up in this program and will we meet the 
April 2009 enrollment deadline? Will the readers work? Can you 
give me your best guess, since you are the program manager on 
the answers to his questions?
    Ms. Fanguy. Absolutely. On question No. 1, in terms of the 
enrollment numbers, we are continuing to work with the Coast 
Guard to make sure that we refine the population estimates 
locally. When we are looking at the trending of enrollment 
figures, what we are seeing is that the numbers each week go 
up, especially as the Coast Guard continues to announce 
compliance. So as we are looking at the trending, we do feel 
confident that we will enroll all of the workers by April 2009.
    On the second question of the technology, again I think 
that is where industry collaboration is key. We worked very 
closely with the NMSAC TWIC Working Group to actually develop 
the technology standards for TWIC, and I think that we got some 
very good input from them which we incorporated into our final 
specifications. So we are in the process of completing our 
bench-testing of the readers. We have had very good results 
thus far. We are looking forward later this year to actually be 
able to take that equipment and put it out in the field so we 
can get good data back.
    Ms. Sanchez. When will the second rule be done?
    Ms. Fanguy. The Coast Guard is actually the lead agency on 
the final rule, but we will be supporting them in that effort.
    Ms. Sanchez. Admiral.
    Admiral Watson. We are in the process of getting that 
second rule sequence going. It will begin with an advance 
notice of proposed rulemaking very, very soon. The challenge is 
that we need to get some information so that we can propose 
rules for how these readers are going to be used in different 
circumstances, with different risk levels, in the various 
ports.
    Ms. Sanchez. Let us go back. Very, very soon means?
    Admiral Watson. Oh, within days. For the advanced notice of 
proposed rulemaking.
    Ms. Sanchez. What type of information do you not have in 
hand, and how long will it take you to get that before you can 
move forward?
    Admiral Watson. We got a lot of information through our 
advisory committee, but obviously the broader public has 
information to offer in light of the fact that there are 
technological challenges as well as operational challenges for 
reader deployment and use. So getting this information back is 
critical for us to put out the notice of proposed rulemaking. 
But because of all of that work that has been done, we don't 
anticipate a very long time frame between getting the responses 
from the advance notice to putting out the notice.
    Ms. Sanchez. Back to the original question. How many people 
in total do you think are going to be in this program, enrolled 
by April 2009? Do you think that will be the--I mean, what will 
that--what do you think that will be? Ninety percent of the 
people who actually are the ones trying to get enrolled, 99 
percent of the people?
    Ms. Fanguy. We are aiming for 100 percent. Right now our 
population estimate is 1.2 million. But again, one of the 
challenging parts of this industry is that we have a highly 
mobile work force. There are people who work at multiple ports, 
multiple facilities, and they move around quite a lot. So what 
we are trying to do is make sure we are not double-counting. 
But the best estimate we have right now is 1.2 million. But we 
are going to continue to work very closely with our partners at 
the Coast Guard as well as industry to make sure that everyone 
has enrolled in time.
    Ms. Sanchez. So you think 1.2 million people would be the 
total, and you are shooting for 100 percent, and you think you 
are going to meet that 100 percent by April 2009?
    Ms. Fanguy. Our goal is to continue to communicate with 
people to make sure that they come in on time, to make sure 
that they know what their responsibilities are.
    Ms. Sanchez. That wasn't the answer--I mean, I asked a 
specific question.
    Ms. Fanguy. We have more than adequate capacity to handle 
that. The one thing we don't have under control is human 
nature. But anybody that wants to enroll. There are plenty of 
appointments right now, especially in some of the larger areas. 
Right now, of course, in Texas, people have other things that 
they may be focusing on. But out on the West Coast, plenty of 
appointments for people to come in and enroll, and we encourage 
people to come in now so that they don't have any inconvenience 
as it gets closer to April.
    Ms. Sanchez. What about this whole issue as with respect to 
citizenship? I know it has affected many of your people, 
Admiral. The issue that the Lockheed people don't have a very 
good understanding of the differences in ship, paper, et 
cetera. Do we have a program where we are educating more about 
what to accept? What about these people who came in with 
passports and were actually sent away without even getting 
copies of their passports and then denied because you all 
thought they weren't citizens?
    Ms. Fanguy. A few things on that. One is that we asked our 
contractor to do a retraining of all their trusted agents, 
which they have done, to make sure that they have the right 
information on collecting immigration documentation. They have 
been given the clear message that if somebody brings in a 
passport, that is absolutely a good document to take and that 
should be taken.
    In addition to that, we recently put out guidance to be 
able to go through all of the different immigration classes 
that we support to provide information to workers about what 
documents to bring. But if somebody is confused about the 
process, we do have a way of handling their cases. All they 
have to do is really to send us a photocopy of their 
documentation so that we can clear them out of the system and 
get them their card.
    Ms. Sanchez. I am going to let Mr. Souder ask his 5 
minutes' worth.
    I would just say to Mr. Lord, I would like you to think if 
there are any questions you would like answered by any of these 
that we can come back and ask them. Yes?
    Before we do that, I would like to ask unanimous consent to 
proceed in the absence of a quorum because I don't know, Mr. 
Souder, if you will be coming back or not. So be it. Five 
minutes.
    Mr. Souder. I am merely going to put two questions on the 
record because I have a bill up that I have to go over and see 
what the status of it is right away. But I wanted to make sure 
that these two questions get answered, but I need to take off 
as quick as I can.
    One is what specific steps has TSA taken to ensure that the 
trucking industry is adequately notified of their need to have 
a TWIC, and is there any way to gauge how successful these 
efforts have been? Is that part of this unknown? We are getting 
more and more people coming in because there was lack of 
clarity as to who needed what, and now there is increasing 
concern, and do we know where that cap is?
    The other question for the Coast Guard is, as you said, you 
were looking at the proposed rulemaking; that you will play a 
large role in specifying the facilities, how they screen their 
employees for TWIC upon entry. There are numerous questions. 
Will they be required to give their fingerprint each time they 
enter, or once a day? What about their PIN number? What if the 
machine is malfunctioning, will they be required to swipe their 
TWIC card upon exit?
    All of these will have a direct impact. The question is, 
will you get an operational test of this while we are testing 
the systems, or could this result in significant delays 
depending on the details of how it is implemented as we are 
moving forth? I am sorry I need to head to the floor, but I 
need to get there as quick as possible. Thank you.
    Ms. Sanchez. Okay. Well, why don't we hear the answers to 
those questions?
    Ms. Fanguy. I can address the aspect about trucking. 
Trucking is an absolutely critical part of maritime 
transportation security, and we have embarked on a pretty 
aggressive campaign to get outreach out to the truckers. I know 
I personally have attended a number of trucking association 
meetings. I have worked very closely with the American trucking 
associations. We have recently developed flyers that are very 
specifically targeted to truckers, and then try to get those 
out to our port partners.
    As I have been traveling around the port, I think that 
there is very good messaging. When we actually got some 
photographs from Boston and it says ``No TWIC, no entry'' right 
there on the gates to the port, I think that is a pretty clear 
message, very easy for truckers to see.
    When I was out on the West Coast, Los Angeles and Long 
Beach, very clear signage to let people know you need to come 
in and enroll for a TWIC. We are actually located right off of 
the roads where the truckers are going back and forth.
    In addition to that, we have tried to do outreach through 
other mechanisms, like call-in radio programs. I think that has 
actually been pretty effective to get the drivers who are 
actually at work hauling between the different ports. But 
truckers are certainly an unknown population in terms of how 
large they are. We want to continue to work to make sure that 
we enroll all of the truckers so there is no delay at the 
ports.
    Ms. Sanchez. Mr. Lord, can you comment on what you have 
seen with respect to truckers and the TWIC situation?
    Mr. Lord. I agree with Ms. Fanguy that truckers tend to be 
an independent lot by nature and they have been reluctant in 
the past to come forward, absent a firm deadline for enrolling. 
So I think it is good that the Coast Guard is moving this to a 
phased-out process and establishing deadlines before April 15 
to help serve as an additional incentive to enrollment.
    But I think that poses an additional challenge, you know, 
identifying the magnitude of the truckers subject to TWIC. I 
think they are still working through that.
    Ms. Sanchez. I hope when you are out in Los Angeles/Long 
Beach next week, maybe you will take a look at how that whole 
trucking situation is happening out there.
    Mr. Lord. We would be glad to.
    Ms. Sanchez. Great. How will these on-going programs with 
the TWIC be handed over when a new President comes in? What is 
the backup plan? What is the transition plan? What have you 
been doing with respect to all of this?
    I will start with Ms. Fanguy and then I will ask the 
Admiral.
    Ms. Fanguy. In terms of transition planning, we have an 
overall program plan that takes us up to April and then plans 
we have had in place for a long period of time post-April. So 
our plans really won't change.
    The other part of it is that we have been developing 
transition briefing materials for the next administration so 
that whoever that may be, will be well-briefed on where we are 
in the program, any of the challenges we face, the history of 
the TWIC program, and what our plans are for going forward. But 
we have a strong structure in place and the management team 
that is running the TWIC program, to the best of my knowledge, 
will be the same team as we move into--as the January time 
frame.
    Ms. Sanchez. Admiral.
    Admiral Watson. The same with the Coast Guard. We have 
plans set through April 15. We are announcing these different 
sequential Captain of the Port Zones for enforcement. We have 
got a plan to get these regulations out for the reader program 
and deployment.
    The transition I don't think will have a huge effect on 
this. We will obviously get the new people that come in as a 
result of the transition fully informed and explain to them the 
timeline and where we have come from and where we are going to.
    Ms. Sanchez. Thank you, Admiral. Mr. Lord, is there a 
question I should be asking these two in front of me about the 
program?
    Mr. Lord. One question I am still interested in clarifying 
is the relationship between the issuance of the final rule and 
the testing. If the testing is not scheduled for completion 
until late next year, how will that inform the development of 
the rule if it is issued earlier? I mean, to me it makes sense 
to distill the lessons learned of the test and then issue the 
rule. But from Admiral Watson's testimony, it sounds like the 
rule may be issued before all the testing is completed.
    Ms. Sanchez. Anybody want to take that?
    Admiral Watson. I think I can try that. It also ties into, 
I think, Congressman Souder's questions with regard to the 
terminal operator's use of the TWIC reader equipment. We are 
collecting a lot of this information on basically how terminals 
work. As you know, there is lots of credentialing already going 
on at the individual port level. There are even readers in 
place in a lot of facilities using locally developed systems 
and so on. There are lessons learned from that. We expect to be 
collecting that information, even before we do our own 
piloting, and then put out a notice of proposed rulemaking. 
That actually is timed, I think appropriately, so that the 
pilots in Los Angeles and New York and so on, can actually 
deploy their pilot readers using that proposed rule as their 
standard. Then we will see how that proposed rule standard is 
working through the piloting program and then the final rule 
will come out.
    Now, you know, the exact timing of the final rule to the 
completion of the pilot program, obviously, there are some 
variables in there. I don't think that we necessarily have to 
wait until the pilot program is completely finished and 
documented and all that stuff. But we will certainly be looking 
very closely to get as much out of that pilot program before we 
publish the final rule as possible.
    Ms. Sanchez. Unfortunately, I have to go down to the House 
because it is 2 minutes away from the end of a vote. Mr. Souder 
did have a question about the types--the operational questions 
that he had about the card reader pilots and the role and the 
guidance of the Coast Guard and et cetera.
    So, for the written record we will be submitting his 
questions to make sure you all get back to us on those. I hope 
you do get back to us on those. Because sometimes the 
Department of Homeland Security doesn't answer our questions 
when we send them in writing, and that is all going to change 
from now on.
    So I have, I believe--most likely Mr. Souder won't be 
coming back, and I will be the only one. So what I am going to 
do is thank you for being before our committee and actually 
dismiss you. It will be about half-an-hour's worth of vote 
because there are some recommits and some debate that will have 
to happen on the House floor before we get back. So what I will 
do is go into recess on the committee and we will meet back in 
about half-an-hour's time with the second panel. But the first 
panel is not off the hook because we are going to submit some 
questions to you in writing and we would like those answers 
back from you as quickly as possible. Thank you.
    [Recess.]
    Ms. Sanchez. The subcommittee is now in order, and I 
welcome the second panel of our witnesses.
    Our first witness is Ms. Judy Marks, President, Lockheed 
Martin Transportation and Security Solutions. Our second 
witness is Ms. Stephanie Bowman, Manager, Federal Governmental 
Affairs, Port of Tacoma. Mr. Roberto Saarenas, the Security 
Director, was originally supposed to testify, but his father 
passed away on Monday, so we offer our condolences to him and 
to his family. Our third witness is Mr. Philip Byrd, President 
and CEO, Bulldog Hiway Express. Our fourth witness is Mr. Steve 
Golding, President of Golding Barge Line; and our fifth witness 
is Ms. Laura Moskowitz, Staff Attorney, National Employment Law 
Project. Or whatever. It is easy here.
    So, without objection, the witnesses' full statements will 
be inserted into the record.
    I now ask Ms. Marks to summarize her statement in 5 minutes 
or less.

   STATEMENT OF JUDITH MARKS, PRESIDENT, TRANSPORTATION AND 
              SECURITY SOLUTIONS, LOCKHEED MARTIN

    Ms. Marks. Chairwoman Sanchez and Members of the 
subcommittee, thank you for the opportunity to discuss the 
Transportation Worker Identification Credential, or TWIC, 
program. I look forward to sharing the progress we have 
achieved on this important program.
    Before discussing our role in depth, I would like to 
provide a real-time snapshot of where we are in the Nation-wide 
enrollment phase of the program.
    Lockheed Martin has deployed all 149 enrollment centers and 
provided enrollment and activation services for the past 11 
months. We are proud to report that we have deployed more sites 
faster than any other credentialing program in operation today. 
On average, we enroll 3,200 people every day; and, to date, we 
have enrolled over 500,000 individuals and have activated and 
distributed credentials to over 300,000 enrollees.
    The wait times continue to meet all required TSA service 
level agreements; and, perhaps most importantly, we have 
received a greater-than 93-percent-positive customer 
satisfaction rating based on individual customer surveys. As 
with any program of this magnitude, we have experienced some 
start-up challenges. But the majority of these initial issues 
have been resolved through the deployment of additional 
resources, assets and skilled people.
    Currently, our national average wait time to enroll is 
under 15 minutes. We continuously monitor throughput, and we 
have routed additional resources and staff to areas of high 
demand. The current average time of enrollment to the 
credential being available for issuance is approximately 2 to 3 
weeks, and we have been able to issue credentials to applicants 
in as little as 5 days.
    The Coast Guard, as you just heard, has begun announcing 
compliance dates for ports. While we continue to enroll and 
activate TWIC credentials Nation-wide, we are also focusing our 
energies on encouraging the remainder of the transportation 
worker population to enroll prior to these announced compliance 
dates.
    As part of our targeted outreach and in direct response to 
stakeholder feedback, we have opened two additional facilities, 
one in Long Beach and the other in Houston, to increase 
convenience and enrollment capacity.
    Lockheed Martin and the Coast Guard have met with the 
majority of rail industry leaders, and in response to concerns 
from the rail industry TSA and Lockheed Martin are working 
together to develop alternative enrollment options. Similarly, 
we have met with representatives from major trucking companies 
and associations, including the ATA, Truck Stop Operators and 
Motor Vehicle Association, to find ways to reach out to the 
trucking community, including utilizing trucking publications 
and other methods.
    Initial enrollment projections indicated an estimated 
750,000 applicants would be enrolled in TWIC. Since contract 
award, the Coast Guard, TSA and Lockheed Martin have received 
reports from a number of ports indicating national population 
will be significantly larger than was initially anticipated. We 
anticipate the initial population to be closer to 1.2 million 
individuals.
    The Coast Guard continues to conduct weekly calls with the 
captain of the port zones to develop an accurate assessment of 
how many people remain to enroll before the mid-April 
compliance date. Meanwhile, we have taken a very flexible 
approach to planning our operations. We focus on the use of 
mobile enrollment stations which can be taken directly to 
stakeholder facilities and certain geographically dispersed 
communities in Alaska and other locations. To date, we have 
conducted over 220 mobile enrollments Nation-wide at port 
facilities, at employers, maritime academies and union halls. 
In addition to the use of mobile units we have developed a 
Nation-wide surge plan that allows for rapid expansion of 
capacity at any of the 149 port locations.
    Lockheed Martin also provides resources and information to 
applicants through our web site at a TWIC call center. Earlier 
this year, we did experience challenges with this TWIC call 
center, an important resource for all workers. We made multiple 
enhancements at no cost to our customers which decrease helped 
us speed up answer times, bringing them well below our 
contractual requirement of a 3-minute average. In fact, today 
the average caller to the help desk experiences less than a 30-
second wait time.
    Lockheed Martin is committed to the successful 
implementation of the Nation-wide enrollment phase of the TWIC 
program. As compliance is declared at ports across the country, 
we will work diligently to support the remaining maritime 
workers who need to enroll; and we will promptly activate their 
credentials.
    In addition, we very much appreciate your continued 
leadership in your home States and districts. The relationships 
you have cultivated with port and industry leaders in your 
communities will be invaluable in continuing to emphasize the 
critical nature of this program to our Homeland Security and to 
our continued economic vitality.
    Thank you.
    [The statement of Ms. Marks follows:]
                   Prepared Statement of Judith Marks
                           September 17, 2008
    The Transportation Worker Identification Credential (TWIC) IV 
program is a Transportation Security Administration and U.S. Coast 
Guard port security initiative. The TWIC program provides a tamper-
resistant biometric credential to maritime workers requiring unescorted 
access to secure areas of port facilities, outer continental shelf 
facilities, vessels regulated under the Maritime Transportation 
Security Act (MTSA), and to all U.S. Coast Guard credentialed merchant 
mariners.
    Enrollment and issuance of TWIC credentials began in October 2007 
at the Port of Wilmington, Delaware and is now available at 149 port 
locations and at multiple stakeholder facilities via mobile enrollment. 
Although original estimates placed the port worker population requiring 
TWICs at 750,000, recent data suggests the revised population count may 
be double that original projection. Over 500,000 people have enrolled 
to date. To obtain a TWIC credential, an individual must provide 
biographic and biometric information in the form of fingerprints, sit 
for a digital photograph, and successfully pass a security threat 
assessment conducted by TSA.
    The Coast Guard continues to announce compliance dates for ports, 
mandating that those personnel who require unescorted access to secure 
areas of port facilities must have received their credentials. We are 
continuing to enroll and activate TWIC credentials Nation-wide, while 
also focusing our energies on encouraging the remainder of the port 
worker population to enroll prior to the Coast Guard compliance dates.
                     enrollment activities to date
    Lockheed Martin has deployed 149 enrollment centers and provided 
enrollment and activation services for the past 11 months. We are proud 
to report that we have deployed more sites faster than any other 
credentialing program in operation today. On average, we enroll 3,200 
individuals daily but in recent weeks have seen daily volumes approach 
5,000 as we near the first compliance date. To date, we have enrolled 
more than 500,000 individuals, activated and distributed credentials to 
300,000 enrollees, and deployed to 149 fixed port locations.
    We are proud that Lockheed Martin has met every contractual 
deployment milestone on the TWIC IV program, including deploying to 
some of the Nations' largest ports: Los Angeles/Long Beach, New York/
New Jersey, and Houston. Wait times continue to decrease and continue 
to meet all required TSA service level agreements for wait time. 
Perhaps most importantly, we have received a greater than 93 percent 
positive customer satisfaction rating to date based on individual 
customer surveys that TWIC recipients return after their credentials 
have been activated. As with any program of this magnitude, we have 
experienced some start-up challenges, specifically in areas such as 
network connectivity, customer interaction, and wait times. The 
majority of these initial issues have been resolved through the 
deployment of additional resources, assets and skilled people to 
address them when and where they have been identified. We have 
continued to apply lessons we learn during each port deployment to 
avoid repetition as we completed the national network of enrollment 
centers.
                            program outreach
    The TWIC program will touch more than 1 million Americans' lives, 
and we have strived to ensure that the experience is as positive as 
possible for those affected. We utilize several methods for 
communicating about the program and receiving feedback.
    On a national level, stakeholder outreach and communications is 
facilitated primarily through the TWIC Stakeholder Communications 
Committee (TSCC). The TSCC is facilitated by Lockheed Martin and 
Deloitte Consulting. TSA and the Coast Guard take a leadership role in 
our monthly TSCC meetings, which are attended by representatives from 
49 organizations including labor unions, industry associations, and 
other related groups. The TSCC provides a forum for communication about 
the program status and key features, and offers stakeholders the 
opportunity to provide feedback and voice concerns. To date, 21 
meetings of the TSCC have been held.
    Local outreach to port stakeholders has always been an integral 
part of the TWIC deployment process. Our local database is approaching 
7,000 owners, operators, unions, port authorities, associations and 
other TWIC program participants.
    In several port locations, local stakeholder working groups have 
been formed, which may be chaired by TSA, Coast Guard or a local 
stakeholder. These groups have provided an excellent forum to discuss 
on-going enrollment operations, provide updates on the program, and 
receive feedback. As part of our targeted outreach, Lockheed Martin has 
met with the majority of rail industry leaders. In response to concerns 
from the rail industry, TSA and Lockheed Martin are working together to 
develop alternative enrollment options. Similarly, we have met with 
representatives from major trucking companies and associations to find 
ways to reach the trucking community.
                         enrollment population
    One of the key objectives of our deployment operation is to 
understand the size and geographic distribution of the maritime 
population. Initial projections developed under contract to TSA were 
provided to Lockheed Martin as part of the TWIC IV solicitation 
process. These projections indicated that an estimated 750,000 
applicants would be enrolled during the initial base term of the 
Lockheed Martin contract. Since contract award, the Coast Guard, TSA, 
and Lockheed Martin have received reports from a number of ports 
indicating that the actual population may be significantly larger in 
some areas than was initially anticipated. We anticipate the initial 
population to be closer to 1.25 million people. The Coast Guard 
continues to conduct weekly calls with Captain of the Port Zones, which 
are actively surveying and assessing their population numbers to 
develop an accurate assessment of how many people remain to enroll in 
the TWIC program.
    Meanwhile, we have taken a very flexible approach to planning our 
operations. We focus this flexible approach on the use of mobile 
enrollment workstations, which can be taken directly to stakeholder 
facilities. This provides an additional level of convenience for the 
individual workers and employers, and also enables more effective 
management of applicant throughput, by minimizing lines at fixed 
facilities and easing the burden on major employers.
    To date, we have conducted over 220 mobile enrollments at port 
facilities, employers, maritime academies and union halls. In addition 
to use of mobile units, we have developed a national surge plan that 
allows for rapid expansion of capacity at any of the 149 port 
locations. This includes extending the hours of operation and adding 
additional work shifts, adding additional staff, and increasing the 
number of enrollment stations by bringing in mobile units. We 
demonstrated this flexibility and used this plan to move additional 
assets and resources into key areas such as Baton Rouge, Lake Charles, 
New Orleans and Houston.
                        minimizing inconvenience
    We recognize that with a population that is already working hard to 
support a constantly growing maritime transportation and commerce 
system, convenience in the TWIC enrollment process is critical. That's 
why we have taken steps to make this process as smooth as possible.
    As discussed above, we work with major stakeholders at all ports to 
enroll as much of the population as possible at stakeholder facilities. 
These may be employer facilities, union halls, maritime academies or 
industry association offices. We also coordinate the issuance and 
activation of cards at these locations wherever possible.
    We also offer multiple pre-enrollment options. Pre-enrollment 
involves the advance provision of biographical information so that this 
information does not need to be collected at the time of enrollment. 
Pre-enrollment may be accomplished on-line, via the TWIC Helpdesk phone 
number, or, at larger ports, via self-service kiosks. Pre-enrollment 
also provides an opportunity to schedule an appointment at the TWIC 
enrollment facility, further reducing an applicant's wait time.
    Currently, our national average wait time to enroll is 15 minutes. 
We continuously monitor throughput and we have routed additional 
resources and staff to areas of high demand. From the point at which an 
enrollment application is completed, the information is securely sent 
within 1 day to the Government. A background check is conducted via the 
TSA security threat assessment, which varies in cycle time. Other 
factors may also influence the turnaround time for a credential being 
available for issuance. We have been able to issue credentials to 
applicants in as little as 5 days. The current average from time of 
enrollment to the credential being available for issuance is 
approximately 2 to 3 weeks.
    We recognize that certain parts of the country have significant 
populations of people for whom English is not their first language. In 
these locations, we have trusted agents who speak other languages. Our 
pre-enrollment web site and multiple help desk call attendants are 
bilingual (English/Spanish), as is our enrollment center work station 
software and TWIC web site.
    As with any program involving a FBI background fingerprint check, a 
percentage of the population will have their fingerprints rejected by 
the Bureau as unreadable. Our current fingerprint rejection rate is 1.5 
percent of the population, which is far lower than other fingerprinting 
programs nationally which range between 2 percent and 4 percent. To 
minimize the number of rejects, we apply quality algorithms to each set 
of fingerprints captured in our enrollment centers. This provides 
trusted agents with an immediate indicator if prints are of low 
quality, and provides an opportunity to recapture them on the spot. If 
repeated attempts to capture high-quality prints are unsuccessful, we 
turn to a procedure recently developed in conjunction with TSA to 
electronically enhance the captured fingerprint, without distortion, 
and resubmit to the FBI. This new process should allow us to avoid 
calling the applicant back to the enrollment center and further 
inconveniencing the applicant. Notifications of this new policy and 
information on the status of the applications were recently sent out to 
those affected applicants.
    In addition, when enrollment centers have experienced technical 
difficulties that resulted in significant downtime, or have had to 
close, we have made efforts to contact affected individuals and offered 
to reschedule appointments. We understand that workers' time is very 
valuable--to them and to the companies they support.
                               gulf coast
    One of the geographic areas we have seen significant differences in 
the population estimates to date has been in the Gulf Coast. In Baton 
Rouge, initial enrollee estimates were around 6,000 and current 
estimates appear to be closer to 40,000 to 60,000. This initially 
resulted in higher-than-expected demand and, as a consequence, longer-
than-desired wait times. To address this, we activated our surge plans, 
increasing our capacity to five times greater than the number of 
enrollment stations originally deployed and scheduling mobile 
enrollment at additional sites. Feedback from our Exxon mobile 
enrollment has been positive and we have seen sustained improvement in 
enrollment activities at the Baton Rouge site.
    In Houston, we anticipated a large demand and started with a higher 
capacity than originally planned. We also instituted longer operating 
hours. To date, Houston throughput has been the highest of any site to 
date, averaging 250 enrollments per day. We have sent additional 
enrollment and activation stations to Houston as well as brought on 
additional trusted agents to handle the increasing workload. We have 
also been working closely with the local stakeholder working group to 
quickly address issues as they arise; recent feedback has been 
positive. Perhaps most notably, based on stakeholder feedback, we 
opened an additional enrollment center in Houston in July.
                  ports of los angeles and long beach
    We had also encountered some concerns regarding enrollment 
operations at the Ports of Los Angeles and Long Beach. This issue 
focused primarily on the enrollment center locations, specifically 
their proximity to the ports and the availability of truck parking. 
Additionally, stakeholders expressed concern that the two initial fixed 
enrollment locations would be insufficient to cover the enrollment 
population at their ports.
    To address these issues, we have worked very closely with key port 
personnel and area stakeholders to develop an aggressive mobile 
enrollment plan. We also opened an additional fixed enrollment center 
at Terminal Island, squarely between the two port properties, with 
truck parking and directly on a key route that truck operators utilize. 
Since opening in June, this Terminal Island location has seen more than 
1,600 enrollees.
                                 alaska
    Enrollments in Alaska began on April 28 in Juneau, the first of 
four fixed centers to open in the State. Over the ensuing 2 months, 
centers also opened in Anchorage, Valdez and Nikiski. We knew that four 
fixed centers would not fully accommodate Alaska's geographically 
dispersed projected population of 5,000 port workers. Along with TSA 
and the Coast Guard, we worked closely with key stakeholders in Alaska, 
including the Alaska Marine Highway Association and the Alaska Maritime 
Exchange to develop a ``round robin'' approach to enrolling hard-to-
reach communities.
    Through this method, we utilize mobile enrollment units in publicly 
accessible ``hosted'' locations. Some of the populations to be enrolled 
in these hosted locations are small in comparison to our normal mobile 
activities. Once enrollments are completed in each area, the mobile 
team then moves to the next location. The mobile team will re-deploy at 
the appropriate time to those locations to issue and activate the 
cards.
    Multiple communities in Alaska have or will benefit from this 
tailored approach, including Kodiak, Sitka, Cordova, Wrangell, Craig, 
Dutch Harbor, Ketchikan, Skagway, and Haines.
    We are very proud of our work with the Alaska stakeholders to 
develop an enrollment plan that will reach a significant majority of 
the estimated population in Alaska. We are striving to replicate this 
model for some of the hard-to-reach communities in Hawaii and we are 
currently working with local stakeholders there.
                               help desk
    Lockheed Martin also provides program resources and information to 
applicants through a web site and a TWIC call center. Earlier this 
year, Lockheed Martin experienced challenges with the TWIC call center 
help desk, an important resource for port workers. Reducing wait times 
and enhancing service levels to increase customer satisfaction is a top 
priority. We made multiple enhancements--at no cost to our customer--
which decreased help desk speed of answer times, bringing them well 
below our contract requirement of a 3-minute average. In fact, today, 
the average caller to the help desk experiences only a 30-second wait 
time.
                               conclusion
    Lockheed Martin is committed to the successful implementation of 
the enrollment phase of the TWIC program. We are proud of our team 
which has successfully opened 149 enrollment locations Nation-wide, 
enrolled over 500,000 people in the program, remained responsive to 
stakeholder and applicant feedback, and conducted extensive stakeholder 
outreach across the country. As compliance is declared at ports across 
the country, you have our promise that we will work diligently to 
support the remaining maritime workers who need to enroll--and to 
promptly activate their credentials. In addition, we very much 
appreciate your continued leadership in your home States and districts. 
The relationships you have cultivated with port and industry leaders in 
your communities will be invaluable in continuing to emphasize the 
critical nature of this program--to our homeland security and to our 
continued economic vitality.

    Ms. Sanchez. Thank you.
    Now we will hear from Ms. Bowman.

  STATEMENT OF STEPHANIE BOWMAN, MANAGER, FEDERAL GOVERNMENT 
                    AFFAIRS, PORT OF TACOMA

    Ms. Bowman. Good morning Madam Chairwoman, Members of the 
committee. For the record my name is Stephanie Bowman, Director 
of Federal Affairs for the Port of Tacoma. I am here on today 
on behalf of our port security director, Mr. Roberto Saarenas. 
Thank you for the opportunity to submit testimony on behalf of 
the implementation of the Transportation Worker Identification 
Credential.
    The Port of Tacoma began TWIC implementation on November 7, 
2007. We were selected by the Department of Homeland Security 
as one of the first five ports to adopt TWIC; and as of 
September 5 of this year we have had 6,107 enrollments, of 
which 4,635 cards have been activated. However, we 
conservatively estimate that 4,000 individuals, or about 40 
percent, still need to enroll in our port area before the 
deadline in 7 months.
    Last week, the Port of Tacoma participated in the Port 
Security Caucus hosted by the American Association of Port 
Authorities. At this meeting, port security directors from 
around the country exchanged information about their 
experiences with the TWIC enrollment process. We are 
experiencing similar challenges as other ports, including:
    Problems with the fingerprint readers. Specifically, there 
have been problems with the software being unable to verify 
fingerprints of individuals when they come into the enrollment 
center to activate their TWIC. If there are problems in a 
secure office environment, it is difficult to imagine how the 
readers will work once exposed to the extreme weather of the 
maritime terminal.
    Lack of communication and inconsistent messages from the 
enrollment center staff about requirements for enrollment or 
activation. For example, some of the our security officers have 
been told to come into the enrollment center and then are 
admonished by staff when they show up without an appointment. 
Additionally, citizens born outside the United States receive 
inconsistent information about the documentation required of 
them. This has frequently resulted in long waits to enroll or 
activate cards. We are concerned that the situation will get 
significantly worse the closer to the enrollment deadline or 
unsure if the contractor will be prepared to handle the surges 
in enrollment.
    Outreach to critical port personnel such as truckers, 
vendors and contractors. While we and other ports have 
conducted considerable outreach, including signage, town hall 
events and the like, this remains a significant concern.
    Looking forward, the Port of Tacoma, along with other U.S. 
major ports, have identified a number of areas we urge DHS and 
the Coast Guard to address, including:
    Ensuring ample time for vendors, contractors and service 
workers to get their TWIC. This is particularly worrisome for 
those individuals who need access to the port only temporarily 
or infrequently but for whom an escort is unreasonable; for 
example, municipal utility workers checking meters or railroad 
workers handling secure cargo.
    Providing clear and consistent guidelines for escorting of 
roll-on roll-off cargo--that is large bulk cargo such as 
automobiles or tractors--as well as guidelines for escorting 
shipboard crew. In the absence of industry guidelines, the Port 
of Tacoma is developing its own protocol for escorting in these 
situations, but it is clearly in the best interest of everyone 
if there is a template for all ports to adhere to.
    Greater outreach. TWIC is a Federal mandate. We believe the 
U.S. Coast Guard and the Department of Homeland Security should 
take greater responsibility and have a much more active role in 
the outreach efforts about this new requirement. They cannot 
rely only on industry and the Federal contractor to get the 
word out.
    Long-term plans for enrollment centers. Most enrollment 
centers, like ours in Tacoma, are in temporary locations or on 
short-term leases. What is the long-term, on-going plan for 
these centers? For example, enrollment centers need to have 
adequate parking for trucks; and they need to be ADA-compliant. 
They can't simply be located in a shopping mall.
    Finally, we urge DHS to exempt TWIC card readers from the 
cost-share requirement under the port security grant program.
    In conclusion, the public ports of the United States share 
the goal of Congress and the Federal agencies in ensuring the 
security of our Nation's gateways while avoiding disruption of 
the flow of international commerce. The Port of Tacoma and 
other U.S. ports are committed to doing our part to comply. We 
offer our concerns today not simply to criticize but to educate 
and hopefully improve the system.
    Thank you for your attention. I am happy to answer any 
questions.
    [The statement of Ms. Bowman follows:]
                 Prepared Statement of Stephanie Bowman
                           September 17, 2008
    Good morning Madam Chairman and Members of the subcommittee. Thank 
you for the opportunity to provide this subcommittee with an update on 
the implementation of the Transportation Workers Identification Card 
(TWIC).
    The Port of Tacoma began TWIC implementation on November 7, 2007. 
We were selected by the Department of Homeland Security as one of the 
first five ports to adopt TWIC, and as of September 5, 2008, we've had 
6,107 enrollments, of which 4,635 cards have been activated. However, 
we conservatively estimate another 4,000 individuals--or 40 percent--
still need to enroll in our port area before the deadline in only 5 
months.
    Last week, the Port of Tacoma participated in the Port Security 
Caucus hosted by the American Association of Port Authorities. At this 
meeting, port security directors from around the country exchanged 
information about their experiences with the TWIC enrollment process. 
We are experiencing similar challenges as other ports, including:
  <bullet> Problems with fingerprint readers.--Specifically, there have 
        been problems with the software being unable to verify the 
        fingerprints of individuals when they come in to the enrollment 
        center to activate their TWIC. If there are problems in a 
        secure office environment, it's difficult to imagine how the 
        readers will work once exposed to the extreme weather of a 
        maritime terminal.
  <bullet> Lack of communication and inconsistent messages from the 
        enrollment center staff about requirements for enrollment or 
        activation.--For example, some of my security officers have 
        been told to come to the enrollment center, and then are 
        admonished by staff when they show up without an appointment; 
        additionally, citizens born outside the United States receive 
        inconsistent information about the documentation required of 
        them. This has frequently resulted in long waits to enroll or 
        activate cards. We are concerned this situation will get 
        significantly worse the closer to the enrollment deadline. We 
        are unsure if the contractor is prepared to handle the surges 
        in enrollment.
  <bullet> Outreach to critical port personnel such as truckers, 
        vendors and contractors.--While we and other ports have 
        conducted considerable outreach including signage, town hall 
        events and the like, this remains a significant concern.
    Looking forward, the Port of Tacoma along with other major U.S. 
ports has identified a number of areas we urge DHS and the USCG to 
address, including:
  <bullet> Ensuring ample time for vendors, contractors and service 
        workers to get their TWIC. This is particularly worrisome for 
        those individuals who need access to the Port only temporarily 
        or infrequently but for whom an escort is unreasonable; for 
        example, municipal utility workers checking meters or railroad 
        workers handling secure cargo.
  <bullet> Providing clear, consistent guidelines for escorting of 
        roll-on, roll-off cargo--that's large bulk cargo such as 
        automobiles or tractors--as well as guidelines for escorting 
        ship-board crew. In the absence of industry guidelines, the 
        Port of Tacoma is developing its own protocol for escorting in 
        these situations, but clearly it's in the best interest of 
        everyone if there is a template for all ports to adhere to.
  <bullet> Greater outreach. TWIC is a Federal mandate; we believe the 
        U.S. Coast Guard and Department of Homeland Security should 
        take greater responsibility and have a much more active role in 
        the outreach efforts about the new requirement. They cannot 
        rely only on industry and the Federal contractor to get the 
        word out about this mandate.
  <bullet> Long-term plans for enrollment centers. Most enrollment 
        centers, like ours in Tacoma, are in temporary locations or are 
        on short-term leases. What is the long-term, on-going plan for 
        these centers? For example, enrollment centers need to have 
        adequate parking for trucks and they need to be ADA compliant; 
        they can't simply be located in a shopping mall.
  <bullet> Finally, we urge DHS to exempt the TWIC card readers from 
        the cost-share requirement under the port security grant 
        program.
    The public ports in the United States share the goal of Congress 
and the Federal agencies in ensuring the security of our Nation's 
gateways, while avoiding disruption of the flow of international 
commerce. The Port of Tacoma and other U.S. ports are committed to 
doing our part to comply. We offer our concerns not simply to criticize 
but to educate and hopefully improve the system.
    Thank you for your attention today; I'm happy to try and answer any 
questions you may have.

    Ms. Sanchez. Thank you, Ms. Bowman.
    Mr. Byrd for 5 minutes or less.

 STATEMENT OF PHILIP L. BYRD, SR., PRESIDENT AND CEO, BULLDOG 
                         HIWAY EXPRESS

    Mr. Byrd. Good morning, Madam Chairwoman. Thank you for 
inviting me to testify today on behalf of the American Trucking 
Association on the subject of the Transportation Worker 
Identification Credential.
    My name is Phil Byrd, and I am President and Chief 
Executive Officer of Bulldog Hiway Express, a trucking company 
that hauls container freight in and out of the seaports on the 
East and Gulf Coast.
    When I testified at a similar hearing 2 years ago, the TWIC 
was a proposed rule. However, now that the TWIC is being 
implemented, several concerns that I presented back then 
continue to go unresolved. The most important concern is that 
the overall goal of the TWIC is not being accomplished: one 
background check, one credential that allows transportation 
workers to comply with multiple screening requirements. 
Unfortunately, today the main question on my drivers' minds and 
those of other companies is: How many fingerprint background 
checks do I have to go through to do my job transporting 
America's freight?
    To enter a port, a driver needs a TWIC. To transport 
HAZMAT, a driver has to go through HAZMAT endorsement 
background checks. To cross the border, a driver has to get a 
Fast Card. To transport air cargo, go through another screening 
process. To enter Florida ports, get a Florida Port Access 
Card. And on and on. I think you get the picture. These 
credentials add up to hundreds of dollars of cost to check the 
same database over and over again.
    Madam Chairwoman, we need a common-sense solution to this 
problem. That is why I urge you and Members of this committee 
to support the act, the SAFE Truckers Act of 2008. This bill 
establishes a risk-based approach to best allocate security 
resources.
    Briefly, the bill authorizes the Secretary of Homeland 
Security to establish a security sensitive material list, cargo 
that could potentially be used as a weapon and represents a 
high risk. Second, the bill requires only drivers transporting 
security sensitive material to undergo fingerprint-based 
background checks through the TWIC program. Third, it requires 
TSA to continue conducting name-based background checks on all 
HAZMAT-endorsed drivers, ensuring the continued screening of a 
large portion of these drivers.
    The bill is important because many trucking companies are 
simply getting out of the transportation of HAZMAT to eliminate 
the need of their drivers to undergo an inconvenient and 
expensive screening to transport commodities such as nail 
polish and soft drink syrup.
    I urge you again to support the act, the SAFE Truckers Act. 
I urge Members of the committee to require TSA to promptly 
implement this mutual recognition as mandated by the 9/11 
Commission Act.
    Last, the failure to preempt State and local background 
check credentials and access requirements for the ports is 
another costly problem for companies such as mine. While my 
drivers may obtain the TWIC, the final TWIC rule allows each 
port to require additional credentials involving additional 
fees. Again, my company does business at a number of ports in 
several States. If each port requires its own credential, the 
results will be crippling.
    The multiple credentialing scenario is exactly what TWIC 
was originally intended to prevent. When issuing the regulation 
implementing the Maritime Transportation Act, the Coast Guard 
claimed the need for national standards of security and claim 
preemption. ATA believes the same approach should be embraced 
in the implementation of the TWIC. The absence of a single, 
universally accepted security access credential will result in 
huge costs with no corresponding security benefit.
    I know from a personal experience that the TWIC is 
presently not in the most efficient, convenient or cost-
effective program. A consolidated background check process 
under the TWIC, one process, one background check and one fee, 
would be a vast improvement over the present enrollment.
    To conclude, I urge the Members of this subcommittee to 
support and act on the SAFE Truckers Act. I thank you for the 
opportunity to testify today and look forward to any questions 
that you may have.
    [The statement of Mr. Byrd follows:]
               Prepared Statement of Philip L. Byrd, Sr.
                           September 17, 2008
                              introduction
    Madam Chairwoman and Members of the subcommittee, thank you for 
inviting me testify today on the status of the Transportation Worker 
Identification Credential, also known as TWIC. My name is Phil Byrd and 
I am President and CEO of Bulldog Hiway Express, a company based in 
Charleston, South Carolina. Founded in 1959, Bulldog Hiway Express is 
an intermodal motor carrier that moved the first container to come off 
a vessel in the Port of Charleston. The company has approximately 200 
power units, 350 trailers and 250 employee-drivers, many of whom will 
be required to apply and get a TWIC in order to enter the various port 
facilities where we operate in South Carolina, North Carolina, Florida, 
Georgia, and Virginia.
    Today, I am also testifying on behalf of the American Trucking 
Associations (ATA). ATA's membership includes more than 2,000 trucking 
companies and industry suppliers of equipment and services. Directly 
and through its affiliated organizations, ATA encompasses over 37,000 
companies and every type and class of motor carrier operation. As an 
ATA member, I serve as chairman of the association's Homeland Security 
Policy Committee (HSPC) and as Vice Chairman of its Intermodal Motor 
Carriers Conference (IMCC). Both the HSPC and the IMCC, and their 
respective members, have been closely following the development of the 
TWIC since its legislative inception through its present regulatory 
implementation phase.
    Madam Chairwoman, I urge this subcommittee and the Committee on 
Homeland Security as a whole, to support the SAFE Truckers Act of 2008 
and to ensure the following are achieved in the near future:
  <bullet> Require TSA to immediately recognize U.S. commercial drivers 
        who possess a TWIC as already compliant with the Hazardous 
        Materials Endorsement Security Threat Assessment program, as 
        allowed by statute and as TSA already does for Canadian and 
        Mexican commercial drivers;
  <bullet> Ensure that the TWIC is used as the single, universally 
        accepted security credential for transportation workers by 
        preempting other security and access control credentials 
        required of motor carriers that operate in multiple 
        jurisdictions.
                               background
    Almost 2 years ago, on September 27, 2006, I had the honor of 
testifying before the Small Business Committee of the U.S. House of 
Representatives in a hearing focused on striking the right balance 
between security and commerce at our Nation's ports. In large measure, 
the hearing discussed the TWIC, which was not yet implemented. During 
that hearing, I testified that security and commerce are not mutually 
exclusive goals, not just at our ports, but throughout the entire 
transportation system and supply chain. Enhancing security without 
disrupting the flow of commerce can be achieved by implementing risk-
based programs in a cost-effective and coordinated manner. Although I 
faced operational challenges in getting my TWIC (requiring multiple 
visits to the enrollment center in Charleston and waiting a couple of 
hours each time), the trucking industry believes the TWIC can be such a 
program if implemented and utilized in an appropriate manner.
    ATA has long supported the original concept of the TWIC: one 
application/enrollment process, one fee, one security threat assessment 
(STA), and a single credential that transportation workers may carry to 
demonstrate compliance with multiple access control security 
requirements. However, commercial drivers today continue to face 
multiple security credentialing requirements. In addition to the TWIC, 
drivers must undergo separate STAs for the HME, air cargo and facility 
access, the Free and Secure Trade (FAST) program for border crossings, 
access to U.S. Department of Defense (DOD) facilities, and a myriad of 
State and locally administered STA programs (i.e. Florida Unified Port 
Access Card--FUPAC). The cost to drivers of these separate STA and 
credentialing programs is more than $400 in fees, not including the 
costs associated with drivers' lost wages while traveling to and from 
enrollment centers, fuel costs, and the aggravation of providing 
fingerprints multiple times for each program.
    In January 2003, Admiral Loy, then the second-most senior official 
at TSA, summed up the concept and the purpose of the TWIC, stating:

``A fourth initiative also underway is development of a Transportation 
Worker Identification Credential or TWIC . . . The idea is to have 
these [transportation] employees undergo only one standard criminal 
background investigation . . . I've heard that there are some truck 
drivers currently carrying up to 23 ID cards around their necks. I 
wouldn't want to pay that chiropractor bill. Under the TWIC program 
drivers and other transportation workers will only have one card to 
deal with which would be acceptable across the United States.''\1\
---------------------------------------------------------------------------
    \1\ Remarks of Admiral James M. Loy, Under Secretary of 
Transportation for Security, Transportation Security Administration, 
during Transportation Research Board 82nd Annual Meeting Chairman's 
Luncheon, January 15, 2003.

Unfortunately, the TWIC program/concept has not lived up fully to its 
promise and has become just another expensive, duplicative security 
credential that truck drivers must obtain to access port facilities. 
TWIC works, but the goal of universal acceptance of a single security 
credential has been discarded by TSA.
 tsa must establish immediate recognition of twic as compliant for hme 
                                  sta
    ATA believes that TSA should recognize drivers carrying a valid 
TWIC as fully compliant with the security requirements for the HME 
expressed in 49 CFR Parts 1570 and 1572. ATA arrives at such a 
conclusion based on two key premises:
    First, Congress already intended this result by granting TSA the 
statutory authority to do so under Public Law 110-53 (H.R. 1, 
Implementing the Recommendations of the 9/11 Commission). Section 1556 
states in part, ``An individual who has a valid transportation employee 
identification card issued by the Secretary under section 70105 of 
title 46, United States Code, shall be deemed to have met the 
background records check required under section 5103a of title 49, 
United States Code.'' The intent behind this provision was to allow a 
TWIC holder to walk into a State's Department of Motor Vehicles (DMV) 
office and be legally issued an HME, assuming the driver passes the 
hazardous materials (hazmat) knowledge test, without requiring further 
screening under the HME threat assessment program.\2\ Thus, a TWIC 
holder should not be subjected to the duplicative STA requirement and 
fees when applying for an HME.
---------------------------------------------------------------------------
    \2\ ATA notes that States will still be the final arbiters of the 
safety/skills-based portion of HME issuance.
---------------------------------------------------------------------------
    Second, there is regulatory precedent for compliance with the HME 
STA through enrollment in the TWIC credentialing program. In its Final 
Rule on the TWIC, TSA states:

``The Secretary may apply TWIC requirements to individuals including 
those ``not otherwise covered by this subsection''. TSA has exercised 
the discretion by allowing Canadian and Mexican commercial drivers who 
transport hazardous materials to obtain TWICs, which will allow them to 
transport hazardous materials in the United States.''\3\
---------------------------------------------------------------------------
    \3\ 72 Federal Register at 3511.

ATA supports TSA's solution to allow Canadian and Mexican commercial 
drivers to be in compliance with the HME STA requirements provided they 
have a TWIC. We strongly believe that U.S. commercial drivers should be 
afforded the same flexibility for compliance with the HME STA 
requirements. In essence, U.S. Commercial Driver's License (CDL) 
holders who seek an HME on their license and who hold a TWIC should not 
be required to undergo the HME STA.
    I urge you to require TSA to make such a policy a reality in an 
expedited manner.
               ata supports the safe truckers act of 2008
    Shortly after the tragic events of September 11, 2001, Congress 
passed the USA PATRIOT Act in an effort to better secure the United 
States against future terrorist attacks. Among its numerous provisions 
was a requirement that all drivers seeking, renewing, or transferring a 
HME to their CDL had to undergo an STA. While the provision was no 
doubt well-intentioned, it was enacted with little debate or 
discussion. Unfortunately, it has resulted in a driver being subjected 
to a costly and burdensome STA in order to be authorized to transport 
such everyday hazmat as paint, perfume and soft drink concentrate 
(which require an HME when transported above certain threshold 
quantities). Requiring a STA of individuals that transport paint, 
perfume and other everyday commodities was an unintended consequence of 
legislation meant to protect against real risks to homeland security, 
i.e., transportation of chemicals that could be used as weapons of mass 
destruction.
    On April 29, 2008, the ``Screening Applied Fairly and Equitably to 
Truckers Act of 2008'' or the ``SAFE Truckers Act of 2008'' (H.R. 5915) 
was introduced in the U.S. House of Representatives and referred to the 
Committee on Homeland Security's Subcommittee on Transportation and 
Infrastructure. The SAFE Truckers Act of 2008 represents an efficient 
risk-based approach to security, an approach DHS and TSA leadership 
embrace, by, among other things:
  <bullet> Directing the Secretary of Homeland Security to establish a 
        list of Security Sensitive Materials, in consultation with the 
        Secretaries of Transportation, and Health and Human Services, 
        distinguishing between materials that could potentially be used 
        as a weapon and those that are not attractive to a terrorist, 
        (e.g., paint, adhesives, food additives);
  <bullet> Establishing the TWIC as the STA required to transport 
        Security Sensitive Materials, obviating the need to use the HME 
        as a security credential and returning it to its original 
        purpose of establishing an individual's fitness to safely 
        operate a commercial vehicle transporting hazmat;
  <bullet> Requiring DHS to periodically conduct name-based background 
        checks of all CDL holders with an HME, utilizing the integrated 
        and consolidated terrorism watch list; and,
  <bullet> Including a transition period for drivers who have already 
        undergone a STA under the present HME program before requiring 
        them to get a TWIC.
    At a time when the public and private sectors alike have limited 
resources, our security efforts must be focused on the most significant 
risks. The imposition of burdensome, costly duplicative security 
programs governing the transportation of hazmat, such as the hazmat 
background check program, threatens to erode the industry's ability to 
continue to deliver the goods that the consumer expects.
    It is important to highlight the fact that although only drivers 
transporting Security Sensitive Materials will be required to get a 
TWIC and thus undergo a fingerprint-based STA, all HME holders, 
regardless, will undergo a periodic name-based background check. By 
determining what hazmat truly poses a significant risk and not 
requiring a fingerprint-based threat assessment for drivers 
transporting non-threatening hazmat commodities, Congress will be 
eliminating many of the costs and burdens imposed by the USA PATRIOT 
Act while still strongly promoting and protecting homeland security.
    ATA fully supports the SAFE Truckers Act of 2008 and urges members 
of this subcommittee to support and co-sponsor this legislation.
              establishing federal preemption for the twic
    The trucking industry believes that the TWIC should serve not only 
as the one STA but also as a uniform, Nation-wide secure access control 
credential. This means the States and thousands of local jurisdictions 
should not be allowed, without demonstrating some compelling need, to 
require additional security checks and/or credentials for individuals 
that have a federally issued TWIC.
    The TWIC Final Rule allows State authorities to impose additional 
requirements for access to the ports, potentially allowing each port 
authority to issue its own credential on top of the TWIC. The State of 
Florida is already doing so at its seaports, through the FUPAC. In my 
home State of South Carolina, the trucking industry has had to counter 
several proposals to impose additional background check and 
credentialing requirements for access to the South Carolina ports. The 
regulations issued by the Coast Guard under the Maritime Transportation 
Security Act (MTSA) properly claimed the need for national standards of 
security and claimed preemption. ATA supported this eminently sensible 
position. ATA is disappointed that TSA has not fully embraced this 
approach, as the absence of national standards and a single universally 
accepted security credential has amounted to a huge expenditure of 
resources with no corresponding security benefit.
    One rationale frequently proffered by States that require 
additional checks of their State criminal history databases is that 
their State databases are more comprehensive or fully populated. The 
failure of States to upload criminal history information to the FBI's 
national databases actually creates a security loophole rather than 
bolstering security. For example, an individual may commit a 
disqualifying offense in Florida that is only in the Florida database 
but has not been uploaded into the FBI's database. That individual 
would not be able to pass a Florida-specific STA but he/she could pass 
a STA in South Carolina, because the check against the FBI's database 
would not reveal the disqualifying offense in Florida. If the 
disqualifying offense indicates that the individual is a threat in 
Florida (which purportedly is the rationale for having a list of 
disqualifying offenses), then that same individual is also a threat in 
South Carolina. The failure to upload State data in a timely manner is 
a security problem that needs to be addressed.
    Other than the differences between the criminal history databases, 
it is difficult to conceive of scenarios where a State's judgment on 
security of the Nation's supply chain should supplant the Federal 
Government's considered judgment. If such a scenario exists, however, 
the State should request a waiver from preemption after demonstrating 
some unique security concern that is not addressed by the Federal 
program.
    There is an additional area of interest for Federal and State 
governments to consider the TWIC as a coordinated credentialing access 
process: Emergency response and relief operations. The trucking 
industry is primarily responsible for transporting relief supplies into 
areas affected by a natural disaster. Relief efforts required by 
Hurricane Katrina, Gustav and most recently Ike serve as reminders of 
the critical role that trucking plays in responding to these 
emergencies. The timing of this hearing coincides with one of the most 
active hurricane seasons in recent memory. Truck drivers transporting 
and providing relief supplies face challenges in accessing disaster 
areas due to differing Federal, State and local access control 
policies. Such challenges were evident during our response to Katrina. 
But the recent relief efforts in response to Gustav, though of a much 
smaller scale, allowed DHS agencies to coordinate access protocols with 
State and local officials. The standards established under the access 
protocols recognized the TWIC as a valid access credential. If each 
State and local government established separate access control 
protocols, our industry's ability to respond and provide relief 
supplies to areas affected by such disasters would be greatly 
diminished.
    ATA urges Members of this subcommittee to preempt States from 
establishing additional screening requirements where the Federal 
Government has already set in place a program such as the TWIC.
                               conclusion
    The screening of individuals involved in the transportation of 
goods is important to my company and to the trucking industry. Our 
industry has long sought and supported a national, uniform process to 
check a commercial driver's criminal history due to issues related to 
cargo theft. However, as the leader of a trucking company, the present 
STA environment of multiple checks does not bode well for my drivers' 
morale and, worst yet, creates a significant challenge for retention 
and recruitment of qualified drivers that may seek gainful employment 
elsewhere to avoid such a costly and cumbersome work environment.
    In order to bring some common-sense relief to our drivers while 
still promoting supply chain security, I again urge Members of this 
subcommittee to:
  <bullet> Require TSA to immediately recognize U.S. commercial drivers 
        who possess a TWIC as compliant with the HME background check 
        program;
  <bullet> Support and co-sponsor the Safe Truckers Act of 2008; and,
  <bullet> Ensure that the TWIC is used as the single, universally 
        accepted security credential for transportation workers by 
        preempting other security credentials required of motor 
        carriers that operate in multiple jurisdictions.
    As addressed in this testimony, ATA supports background checks of 
individuals in the trucking industry. However, ATA opposes the wasteful 
expenditure of resources--both Government and private sector--that 
comes with conducting multiple background checks of the same individual 
against the same databases. Even with the very high cost of the TWIC, 
at $132.50, it is a more cost-efficient scenario rather than paying 
multiple fees and undergoing multiple enrollment and fingerprinting 
processes. The trucking industry simply asks that these costs be 
reasonable and part of an efficient, risk-based process. ATA supports 
an approach that is good for security--and good for commerce.
    Again, I thank you for inviting me to come here today and share 
some thoughts on the TWIC program, and I look forward to answering any 
questions you may have.

    Ms. Sanchez. Thank you, Mr. Byrd. I appreciate your 
testimony.
    Now we have Mr. Golding for 5 minutes or less.

   STATEMENT OF STEVE GOLDING, PRESIDENT, GOLDING BARGE LINE

    Mr. Golding. Good morning, Madam Chairman. My name is Steve 
Golding. I am President of Golding Barge Line in Vicksburg, 
Mississippi. I am here representing the American Waterways 
Operators. We are a national trade association of the tugboat 
and barge industry in our country.
    My business is a family-owned business. I would like to 
take this opportunity, if I could, to introduce my wife, Melody 
Golding, and my son, Austin Golding. I am proud to say as a 
side note the photographs on the wall here were taken by Melody 
Golding of the Hurricane Katrina devastation to the Mississippi 
Gulf Coast, and they are on loan to the committee.
    The main theme of my testimony is reducing the burden on 
the inland mariner so that TWIC does not become a roadblock or 
barrier to entry in our industry. Presently, we have a 30-day 
interim work authority, and this doesn't match up with our work 
schedule. When we hire our mariners, they go to the TWIC 
center. Then within 5, 10, no more than 15 days, we dispatch 
them to a vessel; and they are required to ride 28 days on 
board. So, as you can see, the 30-day interim work period is 
going to come up while they are on board. When they are on 
board, they are perhaps 100, maybe 1,000 miles away from the 
TWIC center; and they can't get off to go get the TWIC card.
    We are allowed to apply for a waiver to 60 days with the 
Coast Guard. I can see that under present system we will 
constantly be applying for a 60-day waiver on our new hires. I 
urgently request that this committee ask the Coast Guard to 
grant us a 60-day blanket waiver so that we can put our crewmen 
on board and they can work their normal hitch and then get 
their TWIC card on their 14 days off.
    The other item I want to mention is the second trip back to 
the center. This time is very, very precious to our crewmen. 
They work 28 days on, 14 days off. Oftentimes, they have to 
drive 3 hours to a center, spend 2 hours to maybe get the TWIC 
card, 3 hours back home. As you can see, that is a full day out 
of a 14-day period that they have off. Oftentimes, they are not 
successful in getting their TWIC card so that it requires a 
third trip back.
    I would think in today's technology that there could be a 
secure way that we could facilitate getting these cards in the 
hands of the mariner without requiring a second trip back. We 
do it with passports. I don't see why we can't do it with a 
TWIC card.
    Post-April 15 concerns. We don't want to see the models 
shrink. We don't want to see it contract. We want to see other 
venues that we can get TWIC cards. I don't like asking my crew 
members to drive 3 and 4 and 5 hours to get a TWIC card. I 
would love to send them to the post office or the airport or 
other Government Coast Guard offices, not make it a burden on 
the working people of America to move our commerce but to 
facilitate it so that it is easier in the future that our 
crewmen can receive their TWIC credentials.
    The last item I want to mention is card readers. I really 
feel like this is an instrument that is more designed for a 
busy, busy port facility.
    We have six crew members on our boats. Every 14 days, three 
get on, three get off. They are like a family. They spend 8 
months of the year together on board. They spend 4 months of 
the year home. They are together as a family unit more on the 
boat than they are at home with their own family. They really 
laugh at the idea that I may have to put a machine on board 
that they would key in to come home.
    This is their home. They eat together, sleep together, work 
together. Most of them are kin to each other or close personal 
friends. I don't think a card reader is designed for a small 
inland towboat that doesn't interact with other communities and 
stays as a self-contained unit as it moves up and down our 
inland waterways moving our freight.
    I really appreciate the opportunity to be here. This is my 
first experience doing this, and it is a real honor, and I 
appreciate your leadership and your guidance. Thank you.
    [The statement of Mr. Golding follows:]
                  Prepared Statement of Steve Golding
                           September 17, 2008
    Good morning, Madam Chairman. I am Steve Golding, President of 
Golding Barge Line, headquartered in Vicksburg, Mississippi. I am 
testifying this morning on behalf of The American Waterways Operators 
(AWO), the national trade association for the tugboat, towboat, and 
barge industry. Thank you for the opportunity to be here today and to 
share with you our concerns about the Transportation Worker 
Identification Credential (TWIC) program.
    Our fundamental message is this: Congress, the Department of 
Homeland Security, and industry must work together to implement the 
TWIC program in a way that ensures high standards of maritime security 
without driving new employees away from our industry, imposing 
unreasonable burdens on those currently working in this business, and 
saddling American companies with costly requirements that add little 
practical security value. We understand that TWIC is the law, and we 
are doing everything we can to ensure that we are prepared to comply 
fully by the April 15, 2009 deadline. However, there are significant 
challenges ahead, and we will need the leadership and oversight of this 
committee to meet them. This is not a Democratic or a Republican issue, 
a labor issue or a management issue; it is an issue for all of us who 
care about the health of our Nation's maritime transportation system 
and the men and women who make their living in it.
    Our concerns fall into three categories: (1) Reducing burdens on 
mariners and ensuring that the TWIC program does not become a barrier 
to entry into our industry; (2) ensuring TWIC compliance by the 
regulatory deadlines--and taking steps now to meet the challenges of 
the post-April 15 period; and (3) ensuring that electronic card readers 
are not required on vessels with small crews, such as towing vessels.
    I will discuss each of these concerns briefly, but first, let me 
say a few words about my company and about our industry to give you 
some context for our perspective. Golding Barge Line is a family-owned 
company that specializes in the movement of refined petroleum products, 
petrochemicals, and chemical products throughout the U.S. inland 
waterway system. I have been in the barge business for more than 40 
years, and it is truly a labor of love for me. We are blessed with an 
extremely dedicated and loyal team of employees, and my wife Melody and 
son Austin are both here with me today. We are passionate about our 
people and the work we do together. The safety and security of our 
employees are our paramount concerns.
    Golding Barge Line is a proud member of The American Waterways 
Operators, the national trade association for the tugboat, towboat, and 
barge industry. AWO's 350 member companies span the spectrum from 
medium-sized family owned companies like mine, to the largest publicly 
traded companies in our business, to small but vital one- and two-boat 
operations. Our industry is the largest segment of the U.S.-flag 
domestic fleet, operating nearly 4,000 tugboats and towboats and over 
27,000 dry and liquid cargo barges on the inland rivers, on the 
Atlantic, Pacific and Gulf coasts, on the Great Lakes, and in ports and 
harbors around the country. Barges and towboats are a vital part of 
America's transportation system, safely and efficiently moving over 800 
million tons of cargo each year in the domestic commerce of the United 
States. Our industry employs more than 30,000 American mariners as 
crewmembers on our vessels, providing good, family wage jobs with 
excellent opportunity for career advancement.
    Our industry is serious about security. Less than 2 months after 9/
11, we began working with the Coast Guard and the Army Corps of 
Engineers to develop a Model Vessel Security Plan for towing vessels, a 
year before such plans were required by the Maritime Transportation 
Security Act (MTSA) of 2002. When MTSA became law in November 2002, AWO 
worked with the Coast Guard to transform the Model Vessel Security Plan 
into one of the first Alternative Security Programs approved by the 
Coast Guard. We work hard to transport our Nation's cargo safely and 
securely, and we take pride in the fact that our American-owned, 
American-crewed, American-built vessels are the ``eyes and ears on the 
waterways'' for the Coast Guard. But, we are deeply concerned by the 
burdens the TWIC program continues to impose on American workers and 
American companies. Let me elaborate on those concerns briefly.
                  barrier to entry/burden on mariners
    The process of applying for a TWIC is expensive and time-consuming. 
When the process works as intended, it requires an applicant to make 
two trips to an enrollment center that may be located many hours away--
one trip to apply for the card, and a second trip to pick it up. (And, 
that's when the process works as intended. Unfortunately, it is not 
unusual for an individual to have to make multiple trips to an 
enrollment center because something did not work as it should have: 
trouble with the fingerprint matching process, for example, or a 
missing card despite an email notification that the card was ready for 
pickup.) Our industry--and my home State of Mississippi--cannot afford 
to see that burdensome process deter individuals from entering this 
industry and missing out on the solid wages and potential for 
advancement that the industry offers.
    We had originally sought to address this concern by proposing a 
modification to the interim work authority provision included in the 
January 2007 Department of Homeland Security final rule that would have 
allowed for 60 days of interim work authority after an electronically 
initiated background check. We were disappointed that the 
administration staunchly opposed such a provision.
    But, AWO members are businesspeople and we take a practical 
approach to solving problems. Over the last 6 months, we have tried to 
find other means of achieving the same goal--to ensure high standards 
of security while reducing the burdens the TWIC program places on 
mariners. I am pleased to tell you that we have had some success in 
doing that. We are currently working with the Coast Guard on amendments 
to the AWO Alternative Security Program that clarify what it means to 
``monitor'' a new hire who has not yet received his or her TWIC. We are 
working with Lockheed Martin to help companies who can afford to do so 
enter into ``trusted agent'' agreements that will allow them to operate 
TWIC enrollment centers on their premises. These are small steps, but, 
combined with other common-sense changes to the program, they will help 
to make the program more workable for companies and mariners.
    There are two outstanding issues that we have raised with TSA and 
the Coast Guard on which we believe Congressional help is needed to 
stimulate further progress.
    First, under the current DHS regulations, an applicant who 
completes the TWIC enrollment process and satisfies other prescribed 
conditions is eligible for 30 days of interim work authority. With the 
approval of the Coast Guard Captain of the Port (COTP), this interim 
work authority period may be extended to 60 days if TSA has not issued 
the applicant his or her TWIC at the end of the initial 30-day period. 
We have urged the Coast Guard to extend this interim work authority 
period to a uniform 60 days, without requiring an applicant to seek 
approval from the COTP.
    We believe this change is necessary not only because of industry 
experience with the TWIC enrollment process (unfortunately, card 
processing times extending well beyond 30 days are the norm, not the 
exception), but also because work schedules in our industry do not mesh 
well with a 30-day interim work authority period. Many crewmembers in 
our industry work schedules such as 28 days on/28 days off, 28 days on/
14 days off, or 30 days on/15 days off. Under the rules as currently 
written, a new hire is likely to be in the midst of his or her first 
trip on a boat when the 30-day interim work authority period expires. 
Companies will routinely be required to request an extension of the 
interim work authority period in order to allow the individual to 
complete the trip (even if the TWIC has been processed and is ready for 
pickup in less than 30 days). Granting an automatic 60 days of interim 
work authority to new hires who meet the criteria prescribed by the 
current regulations will allow a new employee time to complete his or 
her initial trip, pick up the TWIC during his or her time off, and then 
return to the vessel for the next hitch with TWIC in hand. We see this 
as a common-sense change that will eliminate unnecessary burdens on 
companies, mariners, and Coast Guard Captains of the Port, without 
jeopardizing maritime security in any way. The Coast Guard has the 
authority to make such a change, and we respectfully request that the 
subcommittee urge the agency to take this action now.
    Second--we talk plainly in Mississippi, so let me say this 
plainly--it just doesn't seem right to us that a mariner should be 
required to make a second trip to the TWIC enrollment center for the 
purpose of picking up his or her TWIC, when passports and other secure 
documents (such as Merchant Mariner's Documents) can be mailed back to 
the holder. This ``second trip'' requirement doubles the burden on the 
applicant, and doubles the number of customers that enrollment center 
personnel have to deal with. (It's worth noting, too, that mariners who 
are required to carry Coast Guard licenses or MMDs are actually forced 
to make three trips--one to a Coast Guard Regional Exam Center to be 
fingerprinted for their license or document, and two to the TWIC 
enrollment center. It is just plain wrong that two agencies operating 
under the same Federal department have not figured out a way to work 
together to consolidate this process and save hard-working mariners an 
extra trip.) When a TWIC costs $132.50 and gas costs $3.50 a gallon, 
American companies and American mariners deserve a more efficient 
process that is respectful of their time and their money. We urge this 
subcommittee to make clear its expectation that DHS find a way to 
eliminate the requirement that applicants make a second trip to the 
enrollment center for the purpose of picking up their TWIC.
                        implementation schedule
    Despite the considerable burdens that the TWIC program places on 
companies and mariners, our industry is committed to complying with the 
law and doing everything we can to ensure that our people are ready to 
work, TWIC in hand, by April 15, 2009. We appreciated DHS's realization 
that the September 25 deadline was not achievable and its extension of 
that deadline by 7 months to compensate for delays in initiating the 
enrollment process. We are not here today to request another extension, 
but we still have grave concerns about the ability of this very 
imperfect system to accommodate all applicants required to have a TWIC 
by April 15. We urge you to exercise your very important oversight 
function to ensure that we do not find ourselves in a ``train wreck'' 
situation next April. The stakes for our Nation's commerce are simply 
too high.
    We ask, too, that you pay close attention to the rolling 
implementation dates for TWIC compliance at facilities as they begin to 
unfold this fall. We have seen little evidence of pre-planning and 
consultation with stakeholders prior to the announcement of those 
deadlines, and this troubles us greatly. We simply do not know whether 
the port-by-port compliance targets set by the Coast Guard are 
achievable.
    We must also be mindful that the challenges will not go away after 
April 15, 2009; new applicants will walk through our industry's doors 
on a daily basis and will require a TWIC in order to make a living in 
this industry. We have received mixed messages from TSA over the past 9 
months about how the agency will ensure that sufficient Nation-wide 
coverage continues to exist to make it as easy--and I use that word 
guardedly--to get a TWIC in the spring of 2010 as in the fall of 2008. 
While we were originally told that the number of fixed enrollment 
centers would be consolidated after April 15, we are now told that all 
existing enrollment centers will remain open, albeit perhaps with 
reduced hours. While we do not doubt the good faith of those who have 
made such promises, we are skeptical, as business people, that the 
``business case'' will continue to exist to support indefinitely all of 
the centers that now exist. This will be a huge problem for the young 
person in Vicksburg or Paducah who finds him- or herself without a 
nearby enrollment center and forced to travel to another State to apply 
for a TWIC. We believe the solution is to look beyond the business 
model of stand-alone enrollment centers and expand the venues where 
TWIC enrollment can take place, from post offices to airports to 
Departments of Motor Vehicles. We thank this subcommittee for including 
provisions in the Coast Guard authorization bill that require DHS to 
begin exploring this possibility, and we urge you to exercise your 
oversight responsibility to see that this examination takes place 
promptly and seriously. The time to begin thinking about the 
sustainment phase of the TWIC program is now.
                              card readers
    In May 2006, DHS published a sweeping proposal to require 
electronic TWIC readers on all vessels subject to the MTSA security 
plan requirements. The Department subsequently announced its decision 
to rethink the card reader requirements and publish a separate notice 
of proposed rulemaking (NPRM) on this topic. We see no added security 
value in having card readers on vessels with small crews, such as 
towing vessels. The card reader requirement was conceived with the 
scenario of a busy public port in mind, with hundreds of longshoremen, 
truckers, and other personnel pouring through the gates at shift 
change. While we can see the value of an electronic reader under those 
circumstances, the situation on a towing vessel is much different. 
Typical crew sizes on a towing vessel range from 3 to 10, depending on 
the type of operation; there are never more than a few crewmembers 
seeking access to a vessel at any given time. We see no value to a card 
reader in such circumstances.
    The SAFE Port Act gives DHS the authority to limit the card reader 
requirement to vessels with more than a threshold number of 
crewmembers, to be determined by the Department. The congressionally 
established Towing Safety Advisory Committee (TSAC), a Federal advisory 
committee to the Coast Guard, last year recommended that card readers 
not be required on vessels with 14 or fewer crewmembers. We support 
that recommendation and urge this subcommittee to make clear to the 
agencies that Congress does not support a requirement for card readers 
where they will not meaningfully improve maritime security. We also 
urge that publication of the card reader NPRM not proceed until the 
results of the congressionally mandated reader pilot program (in which 
AWO member Magnolia Marine Transport Company is participating) are 
available. Publishing the NPRM without waiting for the results of the 
pilot program would be premature at best.
                               conclusion
    Madam Chairman and Chairman Thompson, thank you for the opportunity 
to testify today. Thank you for listening to our industry's concerns 
and for your leadership and oversight in helping to resolve them. We 
are grateful for your work to resolve the serious problems that have 
plagued the TWIC Help Desk and for the efforts of your staff to 
intercede directly with TWIC applicants who fear they have become lost 
in a faceless, bureaucratic system. We urge you to continue to exercise 
your oversight and leadership to ensure that we achieve the TWIC 
program's goal of enhanced maritime security without jeopardizing the 
efficiency of our Nation's transportation system or imposing 
unsustainable burdens on hard-working American mariners.
    Thank you.

    Ms. Sanchez. Thank you, Mr. Golding, for being here today. 
We appreciate it.
    Now I will recognize Ms. Moskowitz for her 5 minutes or 
less.

    STATEMENT OF LAURA MOSKOWITZ, STAFF ATTORNEY, NATIONAL 
                 EMPLOYMENT LAW PROJECT (NELP)

    Ms. Moskowitz. Chairwoman Sanchez, thank you for this 
opportunity to testify on the status of the TWIC program.
    My name is Laura Moskowitz, and I am a staff attorney with 
the National Employment Law Project. As part of our work to 
improve the fairness of employment background checks, we have 
been closely monitoring the TWIC program. We are especially 
concerned that workers know about and access their TWIC waiver 
and appeal rights so that they don't unfairly lose their jobs 
when they are clearly not a terrorism security risk.
    We work closely with the transportation unions to help port 
workers navigate the TSA background checks, and we have helped 
over 100 workers to successfully file appeals and waivers after 
they have been denied by TSA. Our written testimony includes 
several recommendations based on our experiences. I am going to 
address two today.
    First, it is clear that TSA and Lockheed Martin need to 
take serious steps to bring the program into compliance with 
the Maritime Transportation Security Act's requirements for 
screening TWIC applicants, and this should happen before 
workers fall through the cracks of the program with only 6 
months left until the compliance deadline.
    TSA has erroneously denied thousands of applicants because 
the agency's review process relies solely on the FBI rap sheets 
which are notoriously incomplete. The U.S. Attorney General 
says that the FBI rap sheets are missing final disposition 
information in 50 percent of all the cases. Most of that is 
because the arrest information is not updated by the States to 
reflect whether an arrest has been dismissed or successfully 
prosecuted.
    The FBI's rap sheets also routinely fail to list whether an 
offense is a felony or a misdemeanor, and this critical 
information that TSA needs to know in order to determine 
whether an offense is disqualifying.
    Rather than track down the correct information required by 
the maritime law, like whether the person was actually 
convicted of a felony within the 7-year period, TSA now issues 
a denial requiring the worker to appeal their case. It is a 
guilty-until-proven-innocent model that sends a message that 
workers with a criminal record are not going to get a TWIC.
    For example, take the case of Jeffrey Carmichael, a 
longshore worker from southern California who was recently 
denied based on a misdemeanor marijuana sales conviction, even 
though the law is clear that only felonies are disqualifying. 
Like thousands of people, his FBI rap sheet did not reflect 
whether this offense was a felony or a misdemeanor. So, based 
on TSA's current policy, he was denied his TWIC, which means 
that he then had to travel to the courthouse, obtain 
documentation from the clerk's office showing that this was a 
misdemeanor, not a felony, and submit this information to TSA 
to appeal his denial.
    To TSA's credit, 99 percent of those who manage to appeal 
their cases end up qualifying for the TWIC. This just goes to 
show the serious problem with the FBI's records. Thousands more 
who have been denied have not filed appeals, and most of these 
workers should never have been denied in the first place if TSA 
was doing even the minimum to track down the missing 
information from the FBI rap sheets, like the FBI does, for 
example, in the case of Federal gun checks under the Brady law, 
where they are able to track down 65 percent of the missing 
information within 3 business days.
    It is not rocket science to fix this problem. Starting 
right away, TSA should prioritize the old arrests that are 
still showing up on FBI rap sheets to find out that missing 
disposition information; and they can prioritize drug and 
weapons offenses that often result in misdemeanor rather than 
felony convictions. This can be as easy as looking at the State 
records that are available publicly on-line or by picking up 
the phone and calling the local courthouse.
    Our second main concern is that TSA and Lockheed Martin 
have failed to comply with the safeguards required by the civil 
rights laws to ensure that thousands of port workers who don't 
speak English as a first language can fairly access the TWIC. 
The Chairwoman recognized this in her opening statement.
    Again, TSA and Lockheed Martin have cut corners and shifted 
the burden to workers to address this serious problem, rather 
than developing an effective agency response. Their policy now 
is to allow workers to bring family and friends to help 
translate, which contradicts the Department of Justice's 
guidelines that talk about how highly personal and technical 
information, the kind that is solicited during the TWIC 
enrollment process, should only be handled by qualified and 
experienced translators, not family and friends. Like other 
Federal programs, TSA and Lockheed Martin should be providing 
interpretation services in the enrollment centers and the help 
desk; and they should translate important documents like the 
denial letter with its critical appeal and waiver right 
information.
    In the written statement today, Lockheed Martin claims to 
be providing translators, but we have seen no evidence of this, 
certainly not of trained staff deployed to specific ports most 
in need.
    We also commend TSA for finally translating the disclosure 
form into 12 languages, but this is simply not enough.
    It is not too late for TSA and Lockheed Martin to make 
these and other critical changes we described in our written 
testimony. These reforms will go a long way to improve the 
fairness of the process and enrollment in the program before 
the April deadline. Thank you.
    [The statement of Ms. Moskowitz follows:]
                 Prepared Statement of Laura Moskowitz
                           September 17, 2008
    Chairwoman Sanchez and Members of the committee, thank you for this 
opportunity to testify on the status of the Transportation Worker 
Identification Credential (TWIC).
    My name is Laura Moskowitz, and I am a Staff Attorney at the 
National Employment Law Project (NELP), a non-profit research and 
advocacy organization that promotes a more fair and effective system of 
employment screening for criminal records. As part of our work to 
improve the fairness and accuracy of employee background checks, we 
have focused specifically on the TWIC program and its security threat 
assessment, especially the critical waiver and appeal procedures.
    Over the past year, NELP has helped over 100 TWIC applicants file 
appeals and seek waivers after being initially denied by the 
Transportation Security Administration (TSA), and has spoken with 
hundreds of workers going through the TWIC application process. We have 
worked closely with the transportation unions to provide information 
and assistance about the TWIC application, appeal, and waiver process, 
and have conducted TWIC information sessions for longshore workers and 
port truck drivers across the country. We have visited the Lockheed 
Martin enrollment centers, worked closely with TSA program and 
adjudication staff, and participate in the TSA TWIC Stakeholder 
Communications Committee meetings. Our ``Know Your Rights'' TWIC 
materials are also featured on TSA's TWIC web site.
    As the TWIC program nears its 1-year mark next month and the final 
compliance date is only 6 months away, it is not too late for TSA and 
Lockheed Martin to prioritize some key fixes that will become critical 
as the compliance date nears and the number of applications grows. Our 
testimony focuses on the following major problems facing TWIC 
applicants and key recommendations for improvement.
  <bullet> Poor outreach and communication by TSA and Lockheed Martin 
        have resulted in workers failing to apply for TWICs, including 
        large numbers of eligible workers with criminal records, which 
        has contributed to low enrollment. To maximize enrollment on 
        the part of eligible workers, TSA and Lockheed Martin should 
        specifically tailor communications for workers with criminal 
        records, explain what the disqualifications are, assure workers 
        with criminal records that they qualify, and encourage them to 
        utilize the TWIC waiver process.
  <bullet> Due to inadequate screening, TSA is disqualifying large 
        numbers of workers whose criminal records do not make them 
        ineligible, in violation of the standards under the Maritime 
        Transportation Security Act (MTSA). Before issuing an initial 
        denial, TSA should marshal its resources to track down missing 
        information that is critical to the determination that someone 
        has a disqualifying felony conviction.
  <bullet> TSA is denying TWICs to large numbers of foreign-born U.S. 
        citizens and other qualified workers due to poor training by 
        Lockheed Martin of its ``Trusted Agents'' and poor 
        communication with applicants regarding necessary citizenship 
        and immigration documents. Lockheed Martin must more 
        effectively train its Trusted Agents to accept the necessary 
        documents during enrollment, and TSA must take far more 
        proactive steps to ensure that documents needed by foreign-born 
        applicants are brought to the enrollment center and sent to 
        TSA.
  <bullet> TSA and Lockheed Martin have not provided language-
        appropriate services to the ports' diverse immigrant work 
        force, thus hindering their ability to obtain TWICs. TSA and 
        Lockheed Martin should make translations of vital documents 
        available and hire bilingual staff or use a language 
        interpretation telephone service at the enrollment centers and 
        Help Desk.
    NELP submitted testimony before the full Homeland Security 
Committee last October which featured many of the same recommendations, 
yet these problems have only become more apparent over the past year.
           i. the basics of the twic background check process
    By way of background, we describe below the TWIC security threat 
assessment process. We also note specific points where problems have 
been identified by NELP, the National Maritime Security Advisory 
Committee (NMSAC), and many of the transportation unions, before 
describing in more detail our primary concerns with the TWIC process.
    The Federal law sets forth specific TWIC disqualifying offenses, 
which include especially serious ``permanent'' disqualifying offenses 
(like espionage and treason) and more common ``interim'' disqualifying 
crimes (like drug dealing and weapons possession). Both categories are 
limited to felony convictions, not misdemeanors, and the ``interim'' 
disqualifications apply to offenses that date back 7 years from the 
date of the application, or 5 years from when the individual was 
released from incarceration (whichever is the more recent event).
    1. TWIC Pre-Enrollment.--TSA created an optional pre-enrollment 
process which allows the worker to enter his or her basic biographical 
information with TSA before enrolling in-person at an enrollment 
center. The pre-enrollment process is intended to help save time by 
providing the individual with an appointment for the in-person 
enrollment, but the complicated process for setting up a password on-
line has proven difficult for many applicants.
    2. Enrollment at Designated Locations.--During enrollment, all 
information relevant to TWIC eligibility is supposed to be collected, 
including the fingerprints required to generate an FBI rap sheet and 
documents pertaining to citizenship and immigration status. In 
practice, there have been widespread problems with fingerprints being 
rejected and necessary documents not being collected for transmission 
to TSA.
    3. Threat Assessment Determination.--Based on the background 
information provided by the applicants and the resulting search of the 
various criminal record, terrorist watch-list and immigration status 
databases, TSA will issue an initial threat assessment determination. 
According to TSA, a web-based system first ``scores'' the application. 
Then, the case is reviewed by at least four adjudicators (first two 
contractors, then two TSA staff), resulting in the threat assessment 
determination.
    a. TWIC Approved and Card Production.--If TSA fails to identify any 
disqualifying information, the individual is notified that he or she 
qualifies for a TWIC, and card production begins. Lockheed Martin's 
backlog in card production currently means that an applicant waits 6 to 
8 weeks after approval before being notified by the enrollment center 
that the card is ready to be picked up. There have been myriad problems 
with card pick-up and activation, as described in detail in the July 
2008 NMSAC report.\1\
---------------------------------------------------------------------------
    \1\ National Maritime Security Advisory Committee (NMSAC), TWIC 
Working Group, ``Discussion Items'' Report (July 30, 2008), at page 8.
---------------------------------------------------------------------------
    b. Initial Denials Subject to ``Appeal''.--When TSA determines that 
the individual has or may have committed a disqualifying offense, or 
when TSA cannot confirm citizenship/immigration status, the applicant 
receives an initial denial letter. If the information reported by TSA 
is incorrect and the individual is TWIC-eligible, the individual can 
``appeal'' the case within 60 days by providing the official court or 
citizenship/immigration documentation to correct the information.
    c. Initial Denials Subject to ``Waiver''.--If the individual has a 
disqualifying criminal offense, then he or she can seek a ``waiver'' of 
the disqualification based on evidence of rehabilitation, a solid work 
history and other relevant factors. Selected ``permanent'' 
disqualifying offenses are not subject to the waiver process.\2\ If the 
waiver request is denied by TSA, the worker has the right to review of 
the decision by an administrative law judge.
---------------------------------------------------------------------------
    \2\ The offenses not subject to waiver include espionage, sedition, 
treason, terrorism, or conspiracy to commit these crimes. (49 C.F.R.  
1515.7, 1515.103(a)(1)-(4)). All the other ``permanent'' disqualifying 
offenses are waivable.
---------------------------------------------------------------------------
ii. due to poor outreach and communication by tsa and lockheed martin, 
  workers are failing to apply for a twic, including large numbers of 
                 eligible workers with criminal records
``Some individuals are told [by the TWIC Program Help Desk] that if 
they have a permanent disqualifying offense on their records, they 
cannot obtain TWICs.''--National Maritime Security Advisory Committee, 
TWIC Working Group Discussion Items Report (July 30, 2008).

``Everyone down on the docks is saying if you have a criminal record, 
don't even bother trying to apply for a TWIC.''--Statement recently 
made by a longshore worker from Philadelphia helped by NELP to obtain a 
waiver of a disqualifying offense.

    As the above statements show, misinformation and inaccurate rumors 
abound about the TWIC eligibility requirements. We have heard time and 
time again from workers who believe that if they have had any brush 
with the law, they need not apply for a TWIC. Many of them only have 
misdemeanors, which are not disqualifying. Many of them have 
convictions that are 20 or 30 years old and are no longer 
disqualifying. Many of them do have disqualifying offenses, but they do 
not realize that they can apply for a waiver and still obtain their 
TWIC card. All are afraid to apply and often seriously consider looking 
for work in other industries.
    Based on our experience, it is clear that much of this confusion 
and fear is due to TSA and Lockheed Martin's failure to get the word 
out about the types of disqualifying offenses and the possibility of 
obtaining a waiver of these disqualifying crimes. When we asked 
Lockheed Martin representatives at the enrollment centers whether they 
discussed the waiver with applicants who indicated that they had 
disqualifying crimes, they responded that they did not. We have seen 
only one TSA flyer that addresses the disqualifying criminal offenses, 
and it conspicuously fails to emphasize the waiver process.
    As NMSAC recently noted, ``[o]ther than providing updates on when 
enrollment is beginning in certain ports, the [TWIC] communications 
team is not particularly visible.''\3\ Last week, for the first time, 
we saw two slides in a Lockheed Martin/Deloitte compliance presentation 
that encouraged workers with criminal records to apply and use the 
waiver process. However, to our knowledge, that material has not made 
its way to workers on the front lines.
---------------------------------------------------------------------------
    \3\ NMSAC ``Discussion Items'' Report, at page 2.
---------------------------------------------------------------------------
    These workers with records have often worked for decades at the 
port, along with generations of their family members, and they are the 
least likely to do anything that would risk the safety and security of 
the port and their livelihood. If they do not access the waiver 
process, the Nation's ports risk losing some of their most experienced 
and dedicated workers, and the workers risk losing some of the few good 
jobs available for workers with criminal records.
    To its credit, TSA has granted almost all of the waiver requests it 
has received, thus proving the indispensable value of the waiver 
process. We believe that TSA is thoroughly and fairly considering these 
waiver applications. However, we are concerned that the total number of 
waivers sought (809 as of September 5, 2008) is quite low compared to 
the likely number of workers who have waivable disqualifying offenses 
out of the estimated 1.5 million workers who will be screened by TSA.
Recommendation: TSA and Lockheed Martin should specifically tailor 
        communications for workers with criminal records, explain what 
        the disqualifications are, assure workers with criminal records 
        that they qualify for TWICs, and encourage them to utilize the 
        waiver process.
    Promotion of the waiver process will increase enrollment by those 
who fear applying and thus postpone it as long as possible or seek work 
in other industries. In addition, providing basic information about the 
disqualifying offenses will encourage workers with non-disqualifying 
prior records to come forward and apply. The more workers see that 
their colleagues at the ports with criminal records are successfully 
obtaining TWICs, the more they will apply. To improve enrollment, there 
is simply no substitute for aggressive and smart outreach, prioritizing 
the large ports where a significant number of applicants has still not 
applied. TSA and Lockheed Martin should distribute a ``know your 
rights'' fact sheet that specifically describes the disqualifying 
criminal offenses, the waiver process, and the key considerations that 
argue in favor of a waiver. Facility and vessel owner-operators should 
be provided with these outreach materials as well. The current outreach 
teams should also engage local employers and media in targeted 
communities to help get the word out. TSA should also urge the ports to 
partner with local unions and non-profit organizations that can help 
deserving workers prepare the TSA waiver application.
iii. due to inadequate screening, tsa is disqualifying large numbers of 
 workers whose criminal records do not make them ineligible for twics, 
    in violation of the standards under the maritime transportation 
                          security act (mtsa)
    Unfortunately, after applicants with criminal records make it 
through the enrollment process, they still often face an uphill battle 
to obtain their TWICs because TSA's flawed screening procedures 
routinely result in erroneous denials of eligible workers. TSA's 
cursory criminal history record review, which is limited to whatever 
appears on the face of an applicant's FBI rap sheet, is not--as the law 
requires--a true screening for disqualifying felony convictions.
    For example, a longshore worker from Southern California was 
recently denied due to a misdemeanor marijuana sales conviction. As is 
commonly the case, the FBI rap sheet TSA used to make its determination 
did not indicate whether this was a felony or misdemeanor. Rather than 
taking steps to determine the degree of the offense by contacting the 
State repository or local courthouse, TSA issued an initial denial. The 
applicant then had to take off time from work, travel to the 
courthouse, and obtain documentation from the clerk's office showing 
that this was a misdemeanor in order to successfully appeal his denial.
    As this example demonstrates, the FBI's rap sheets routinely lack 
the critical information TSA needs by law to determine whether the 
applicant has actually been convicted of a felony that meets the 
definition of one of the disqualifying offenses, within the requisite 
time period, and whether the person was released from incarceration 
more than 5 years before applying. The flawed screening procedures set 
up by TSA put the burden on applicants, thousands of whom are denied 
even though they are actually eligible, forcing them to take time off 
work, travel to courthouses, pay to obtain copies of official 
documentation, and submit appeals to prove eligibility. The emotional 
toll on workers is also significant; our clients who have been denied 
suffer from worry, stress, and nightmares as they and their families 
contemplate the loss of this job. The 99 percent success rate of 
appeals based on criminal history information shows that TSA's initial 
threat assessments are disqualifying an unacceptably high number of 
qualified applicants.\4\
---------------------------------------------------------------------------
    \4\ Under the hazmat program, which requires the same background 
check as TWIC, literally 99 percent of the appeals filed were 
successful as of October 2007. One-third of the over 10,000 successful 
hazmat appeals were related to incorrect criminal records and the other 
two-thirds were attributed to immigration status issues. We have heard 
unofficially from TSA that under the TWIC program, the large majority 
of appeals continue to be immigration-related, and that the success 
rates on appeal continue to be in the 99 percent range.
---------------------------------------------------------------------------
    Not only is the burden on the worker to fill the gaps in the FBI's 
rap sheets, but far too many innocent workers fall through the cracks 
of the system, either because they do not understand what they need to 
do to prove their eligibility, they cannot afford to take time off work 
and track down the official court records they need to appeal their 
denials, or they think it is not worth the effort because they are 
convinced they will be denied by TSA. Indeed, almost 2,000 workers who 
received initial denials have simply not responded, thereby timing out 
and losing their opportunity to obtain a TWIC card and keep their jobs.
    More specifically, we have identified the following problems that 
routinely result in erroneous denials:
    Incomplete State Arrest Records.--Of special concern to TWIC 
applicants, the FBI rap sheets are routinely incomplete. According to 
the U.S. Attorney General, the FBI's rap sheets relied upon exclusively 
by TSA are ``still missing final disposition information for 
approximately 50 percent of its records.''\5\ Mostly, this includes 
arrest information that is never updated electronically by the States 
to reflect whether the charges have been dropped, dismissed, or 
successfully prosecuted. Regardless of the law's requirement that 
workers be disqualified only for convictions or outstanding charges 
open for prosecution, it is TSA's policy (49 C.F.R. Section 
1572.103(d)) to automatically deny the TWIC to all those whose arrest 
information has not been updated unless official court documentation of 
the disposition is provided by the applicant within 60 days.
---------------------------------------------------------------------------
    \5\ U.S. Attorney General, The Attorney General's Report on 
Criminal History Background Checks (June 2006), at page 3 (available at 
http://www.usdoj.gov/olp/ag_bgchecks_report.pdf).
---------------------------------------------------------------------------
    In 15 States (out of 39 that reported data in response to a 
national survey), more than one-third of the arrests in the past 5 
years have no final dispositions reported in the State criminal record 
repository, which means that the FBI's records are similarly incomplete 
for those States.\6\ That includes large port States like Florida, 
where 40 percent of the arrests in the State's system do not include 
the final disposition. Only nine States have more than 90 percent of 
the arrests in their databases updated to reflect the final outcome of 
the case.
---------------------------------------------------------------------------
    \6\ Bureau of Justice Statistics, Survey of State Criminal History 
Information Systems, 2003 (2006), at Table 1.
---------------------------------------------------------------------------
    Early Incarceration Release Dates.--Under the MTSA, workers may not 
be denied a TWIC based on an interim disqualifying offense that took 
place more than 7 years before the application or more than 5 years 
since the individual was released from incarceration. However, many 
States do not report the date when the individual was actually released 
from incarceration, thus that information does not appear on the FBI's 
rap sheet. As a result, large numbers of workers who have been released 
for good behavior before their minimum sentence expired are incorrectly 
denied because TSA believes they have been incarcerated within the 5-
year period based on the original sentence entered on the rap sheet.
    Incomplete Information on Expungements and Convictions Overturned 
on Appeal.--The FBI rap sheets frequently fail to include subsequent 
events beyond the initial arrest and/or conviction that affect 
applicants' eligibility, such as the expungement of a conviction or the 
reversal of a conviction on appeal.
    Non-Felony Offenses.--In addition, as discussed in the example, the 
FBI's rap sheets often do not distinguish between felonies, 
misdemeanors, and lesser categories of offenses, which is significant 
because the TWIC disqualifying offenses are expressly limited to 
felonies. Instead, the FBI rap sheet generally reports the offense 
without characterizing the severity of the crime.
    Rap Sheet Items That Trigger Initial Denials But Are Not Actually 
Charges or Convictions.--Entries appear on the FBI rap sheet each time 
an individual is fingerprinted for a criminal justice purpose and that 
fingerprint is submitted to the FBI. This includes temporary detention 
of individuals crossing the border who are questioned by Immigration 
and Customs Enforcement officers, as well as fingerprinting done by 
correctional institutions when the person enters custody. These items 
often show up as open, pending charges on FBI rap sheets, triggering an 
initial denial and causing the worker to demonstrate that there was no 
criminal prosecution associated with the entry.
Recommendation: Before issuing an initial denial, TSA should marshal 
        its resources to track down missing information that is 
        critical to the determination that someone has a disqualifying 
        felony conviction.
    TSA and its contractors should take several significant steps to 
produce a determination that is based on accurate information and in 
compliance with the MTSA standards.
    a. Track Down Missing Arrest Dispositions.--In order to correct the 
serious contravention of the law's requirement that only convictions 
and charges that are genuinely open for prosecution are disqualifying, 
TSA should prioritize tracking down missing dispositions for old 
arrests before issuing an initial denial. For example, any case that 
has been pending in the court system for more than 1 or 2 years without 
a disposition is far more likely to have been dismissed.
    As is the practice of the FBI in reviewing gun checks under the 
Brady Act, TSA should designate staff to locate missing disposition 
information.\7\ For the Federal gun checks required by the Brady Act, 
the FBI is able to track down 65 percent of the missing dispositions 
within 3 days rather than simply denying the license based on old 
arrest information.\8\ TSA staff is able to access state court records 
to research waiver applications. Staff should similarly be directed to 
investigate the dispositions of old arrests, using existing State and 
local court contacts, the States' and courts' on-line criminal history 
record information, or by telephoning the courts. These verification 
procedures should be incorporated into the current review process, 
which now includes four levels of review by TSA and contractor 
adjudicators.
---------------------------------------------------------------------------
    \7\ The Brady Act and implementing regulations (28 C.F.R. Part 25) 
created a National Instant Criminal Background Check System (NICS), a 
special unit that performs ``instant'' criminal background checks for 
Federal firearms licensees. Under the law, (18 U.S.C. 922(t)(B)(ii)), 
NICS is required to research the record and attempt to locate missing 
disposition information within 3 business days.
    \8\ The Attorney General's Report on Criminal History Background 
Checks, at page 108.
---------------------------------------------------------------------------
    b. Identify Misdemeanors, Non-Conviction Data, and Incarceration 
Release Dates.--Again, to comply with the MTSA standards, TSA should 
develop contacts with each State criminal history repository and 
investigate the offense levels of potentially disqualifying criminal 
offenses before issuing an initial denial. TSA should prioritize cases 
like drug offenses, weapons charges, and robberies, which will 
routinely result in non-felony convictions. Similarly, in all cases 
where an applicant has indicated on the enrollment form that he or she 
has been released from incarceration more than 5 years before the date 
of the TWIC application, TSA should verify the release date with State 
corrections authorities instead of simply denying the application based 
on the original sentence imposed. Finally, where temporary border 
detentions and entry of custody data appear on the rap sheet, TSA 
should confirm whether these items were actually associated with any 
type of prosecution before issuing a denial.
 iv. tsa is denying large numbers of u.s. citizens and other qualified 
   workers due to poor training by lockheed martin of its ``trusted 
  agents'' and poor communication with applicants regarding necessary 
                 citizenship and immigration documents
    It has become increasingly apparent that foreign-born applicants, 
including military dependents born on bases abroad and other U.S. 
citizens, are being denied in large numbers even though they are TWIC-
eligible. Indeed, about two-thirds of all appeals are based on 
citizenship or immigration status issues. In our experience, these 
denials are due to Lockheed Martin's failure to properly train its 
trusted agents to collect items that prove citizenship and immigration 
status, such as U.S. passports, naturalization certificates, green 
cards, visas, and employment authorization documents.
    For example, two U.S. Coast Guard-licensed merchant mariners, one 
born on a military base abroad and the other a naturalized U.S. citizen 
originally from Poland, recently applied for their TWIC cards. They 
brought their U.S. passports with them to the enrollment center, but 
their passports were not collected by the Lockheed Martin trusted agent 
for inclusion in the electronic package sent to TSA. Both were 
subsequently denied based on TSA's failure to determine their 
citizenship, even though each has maintained a U.S. Coast Guard-issued 
license (which requires U.S. citizenship) and has sailed into harm's 
way in support of military operations during their seagoing careers. 
One is a former Navy reservist.
    We have helped numerous workers from all over the country who found 
themselves similarly denied after bringing these documents to the 
enrollment center, only to have the trusted agents refuse to accept 
them because the applicants had already submitted identity-establishing 
documents such as a driver's license and social security card. When 
these applications reach the TSA adjudication office they often result 
in initial denials because TSA cannot complete this part of the 
background check without the additional documents. The applicants must 
then file an appeal and (re)submit this documentation to TSA. Large 
numbers of foreign-born workers are finding themselves in this 
situation, driving up the number of appeals sent to the adjudication 
office and placing an unfair burden and stigma on foreign-born workers.
    TSA also tells us that applicants fail to bring the necessary 
documents to the enrollment centers. However, TSA and Lockheed Martin 
communication materials detailing what documents are required have not 
made it clear that specific documents, such as a U.S. passport or 
naturalization certificate, are required, rather than optional, for 
foreign-born applicants in order for TSA to conduct this part of the 
background check.
    Although TSA's adjudication office is quick to rectify these 
situations when workers respond and provide the appropriate 
documentation, it is not acceptable or proper under the law to deny at 
the outset so many qualified foreign-born applicants. In addition, as 
discussed in more detail below, these applicants often have the hardest 
time navigating the application and appeal process due to language 
barriers.
Recommendation: Lockheed Martin must more effectively train its Trusted 
        Agents to accept the necessary documents during enrollment, and 
        TSA must take more proactive steps to ensure that documents 
        needed by foreign-born applicants are brought to the enrollment 
        center and properly scanned and sent to TSA.
    TSA recently tripled the number of staff handling appeals due to 
the high volume of immigration appeals. We commend TSA for directing 
additional staff where needed to keep the appeals moving efficiently, 
and for their interest in trying to find ways to communicate better to 
foreign-born applicants regarding the documents needed.
    TSA should revise its materials on the documentation required for 
TWIC to make clear that foreign-born applicants have different 
requirements, and ensure that this information is consistently 
communicated so that the information TSA needs to conduct this part of 
the background check is coming in on the front end, in order to reduce 
the number of denials and the burden on workers to fix these problems 
on the back end. In addition, Lockheed Martin must continue to train 
its trusted agents to collect the necessary citizenship and immigration 
status materials.
   v. tsa and lockheed martin have not provided language-appropriate 
  services to the ports' diverse immigrant workforce, thus hindering 
                     their ability to obtain twics
    TSA and Lockheed Martin have not complied with Federal laws 
designed to provide meaningful access to the ethnically diverse TWIC 
applicants whose limited-English proficiency (LEP) requires translation 
and interpretive services to navigate the enrollment, appeal and waiver 
processes. Indeed, the only materials available in a language other 
than English are the pre-enrollment and outreach materials online in 
Spanish. TSA has just translated its disclosure form into 12 languages 
(it has yet to be deployed by Lockheed Martin), but no translation of 
vital documents such as denial letters has been made available, nor 
have any interpreters been provided to assist workers during the 
enrollment process.
    Today's work force employed in the Nation's ports and with the 
trucking firms they do business with is more diverse than ever before, 
representing large numbers of workers born in Spanish-speaking 
countries (Mexico and Central America), South Asian-speaking countries 
(India, Bangladesh) and Southeast Asia (Vietnam, Cambodia, Laos) in 
particular. For example, consider the ethnic diversity of the West 
Coast port truck drivers. In the Port of Seattle, 54 percent of the 
drivers are foreign born, and 44 percent speak a language other than 
English at home (most commonly Spanish, Punjabi and languages from 
Ethiopia).\9\ In the Los Angeles and Long Beach ports, almost 90 
percent of the truck drivers were born outside the United States, 
mostly in Spanish-speaking countries.\10\ In the Port of Oakland, 93 
percent of the truck drivers were born outside the United States, 
typically from Southeast Asian, South Asian and Latin American 
countries.\11\
---------------------------------------------------------------------------
    \9\ Port Jobs, ``Big Rig, Short Haul: A Study of Port Truckers in 
Seattle'' (2007), at pages 19-20 (available at http://www.portjobs.org/
bigrig_shorthaul.pdf).
    \10\ Kristen Monaco & Lisa Grobar, ``A Study of Drayage at the 
Ports of Los Angeles and Long Beach'' (California State University Long 
Beach, December 2004), at page 15.
    \11\ East Bay Alliance for a Sustainable Economy, ``Taking the Low 
Road: How Independent Contracting at the Port of Oakland Endangers 
Public Health, Truck Drivers, & Economic Growth'' (September 2007), at 
page 25 (available at http://www.workingeastbay.org/downloads/
Coalition%20Port%20Trucking%20Report.pdf).
---------------------------------------------------------------------------
    The lack of language-appropriate services has created serious 
barriers for LEP applicants. For example, when the Oakland enrollment 
center opened last fall, a Chinese-speaking applicant had to wait for 
hours for someone to translate for him--finally, some Chinese and 
English-speaking applicants arrived and helped him. In addition, an 
employer from Florida who contacted NELP for assistance had to help his 
Spanish-speaking drivers through the entire application, denial and 
appeal process because no translation or interpretation was available. 
At significant time and expense, a union in Long Beach now helps 
numerous Spanish-speaking port truck drivers navigate the application, 
appeal, and waiver process, particularly because so many of the drivers 
there were born in Latin America and were being turned down, as 
discussed in the previous section.
    None of these applicants should have to rely on the goodwill of 
others to help them obtain a Government license that is critical to 
maintaining their livelihood. Pursuant to Executive Order 13166, each 
Federal agency is required to ``prepare a plan to improve access to its 
federally conducted programs and activities by eligible LEP 
persons.''\12\ Unfortunately, despite reaffirmation of this Executive 
Order under the current administration,\13\ the Department of Homeland 
Security (DHS) has not yet prepared such a plan. While the DHS plan is 
under development, the agency's activities should be in compliance with 
the U.S. Department of Justice (DOJ) LEP guidance, which sets forth the 
criteria by which recipients of Federal funding (such as contractor 
Lockheed Martin) will be evaluated for their compliance with Title VI 
of the Civil Rights Act of 1964's prohibition on national origin 
discrimination.''\14\ The DOJ directive also applies the Title VI 
standards to Federal agencies.''\15\
---------------------------------------------------------------------------
    \12\ Executive Order 13166, ``Improving Access to Services for 
Persons with Limited English Proficiency'' (August 11, 2000), at page 
1.
    \13\ Letter of Ralph J. Boyd, Jr., Assistant Attorney General, U.S. 
Department of Justice, Civil Rights Division (July 8, 2002).
    \14\ U.S. Department of Justice, ``Guidance to Federal Financial 
Assistance Recipients Regarding Title VI Prohibition Against National 
Origin Discrimination Affecting Limited English Proficient Persons,'' 
67 Fed. Reg. 41455 (June 18, 2002).
    \15\ The guidance states: ``Pursuant to Executive Order 13166, the 
meaningful access requirement of the Title VI regulations and the four-
factor analysis set for the in the DOJ LEP Guidance are to additionally 
apply to the program and activities of Federal agencies[.]'' Id. at 
41459 n.4.
---------------------------------------------------------------------------
    Where, as here, there is a significant number of LEP persons whose 
lives will be affected by a program, the DOJ guidance recommends 
providing both oral interpretation services and written translation of 
vital documents.\16\ Recognizing the impropriety of family and friends 
serving as interpreters--TSA's chosen route--DOJ recommends that 
competent interpreter services be provided free of charge to persons 
with limited-English proficiency.\17\ According to the DOJ guidance, 
``when particular languages are encountered often, hiring bilingual 
staff offers one of the best, and often most economical options.''\18\ 
Where necessary due to more limited demand and to save costs, the DOJ 
guidance also recommends contracting with professional interpreters and 
using telephone interpretation lines provided by AT&T and other major 
contractors.\19\
---------------------------------------------------------------------------
    \16\ Id. at 41459-60.
    \17\ The DOJ guidance contains an entire section on the use of 
family members and friends as interpreters, cautioning that they are 
often ``not competent to provide quality and accurate interpretations. 
Issues of confidentiality, privacy, or conflict of interest may arise. 
LEP individuals may feel uncomfortable revealing or describing 
sensitive, confidential, or potentially embarrassing medical, law 
enforcement . . . family, or financial information to a family member, 
friend, or member of the local community.'' 67 Fed. Reg. at 41462 
(emphasis added). These concerns are especially relevant to the TWIC 
enrollment process, where applicants are asked for specific information 
about their criminal history, immigration status, and mental health--
all of which are sensitive, confidential and potentially embarrassing 
to reveal to family and friends.
    \18\ 67 Fed. Reg. at 41461.
    \19\ Id. at 41462.
---------------------------------------------------------------------------
    With respect to written translation, the DOJ guidance recommends 
that ``vital'' written material be translated where each LEP language 
group constitutes 5 percent of the population served or 1,000 people, 
whichever is less.\20\ Given the large numbers of foreign-born workers 
employed in many of the Nation's largest ports, the TWIC materials 
clearly rise to the level of DOJ's recommended thresholds for multiple 
languages, not just Spanish.
---------------------------------------------------------------------------
    \20\ Id. at 41463-64.
---------------------------------------------------------------------------
Recommendation: TSA and Lockheed Martin should make translations of 
        vital documents available and hire bilingual staff or use a 
        language interpretation telephone service at the enrollment 
        centers and Help Desk.
    Oral Interpretation.--In the case of Spanish and the languages most 
commonly spoken by port workers, an adequate number of staff employed 
at the enrollment centers should be bilingual in those languages. In 
the case of languages spoken often by workers at certain ports and not 
others (including Southeast Asian and South Asian languages), Lockheed 
Martin could move specialized personnel to various ports as the 
enrollment process rolls out in different locations and contract with a 
telephone interpretation service for less-common languages. The TWIC 
Help Desk should also contract with a telephone interpretation service 
so that it can adequately respond to questions from LEP applicants.
    Translation of ``Vital'' TWIC Documents.--The TWIC program should 
include written translation of critical documents, including the TWIC 
disclosure forms (this is in progress), the form consenting to the FBI 
criminal background check, and the initial denial letter, which 
includes the critical description of TWIC appeal and waiver rights. In 
the interim, at the very minimum, all initial denials should include a 
``tag line'' in multiple languages directing the individual to call a 
dedicated number to obtain a translation of the letter in the 
appropriate language.
vi. to properly monitor the program's effectiveness, tsa should report 
   additional data on the status of the security threat assessment, 
                          waivers and appeals
    Finally, we urge TSA to provide additional data in the TWIC 
Dashboard or another format to better assess the effectiveness of key 
features of the TWIC process. Specifically, TSA should include: (1) 
Denials broken down by immigration status, criminal record, and other; 
(2) denials broken down by type of criminal offense; (3) the success 
rate of appeals based on immigration status, criminal record, and 
other; and (4) the number of appeals and waivers that are pending. This 
information, if provided monthly, will go a long way to monitor the 
effectiveness of the TWIC process heading into this critical period of 
enrollment.
    Thank you again for the opportunity to testify on this important 
issue as we reach the 1-year mark and still have an opportunity to 
improve the program from an applicant's perspective. We look forward to 
working with TSA and the committee to ensure a more fair and effective 
TWIC process.

    Ms. Sanchez. Thank you, Ms. Moskowitz.
    I wish there were more Members of the committee here today 
because there are so many questions, and I am glad that all of 
you are before us today because this really is an important 
topic.
    I want to begin by talking to Mr. Golding. Welcome, if it 
is your first time here. We are very glad that you are before 
us today.
    Mr. Golding. Thank you, Madam Chair.
    Ms. Sanchez. So enlighten me a little bit, because I am a 
little confused with your testimony, not because you didn't do 
a good job but because I don't have a lot of background in 
barges and cargo.
    Explain to me--I am trying to put in my mind this 28. I 
understand people work 28 days, and there are 14 days off. So 
are you telling me that they have to get a TWIC card each time 
they go onto your boat? Are you telling me that--I am trying to 
understand. Is it just a one-time deal when they are trying to 
get their TWIC card that cuts into----
    Mr. Golding. Yes ma'am.
    Ms. Sanchez. Are these people who have worked for you for a 
long time or are they just crew that come off of the roster or 
what have you, the union roster or whatever it might be, to 
come over and work? I am trying to figure out how you end up, 
past the initial phase, how you keep ending up with crew that 
continues to need to go to TWIC.
    Mr. Golding. This is just new hires that we bring on board 
as a new, green deckhand or pilot. They are new in the 
industry, new on our vessels. When we hire them, we send them 
to the TWIC center; and within 15 days we dispatch them to a 
boat.
    Ms. Sanchez. So if they haven't gotten their TWIC card 
within those 15 days they have got a waiver from the Coast 
Guard for 30 days.
    Mr. Golding. They have an automatic 30-day interim work 
authority. We have to, at that point, request the Coast Guard 
to give us 60 days. The captain of the port, we can make a 
request for a 60-day waiver.
    We are going to be doing it on all our new hires, because 
they are going to be on the boat when their TWIC card comes in 
the majority of the time. They are not going get it before they 
catch the first boat. So if they are out for 28 days and their 
card comes in, they are not going to be available to go get it. 
We are going to have to request a 60-day waiver.
    That is the reason I was asking for a blanket waiver of 60 
days, so it matches up with our industry's work schedule. Most 
companies work either 28 or 30 days on, and the new hires are 
the only ones that would be involved in this.
    Ms. Sanchez. So--again, to educate me a little bit. So you 
get a new hire in. You send them over to the TWIC station. They 
put in all their information. They get on the boat. They go and 
do their thing. They are out of port, I am assuming.
    Mr. Golding. Right.
    Ms. Sanchez. And day 20 the TWIC card comes into the port 
they left from, but they don't have it wherever it is they are.
    Mr. Golding. That's right.
    Ms. Sanchez. So they are out for 28 days. Are they going to 
other ports?
    Mr. Golding. They may never stop. They may drop off their 
barges in St. Louis, turn around and head back to New Orleans. 
While they are notified, maybe via the Internet, that their 
TWIC card is available to be picked up, they are unable to 
physically do it because they are on the boat for 28 days, and 
maybe it comes while they are on the boat. So we have to ask 
for a blanket 60-day waiver so that they can get it on their 14 
days that they are going to be off. It doesn't match up with 
our day schedule for new hires.
    Ms. Sanchez. How often do you have new hires?
    Mr. Golding. In our industry, the new hires is a high 
turnover rate. A lot of times their visions of what it is like 
working on the river doesn't really match up with reality. So 
we do have a high turnover in our initial job entry level. Once 
they make a few trips, we know then whether they are going to 
be with us long-term.
    But with the new hires is the only problem. Because as the 
TWIC card comes in they are on the boat for 28 days, and they 
are not allowed to get off. So they are going to be in 
violation of the 30-day interim work authority unless we ask 
for a 60-day waiver, and we will be doing it constantly on our 
new hires the way the system is set up now.
    Ms. Sanchez. Okay. Now talk to me about the reader problem 
that you said, because you have the crew, once you get a crew 
together they are going out mostly together.
    Mr. Golding. Yes, ma'am.
    Ms. Sanchez. So in your opinion the reader--the card reader 
would be where?
    Mr. Golding. It is my understanding it would have to be 
installed on the vessel. As crew members come aboard they would 
have to key in to accept their entry into the vessel.
    Ms. Sanchez. So your belief is that for a six-member crew 
vessel you have got to put a reader, a card reader on that.
    Mr. Golding. That is my understanding, that the rule would 
require vessels to have card readers. As I said, this is home 
to these men and women. They live together for 8 months out of 
the year. We would like to keep the same crews on the same 
boats for a lot of operational reasons. Some operators have 
larger crews, larger boats, perhaps have 8-, 10-member crews. 
But it is the same problem that they are all going to face, is 
the environment is not conducive to a lot of this type 
equipment as it is.
    But they are home. I mean, they are family for the majority 
of the year. It just seems a waste of time, money and effort to 
put a reader on a boat. It is almost like having a reader at 
your home and key in before you go in your living room. This is 
the way these guys feel about it, and I wanted to bring that 
message to you.
    Ms. Sanchez. Ms. Marks, is that your understanding, that a 
six-crew boat of his type going up an inland river would 
require a reader, a card reader on the vessel?
    Ms. Marks. Madam Chairwoman, I would have to ask you to ask 
either the Coast Guard or TSA. We have nothing to do with the 
card readers or that rule.
    Ms. Sanchez. We will ask them. Okay. Thank you on that.
    Ms. Bowman--I am sorry. I have a lot of notes up here--what 
do you think it is costing you to make all this extra effort to 
ensure that those who work on the port, whether they are 
truckers or longshore people or administrators, what does it 
cost you? What have you budgeted for the year to make a 
propaganda campaign to get people in, to put signs up, and are 
you being reimbursed for that at all?
    Ms. Bowman. That is an excellent question. Thank you. I 
don't have an exact figure for you, but maybe I could outline 
some of the activities that we are doing.
    First of all, the Port of Tacoma is paying for the TWIC 
card for all of its employees, although we only have 250 
employees, so it is not a huge expense, but it is a line item 
budget.
    Ms. Sanchez. This is for your administrators, people who 
actually go to work and are part of the port system.
    Ms. Bowman. Correct. We also operate some of our own 
terminals, and so on those terminals we pay for our employees 
to get their TWIC cards.
    In terms of--I wouldn't necessarily call it a propaganda 
campaign but the advertisement, we have, similar to what was 
mentioned earlier, banners at all of the terminal gates, no 
TWIC, no entry, that sort of a thing. Our security director 
meets monthly with the terminal operators to talk about TWIC 
enrollments. None of those costs have really been added up, but 
it is a considerable amount of time.
    I mean, the ports are at the front line of this process. We 
want more than anybody else to make sure that this works. But 
we haven't been reimbursed for staff time, for example, for 
those sorts of things.
    The issue that I brought up earlier regarding the reader 
cards and reimbursement for that through the Port Security 
Grant Program is allowing us to apply for TWIC implementation 
money. That is great. We really appreciate that. But there is 
also a 25 percent cost-share required. We feel that this is a 
Federal mandate; and, if it is being mandated, why are we 
requiring to put up 25 percent?
    Ms. Sanchez. Excuse me. Did we waive that?
    It is a DHS requirement. Thank you.
    You said that you began with this in November 2007 and that 
you believe you have about 40 percent of the people who would 
require TWIC cards for your port are still not in the program, 
having applied for it, basically; and the deadline is, of 
course, April 2009. Do you think that there is adequate 
capacity between now and April to get in those 40 percent of 
the people or do you think there is going to be a problem for 
you?
    Ms. Bowman. I think there is going to be a problem at the 
enrollment centers in terms of a surge. I guess the example 
that I would use is what happened when passports became 
required and there was an enormous backup.
    I guess I would also use that example for what could 
possibly happen with DHS and the Coast Guard of getting the 
word out early about this requirement. Industry is doing 
everything they can, and we complement our labor partners in 
getting the word out to their workers as well, but we really 
feel that the Federal agencies need to take a greater and more 
active role in getting the word out about this.
    It is not just an advertisement in a shipping journal. 
Truckers aren't reading shipping journals. So whether it is an 
advertisement in the newspaper, an ad on TV, those sorts of 
things that really get the word out about this. Because nobody 
wants to see it get to February and the system start to crash 
because there is too many people.
    Ms. Sanchez. What about the on-going--after April 9, let us 
say we get the majority of the people--I don't know. They told 
me earlier in the last panel it was going to be 100 percent. 
But let us say that they get the majority of the people and get 
them their TWIC card. But then you have the on-going issue of 
new people coming or new hires, whether it is a trucker, it is 
a longshoreman, it is somebody in your own administration. What 
do you see the footprint being after April 2009 at your port as 
far as access to be able to get new hires and others through 
the process?
    Ms. Bowman. Well, again, that is an excellent question. We 
haven't heard any information from the agencies about what 
their long-term enrollment plan is, whether the enrollment 
center will be in its current location, whether that will be a 
permanent location, and we are anxious to find out.
    For example, at our port, we are expanding our terminals. 
We currently have 200 or--excuse me--2 million TEUs. In the 
next 5 years, we will be able to go up to 6 million TEUs. That 
is a considerable number of new port employees coming on-line.
    Again, we don't know if that enrollment center is going to 
be there long-term or not. So it is a question that we have as 
well. I am sorry I am not able to answer it.
    Ms. Sanchez. Okay. Talk to me about this whole issue of 
escorting foreign ship crew members. This also goes back to an 
issue that I think some in maritime have asked about. Why is it 
that a foreign crew member doesn't need a TWIC and can come on 
to our port but those who are on ships need to get a TWIC? So 
can you explain what your issue is with respect to escorting a 
foreign ship?
    Ms. Bowman. It is not just--just to clarify, it is not just 
the foreign ship workers. For example, at our port, we have 
roll-on roll-off vehicles. We are a major port for automobile 
imports from KIA. So we have workers that actually have to go 
up onto the ship and drive the automobiles off the ship into 
the holding area. We don't know whether they are required to 
have TWICs or not at this point.
    But we have heard from the Port of Seattle, our neighbor 35 
miles north, they have cruise ships. Cruise ship employees, are 
they required to have--and these are just the entertainment 
workers, hospitality workers, those sorts. Right now, there 
seems to be no requirement for them to have a TWIC to work on 
board. Do they need to have a secure area to get on and off the 
ship, or are they now going to have to be required to go 
through the public access but they are not going to have a TWIC 
to get back on the board? So those are the issues that people 
are facing; and, again, we are just looking for guidance moving 
forward.
    Ms. Sanchez. Thank you.
    Mr. Byrd, you are representing the Trucking Association, 
correct?
    Mr. Byrd. Yes, ma'am.
    Ms. Sanchez. Mr. Byrd, you were talking about your company. 
I have a couple of questions with respect to your company, 
because I am trying to figure out what some of your concerns 
were, and then I have a broader overall thing.
    With your company, do you have independent contractors or 
do you actually have employees and you are worried about your 
employees and their work as they come into the port?
    Mr. Byrd. Yes ma'am. We have about 90 percent of our work 
force is company employees and about 10 percent is independent 
contractors. We have a number of issues, a number of concerns. 
As I spoke in my opening remarks, we talked about the 
duplication of credentialing.
    Ms. Sanchez. This is a major problem.
    Mr. Byrd. It is.
    Ms. Sanchez. We all realize it here on this committee. Just 
the fact we even have something like Florida where they have 
their own TWIC card and then we have our TWIC card and then you 
have the HAZMAT card. If I am--especially if I am an 
independent trucker which isn't making any money and they have 
got to get four cards in order to even go into any kind of a 
port to have some kind of a haul I think that that is 
outrageous.
    Mr. Byrd. It has been excessive. Further on that point, one 
of the things that we have issue with is, of course, the 
duplication of background check and database credentialing for 
the hazardous endorsement criteria to move hazardous material 
throughout the country. We have a concern about the requirement 
for nonsensitive, nondangerous hazardous materials, such as I 
mentioned in the opening remarks; and, at the same time, we go 
through the same background check to get a hazardous 
endorsement on a CDL license that we go through for the TWIC.
    On subsection B of section 1556 of the 9/11 Commission Act 
it requires--part of the requirement was to have the TWIC to 
satisfy the need for hazardous material endorsement. It is 
ironic that truckers coming into our country from Canada and 
Mexico, they have that privilege, that convenience, and 
American truckers don't have it. We feel that is an injustice 
to our drivers and our industry.
    Ms. Sanchez. I have a broader question. Do you believe that 
truckers should be required to have this TWIC card? I ask that 
because there are a lot of people out there, especially with 
the independents, who believe this is a move, if you will, by 
Congress or people to actually crack down on people who don't 
have documents to be in this. In other words that we are just 
really trying to clean up the trucking industry. Do you think 
there is a real need for the truckers who go on to the ports to 
be an actual part of the TWIC program?
    Mr. Byrd. Madam Chair, I would think that there is a need 
for a security background check to enter into sensitive, secure 
areas of both seaports and airports and other DOE facilities, 
DOD facilities, or what have you. We appreciate--as an 
industry, we appreciate the fact that we are trying to make our 
borders and our ports and our commerce safe from terrorism. 
That is a good thing. We just think that a sensible, logical 
approach would be more in-line.
    For example, we have drivers that extend throughout the 
country. Drivers that live in the center part of the country 
and have to travel literally hundreds of miles in order just to 
enroll for TWIC, the cost of the card is $130.50, but that 
doesn't take into account the fact that when I stop a truck 
from generating revenue it is like a manufacturing facility 
stopping a production line. When I stop the revenue on that 
truck I not only stop the revenue for my company but I also 
stopped the earning ability of that driver. For him or her have 
to travel hundreds of miles to enroll and then again hundreds 
of miles perhaps to accept and take delivery of the card is a 
bit burdensome.
    I can tell you from my own experience, because I am a TWIC 
cardholder, it didn't take 2 weeks to get my card. It took more 
like 2 to 3 months. That is what we are seeing. So we are 
concerned about that.
    In Charleston, for example, our date of implementation is 
December 1, as is Savannah; and we are concerned, frankly, 
about the ability of getting these cards. We would hope that 
the program might be in some way expanded so that a driver that 
lives in the center part of the country inland may be able to 
go into the Department of Motor Vehicles, for example, and go 
through the same qualifying criteria in a more convenient 
process.
    But, to answer your question, we don't have any issue 
complying with the requirements. We just would like to see it 
in its original form: One card, one credential, one cost.
    Ms. Sanchez. Great. Thank you.
    Ms. Marks, recently, my staff went on a tour of the Port of 
Los Angeles Long Beach. I, unfortunately, couldn't be there 
that day, although I have gone many, many times.
    But in particular they were looking at this whole issue of 
TWIC. They went over to the enrollment center on Terminal 
Island, for example. It was brought to their attention that the 
disclosure forms given to enrollees were only in English and 
that bilingual staff was prohibited from providing a verbal 
translation. Has there been any progress at Terminal Island?
    I ask this because when I look at California, I represent 
the city of Anaheim, and its elementary school district has 
kids who come to school where the main language in the home 
that they come from is one of 93 different languages. So do you 
know what is going on over there in the port?
    Ms. Marks. Yes, Madam Chairwoman. That is an excellent 
question, and our trusted agents that are bilingual at many of 
our port facilities have been restricted from doing unofficial 
translations. We have been informed by TSA that the 12 
languages and the new disclosure forms will be available. We 
anticipate receiving them sometime hopefully this week. We will 
then not only send them not only to our 149 locations in our 
mobile enrollments, but we will also provide refresher trainer 
for our over 700 trusted agents who will need to make sure they 
are available for people
    Ms. Sanchez. You said there are six languages.
    Ms. Marks. Twelve languages.
    Ms. Sanchez. Twelve languages that you are going to 
provide. You think it is going to come back in the next week or 
so to you?
    Ms. Marks. We believe so. As I believe the program 
director, Maureen Fanguy, said this morning, they were just 
approved, and we have been informed they will be coming to us, 
and we will expedite them out as well as provide refresher 
training.
    Ms. Sanchez. Ms. Moskowitz, you were talking about--can you 
elaborate or go back to the testimony you gave about family 
members translating? Was that encouraged; was that just word-
of-mouth, you have got to bring somebody who is going to 
translate for you because it is not available, and you are 
going to be wasting your time? How did that standard come to 
be?
    Ms. Moskowitz. My understanding is that TSA made a policy 
decision that they were going to allow applicants to bring 
friends and family members, really the person of their choice, 
to help translate. In fact, on the current disclosure form, 
there is a signature area on the bottom where the helper needs 
to sign under penalty of perjury that they have actually 
provided information correctly. So that was--my understanding 
is that is a policy decision.
    Irrespective, as I mentioned in my testimony of Department 
of Justice guidelines, it talks specifically about how friends 
and family members are not appropriate for this type of 
service, providing this kind of translation or interpretation.
    Ms. Sanchez. Well, I would tend to agree with that. I mean, 
I know Spanish, and I can read and write it, and I have pretty 
good grammar in it, but there is no way I would pass myself off 
as an official translator, especially when it comes to perjury, 
you know, ability to disclose what criminal record somebody 
might have. I think it is a very big issue for to us take a 
look at and continue to ensure that TSA provides the 
translators.
    Ms. Marks, in the people that you have from Lockheed who 
are at some of these centers, do you have any who are under--
who are official translators or who have the credentials as 
official translators?
    Ms. Marks. We have trusted agents at the facilities who are 
bilingual. I cannot answer for you if they fit the official 
definition of translator, but I will be happy to get back to 
that for the written--to submit.
    Ms. Sanchez. I definitely would like that, and I think we 
need to ask TSA whether they have credentialed translators and 
how many they have on staff with respect to these areas.
    I am very concerned about this FBI database and the fact 
that--about half of what States have been doing doesn't get 
translated onto this database. I know this to be a fact because 
we have had plenty of case issues going through my office, not 
in this particular arena, but with respect to other issues, 
where, in fact, arrests or things that should have been purged 
because people were underaged at the time or what have you 
never show up on the official FBI transcripts or database. In 
fact, they are considered felons or what have you.
    Ms. Moskowitz, how many waivers for disqualifying offenses 
are denied based on incomplete information?
    Ms. Moskowitz. Let me just explain. The waiver process is 
available for people who actually have a disqualifying offense. 
What we were referring to was the appeal process just to 
clarify that.
    Ms. Sanchez. Sorry. The appeal process.
    Ms. Moskowitz. In the appeal situation, that is where the 
worker has an opportunity to say, I actually am eligible; TSA 
doesn't have all the information based on the FBI RAP sheet 
that they looked at.
    Ms. Sanchez. But, as you say it, you are guilty or you are 
not getting your TWIC card unless you go and do the footwork to 
come back and to tell us that you are clear?
    Ms. Moskowitz. Exactly. Yeah. So we know--based on some of 
our most recent TWIC dashboard, there were about 16,000 
denials, and we understand about a third of those are criminal-
record-related. So thousands of workers have been denied based 
on their criminal records as they appear on the FBI RAP sheet. 
We know that, as I mentioned, the 99 percent success rate on 
appeal show that these are workers who were needlessly denied. 
If there was a better screening process that went beyond the 
surface of the FBI RAP sheet, these workers would not be 
required to go to the courthouses, locate this information and 
submit an appeal to TSA.
    Ms. Sanchez. How do these workers know they are to come to 
somebody like you to help them with the appeal? Because, I 
mean, that is a pretty scary process, actually to--to actually 
bring up old things that are on your RAP sheet or what have 
you, and to go through the process, and to go to the courts and 
get information, and go through the appeals process. How do 
people know? I mean, are you advertising? Does TSA tell them 
where to go?
    Ms. Moskowitz. Most of them will because we have done a lot 
of outreach with the transportation unions. So a lot of the 
union members know we are available to help. But there isn't 
any kind of instruction across the country, nor could we, 
frankly, handle all the workers that are being needlessly 
denied. It is very daunting--I can tell you from talking with 
hundreds of workers going through this bit, they are very 
worried and stressed out and having nightmares, as are their 
families, at the prospect of losing this job because they don't 
know how to navigate the system, how they prove that they are 
eligible. We know that at least 2,000 of them have not 
appealed, and they have just timed out.
    Ms. Sanchez. Those that don't--2,000 of them out of how 
many?
    Ms. Moskowitz. Out of 16,000--about 16,000 initial denials 
that we have seen so far.
    Ms. Sanchez. Because some people may not know to turn to 
you or may just throw up their hands or may think there is a 
problem. Okay.
    Back to Ms. Marks. Ms. Fanguy said she thought there would 
be 1.2 million workers under the TWIC card by April 2009. Right 
now you have 500,000 who are enrolled, a little bit under 
400,000 who have received the card. So that means you need to 
issue--get through the process and issue about 800,000 cards 
between now and April. Are you set up to do that, really?
    Ms. Marks. We are really set up to do that. If you look at 
our capacity, the capacity is there. We have over 700 trusted 
agents ready. If you look at even our system where people can 
pre-enroll and get an appointment, we have appointments at 
every port available, some are full this week. Obviously we 
have some impacts on the gulf and in Texas as we speak. But 
every single one of those 149 ports has capacity available and 
will take appointments today and next week.
    Ms. Sanchez. What if everybody doesn't show up until the 
last month?
    Ms. Marks. Well, that is why we are trying desperately----
    Ms. Sanchez. No, no, no. What happens if they don't show 
up--and I ask this because I have workers telling me some of 
you applied for the card 8 months ago, and it is only going to 
be good for a year, a year-and-a-half, or 2 years, or whatever 
the amount is, and they are going to have to pay their amount--
yet they haven't even used it yet, really, except to flash it 
somewhere. They said then they are going to have to pay--so 
everybody I am talking to is telling me they are going to wait 
until the last day, because, you know, why should I pay $130 
today when I can pay $130 on March 31, and then my card is good 
for another 2 years, rather than having 6 months of not even 
needing it?
    Ms. Marks. Well, first, the card is valid for 5 years. The 
$132.50 covers a credential for 5 years, and that credential 
starts at the time that the card is actually printed at the TSA 
facility in Kentucky. So please allow me to clarify that, that 
it is good for 5 years, not 2.
    We have been trying and working with all types of 
stakeholders to encourage people to enroll now. One of the 
reasons is, as Ms. Moskowitz said, if someone is going to get 
denied, we hope they come in early so they have the ability to 
appeal before they need to come into compliance. But we have 
the ability to extend hours at every port. We have the ability 
to extend locations, similar to how we put a new location at 
Terminal Island. We have added mobile enrollment stations. 
Eighteen percent of the population to date have enrolled at 
mobile enrollment stations at stakeholder locations, and we 
have got another several hundred of those planned.
    We are ready for the surge, but in all honesty, if everyone 
comes on the last day, we cannot handle 800,000 people in a 
week.
    Ms. Sanchez. Okay. I have a little vignette here I want to 
ask you about. This is about technical missteps which seem to 
be significant problems within the program. It seems that there 
is a Texas tankerman that applied for TWIC last November in 
Beaumont. He was informed within a few weeks that his TWIC was 
ready to pick up. He returned to the enrollment center in early 
December, but Lockheed Martin could not activate the card due 
to an unspecified glitch. A few weeks later he returned and 
faced the same problem again. Last month, after his seventh 
attempt to pick up the card, Lockheed Martin informed him that 
the same problem existed with respect to activating his card. 
He asked for a supervisor, but they said that that wouldn't be 
possible.
    So unspecified glitches, what are those, and how often do 
they come up, and why has this guy had to go seven times and 
still doesn't have a card?
    Ms. Marks. I can't answer the specific, but I can commit to 
you to look into that. We have enrolled successfully over 
500,000 people. We have had some human errors as we have a 
population of over 700 trusted agents doing this, 
geographically dispersed, locally hired. Anytime an issue has 
been raised to us by a stakeholder, by an enrollee, by a Member 
of Congress, we have looked into it, and we have taken rapid 
action. Anywhere where we can eliminate human error, we try to 
build checks into the technology and into the system.
    One prime example, which you mentioned earlier, was people 
not being--not using their passports as their first credential 
in terms of enrolling. We have retrained all of our trusted 
agents to ensure that they do use passports as the first 
document to be enrolled now.
    But we are learning as we go along. We have made tremendous 
progress, and I would be happy to take a look at that 
individual case.
    Ms. Sanchez. There are several cases that have been brought 
to our attention that need help. Ms. Marks, what about Mr. 
Byrd's request that there may be--that maybe centers or some 
sort of thing might be put in middle America, because his 
people have to drive hundreds of miles to go try to get a TWIC 
card?
    Ms. Marks. We are happy to evaluate any potential locations 
for enrollment centers, as well as we have proposed to the TSA 
and are working together on actually I believe it was Mr. 
Byrd's request for is there a way that people can receive these 
and not have to come back a second time. We have heard that 
from Members and, I believe, from yourself over the past year 
since we started enrollment, and we are trying to evaluate is 
there a way with the secure card to be able to facilitate that 
as well.
    Ms. Sanchez. So let me just get for testimony on the record 
here, Ms. Fanguy, the program manager for TSA and homeland 
security on this program has said she believes by April 2009, 
the deadline, there will be about 1.2 million people that 
should have TWIC cards, and you said here to me today that you 
believe you will be able to handle issuing TWIC cards--
considering you have issued a little under 400,000 at this 
date, that you would be able to handle issuing 800,000 TWIC 
cards by April 2009?
    Ms. Marks. That is correct. We have the capacity and the 
personnel to do it. We just need the remaining 800,000 to come 
in and enroll. We encourage you and all the Members to 
encourage your local communities to do that as soon as 
possible.
    Ms. Sanchez. Great. Thank you.
    Does my staff have any question, or want an answer that you 
all--oh, Mr. Green.
    Mr. Green. Thank you, Madam Chair.
    Ms. Sanchez. Just in time.
    Mr. Green. Thank you. Thank you.
    Ms. Sanchez. Mr. Green of Texas.
    Mr. Green. Thank you. I was listening to your melodious 
voice in the back and got carried away. I thank all of you for 
appearing today.
    Let me start with something the Chairwoman was visiting 
with you about with reference to the 5 years. The time that the 
card starts is from the moment it is printed, and it is good 
for 5 years; is that correct? This being the case, why would a 
person wait--why would a person immediately go out, secure a 
card that really cannot be read, and lose the opportunity to 
extend that period of time? What is the inducement to get the 
card right away?
    Ms. Marks. Well, the length of the card has nothing to do 
with the card reader. The Coast Guard, starting October 15 in 
New England, will be basically enforcing compliance with hand-
held readers. So starting October 15, the Coast Guard has 
announced different zones coming into compliance between 
October 15 and April 15 where people will need to show their 
TWIC credential, which can be read with a hand-held reader.
    Mr. Green. Okay. Now, when we started this process, it was 
to be bifurcated. Were we to get the cards up first and then 
the readers come on-line, or were we to have cards and readers 
coming on-line at the same time? When did the process become 
bifurcated?
    Ms. Marks. Sir, I am afraid I can't answer that, being the 
contractor on the TWIC cards. I would have to ask you to ask 
either TSA or the Coast Guard.
    Mr. Green. For edification purposes, we have had 
representatives here from TSA and other agencies, and they 
always talked until--just recently, not too long ago, maybe the 
last 8 months is my recollection, about card and reader 
together. In fact, we were given assurances about when the 
program would be up and running. I mention this to you because 
I am trying to understand the value of initiating the card, 
putting it on-line without having the reader for the card. What 
was the value in doing this?
    Ms. Marks. Sir, again, I would have to defer to TSA.
    Mr. Green. Does anyone else have information on what you 
perceive to be the value in doing this to be?
    Okay. With reference to the appeals process, the indication 
to us is by way of intelligence from staff, 7,311 appeals 
requested, 4,734 appeals granted. If you know--and I apologize 
if I am asking the wrong people what I perceive to be the right 
questions--if you know, does ``granted'' mean that the appeals 
were actually granted in the sense that the persons were given 
the opportunity to acquire the card and move on with the 
process, or does it mean that these persons were given the 
opportunity to continue with their appeal?
    Ms. Moskowitz. I think I can answer that question. When the 
appeals are granted, the TWIC card is approved, and that begins 
card production.
    Mr. Green. In terms of the number of appeals granted, the 
Chairwoman mentioned this, you have this information deficit 
within certain files. That granted appeal can be as a result of 
the card seeker having gone out, acquired certain intelligence, 
and accorded this intelligence to the agency or TSA so that 
they can make a fair determination about the person's record. 
Through no fault of the person, the record wasn't complete. Is 
that a fair statement?
    Ms. Moskowitz. That is exactly correct.
    Mr. Green. This part of the process can be costly to the 
person who actually has to prove now that he or she is a 
legitimate person, notwithstanding some allegations that may 
not be understood, but the legitimacy has to be proven. I would 
assume that this means you will have to bring certified records 
to someone, that they won't just take your word for it, you 
will have to go someplace and acquire records that have been 
certified. I assume that there is a cost associated with 
getting records certified in Texas. We do have a cost if you 
want records certified. I would also assume that there may have 
to be some research involved. There are times that you have to 
pay for the research that is involved.
    So that $132.50 that you start paying can go up, depending 
on how much research, how--what the cost is of the 
certification of documents and a number of documents that will 
have to be certified. Is that a fair statement?
    Ms. Moskowitz. That is an extremely correct statement, and 
I would add that the costs can range from days taken off work, 
traveling to local courthouses, doing research, obtaining 
copies of State criminal history records, which can cost 
between $40 and $60 depending on the State, in addition to the 
court certification costs for the folks who are getting the 
records certified from the clerks' offices, and then there is 
an issue of a number of workers who don't know where to turn 
and don't know how to do this research, as the Chairwoman 
recognized, are paying attorneys. I have heard rates of 
attorneys charging $10,000 to research this information that is 
missing from the FBI database.
    Mr. Green. Have you found--and I don't want to stereotype, 
but have you found any segment of the population to be more 
vulnerable to this than another, or is this pervasive, and it 
could happen to anyone; or do you find that may be happening to 
some more than others? If so, define ``some'' for me.
    Ms. Moskowitz. What I can say based on our experience 
working on criminal record base to employment and licensing in 
general and the clients who we have seen, there is a 
disproportionate impact based on race, African Americans and 
Latinos who are disproportionately impacted by any kind of 
criminal record screening policy.
    Mr. Green. Does anyone else have some intelligence that you 
would like to share on these points? Anyone else? I don't mean 
to deprive others with the opportunity to share.
    With reference to the card lasting for 5 years, I know that 
this was something that was decided on and that you have 
accepted, but is there a reason why a card should last 5 years 
as opposed to 10? Five years at the inception of this program 
seems to cause a degree of consternation in terms of people 
trying to save money. To some of us $132.50 is not a lot of 
money, but to many others it really is a lot of money, and 
those are the people that I really represent, if the truth be 
told, those that have a problem with the $132.50. So is there 
some rationale for the 5-year, or is it arbitrary and 
capricious?
    Mr. Byrd. Your Honor, I don't have a reason or a rationale 
for the 5 years, but I can tell you that we share the concern 
that you mentioned a moment ago about the fact that the card--
me and my company, we attempted to early enroll, and a large 
portion of my workforce has their TWIC card already issued to 
them, and that card is--the meter is ticking on that card, as I 
understand, and we are losing part of the validity of that 5-
year process.
    Mr. Green. Absolutely.
    Now, back here, ma'am. You said that the Coast Guard will 
start a process of utilizing hand-held readers; is that 
correct?
    Ms. Marks. That is correct.
    Mr. Green. Are you saying that the pilot has already been 
implemented, the reader is in place?
    Ms. Marks. No, sir. These are mobile--that have nothing to 
do with the card reader pilot. These are literally hand-held 
readers to do spot checks until the card reader, as I 
understand, but I would recommend you ask the Coast Guard.
    Mr. Green. Because I am asking you this--the question is in 
this sense: Are you saying that the Coast Guard will have a 
device that we will call a reader that will now be able to scan 
what we are calling the card and check the biometrics in the 
card? Because that is ultimately where we are going. We want a 
card with biometric, and we have got a reader that can scan so 
that we can connect the card bearer to the card with more than 
a visual.
    Ms. Marks. That is what I have been led to believe, sir. 
Again, I would ask you to talk to the Coast Guard.
    Mr. Green. I think I should, and I don't want to hold you 
to what the Coast Guard should tell me.
    Ms. Sanchez. Mr. Green, just for amplification, that was 
asked of the earlier panel which had the rear admiral, and that 
is what they are seeking to do; however, they have not. They 
don't have a hand-held at this point. It is coming.
    Mr. Green. I understand. Madam Chairwoman, as you recall, 
it has been coming for some time. It seems that is just 
metamorphosed now into a different type of device, because 
initially we did not hear about the hand-held that was to be 
something more, and now it is something less, and all of this 
is moving in some circle, it seems.
    Finally, Madam Chairwoman, and I thank you for the time, I 
want to ask somewhat of a general question. The time--it seems 
that we were having a situation where the wait time on the 
phone was 20 minutes and 62 seconds, and I am told now that it 
is down to 27 seconds, and that is due to Chairman Thompson 
having contacted TSA. Just tell me, has that wait time changed? 
I am told that it is 27 seconds now. If it is more than that, 
maybe I need to ask the Chairman if he will make another call.
    Ms. Marks. Sir, I can answer that since we provide the help 
desk. It does average under 30 seconds on a given day, and that 
is every day as we speak. We take about 10,000 calls in a given 
week.
    Mr. Green. Someone else had a hand up. Yes, sir.
    Mr. Golding. Yes, sir, Mr. Green, Madam Chairman, I do want 
to make one point clear. There have been improvements in this 
program. The wait times are shorter for our mariner going to 
the facilities. The help desk lines are quicker. The personnel 
are more knowledgeable now at the centers now that they have 
been at it a while, and our cards are coming faster. So I think 
there are genuine improvements to the program.
    Where we are still seeing problems, particularly as in the 
fingerprinting, our older people for some reason--and females, 
those two groups of people are having more trouble with the 
sensitivity of the scanner fingerprints. Also computer 
glitches, and I know that entails a lot, but that seems to 
require multiple trips back at times, which causes a lot of 
problems.
    Addressing one other point with you, Madam Chairman, 
regarding the readers on board the boat, I do think that is the 
intention, because one of our companies in Mississippi, it is a 
member of our organization, is waiting for the pilot program of 
the readers to be sent to them so they can put them on board. 
So I do think that is the intent is to put readers on board our 
vessels.
    There is a tremendous problem going on right now in 
miscommunication in the port facilities. They have earlier 
compliance dates than we do on board. We are April 15. Some of 
the Coast Guard offices have told our mariners that you have 
got to have your TWIC card on an earlier date if you are going 
to go into New Orleans or if you are going to go into one of 
these port facilities or other requirements. I think some real 
work in the communication needs to be done, because the Coast 
Guard officers have told us themselves you must have an earlier 
date if you are going into that port. Well, we are April 15, 
down the line for the mariners. So I see that as a 
communication problem that is going on right now that does need 
clarification. Thank you.
    Mr. Green. You have caused me to think of something as you 
were talking. Is the TWIC card portable; meaning, can you go 
from one port to another and use a card? That is the way it was 
supposed to be.
    Mr. Golding. Yes, sir.
    Mr. Green. But let me ask you this in terms of portability. 
Do you find that some ports may have a different twist or tweak 
and require a little something more than the card, and as a 
result the card does not become the means by which you can 
enter?
    Mr. Golding. I am not in and out of the port facilities. We 
are on and off our vessels. I would have to yield to one of the 
port operators.
    Mr. Green. I believe Mr. Byrd has a desire to respond.
    Mr. Golding. If I could address one thing in relation to 
the card that you just brought to mind. When I picked up my 
card last week, I was told at the center, don't put it in your 
wallet; the credit cards will deactivate the chip. If that is 
the case, there may be hundreds of thousands of cards out there 
that are deactivated, if that is the case. This young man just 
happened to tell me as I was on the way out the door, don't put 
it in your wallet. So I just present that for question.
    Mr. Green. I can tell you that I had an experience 
recently, I went to this big convention out in a place called 
Colorado, I need not say more about it, and my card was a 
magnetic card for my room in my hotel. I placed it in with my 
other cards. That is exactly what happened to me. Exactly what 
happened. The cards in my wallet somehow deactivated the card 
that was to get me in my room. So I found myself late at night 
trying to get somebody to help me--I can imagine what it is 
going to be like for a worker who is trying to get--access his 
job, and now he has got to go through line A and fill out form 
C. Thank you for that. I will remember that. Yes, sir.
    Mr. Byrd. Mr. Green, I was just going to respond to the 
fact that we do enter and access the ports on the land side. So 
what we are experiencing is exactly what you indicated, is the 
fact that we are being asked to present and go through 
duplicate credentialing and background checks in order to have 
access to the ports at this time. As I mentioned, I think 
before you entered into the room this morning, from the 
trucking industry perspective, we have a concern in the fact 
that we are having to go through duplicate background checks, 
fingerprint-based criminal history background checks for U.S. 
American truck drivers for their hazardous material 
endorsement, whereas Mexican and Canadian drivers don't have to 
do that. The TWIC represents that process for them, but not the 
U.S. drivers.
    Mr. Green. The TWIC card is the sole card needed for 
persons who are from without the country, and from those who 
are within the country you need two cards?
    Mr. Byrd. You have to go through two background checks.
    Mr. Green. Okay. That is news to me. I appreciate you 
sharing that information.
    Finally, 14 TWIC centers are down in Texas; is this 
correct?
    Ms. Marks. Two of the fourteen reopened today, sir, but we 
are--we, just like everyone in the community, are trying to 
bring, obviously, power in the TWIC enrollments in terms of 
mobile deployments up as quick as we can.
    Mr. Green. What does ``down'' mean? Explain that to me so I 
can better understand.
    Ms. Marks. I can use an example. In Galveston, the facility 
that we were in was significantly damaged by Hurricane Ike. So 
we have ensured that the equipment was safe, we have ensured 
our personnel are safe. We are clearly concerned with that. Now 
we are putting work-around plans in place to figure out where 
can we set up a mobile station again that will allow us to 
start enrollments again in some of the places impacted by 
Hurricane Ike.
    Mr. Green. Okay. We have two that have gone back on-line. 
So we only have 12 down?
    Ms. Marks. That is correct.
    Mr. Green. Any anticipated time that the others will be 
back on-line?
    Ms. Marks. It varies by location. Again, we hope to open 
one of our Houston facilities up again as soon as we get power. 
We are prepared today, and we believe that power may come as 
soon as Monday.
    Mr. Green. Thank you.
    Madam Chairwoman, thank you for being so generous with the 
time.
    Ms. Sanchez. Thank you, Mr. Green.
    I have a couple of ending questions for Ms. Marks. The 
first one is--well, first I will just say to Mr. Green, you may 
have put that card, that magnetic card, actually not against 
your other credit cards, but usually it is your phone that 
deactivates it. If your phone was anywhere near, that always 
manages to demagnetize a card.
    Mr. Green. It was.
    Ms. Sanchez. It is usually the phone.
    But to Ms. Marks on that issue, I have noted that when I 
have seen biometric cards, they are not really the type of 
card--or the information is not put on the card in the sense of 
what we are talking about as far as credit cards or as far as 
key--room keys. Do you believe that the TWIC card can be 
demagnetized by a phone or by some other means?
    Ms. Marks. Madam Chairwoman, thank you for asking and 
giving me the opportunity to address that. It cannot be. But 
clearly I have some refresher training I need to do in some of 
my enrollment locations immediately if that is the guidance 
that is being given out. The chip contained on it is not 
magnetic. We store data in a different way. Again, that is not 
the issue. Thank you.
    Ms. Sanchez. That has been my experience when I have seen 
the types of chips. That is why I ask.
    The last question is about your contract with TSA for the 
project. I know that you have a performance-based bonus, which 
is the award--called an award fee pool. Are you familiar with 
what I am talking about?
    Ms. Marks. We have an award fee plan, and that is what we 
get measured against.
    Ms. Sanchez. So you were given one bonus so far on March 
31, 2008, totaling almost $400,000, but you haven't been 
awarded a second performance bonus.
    What improvements are your teams working on to meet mutual 
goals with TSA?
    Ms. Marks. Allow me again--it is not a bonus. This is an 
award fee. This is our ability--assuming we hit acceptable 
quality levels, the ability for us to earn some of that award 
fee. It has penalties that go with it as well. For one example, 
when we were not hitting the help desk call time, we were 
actually penalized of other amounts that we would have earned. 
That, again, is a contractual relationship between us and TSA 
that we had to give back as well. So they work both ways.
    We have eight defined acceptable quality levels that we get 
measured against. When we achieve those levels, we then can 
start earning the award fee. If we achieve 100 percent of 
those--and it is staggered in between--we can do that. The 
first award fee period, the majority--half the award fee was on 
opening enrollment stations on schedule, which we did. As we 
move on through the program, we are now in the second period, 
the second 6-month period. During that second 6-month period, 
it will all be based on items such as wait time, customer 
satisfaction, all objective measurements that TSA measures us 
on.
    Ms. Sanchez. Great.
    I thank all of you for your testimony before our committee 
today, and I am sure that some of the Members who were not able 
to make the subcommittee hearing may ask in writing some 
questions of you all, and I hope you will get back to us and 
answer those questions in a quick manner.
    The committee is now--I think there might have to be some 
official things I have to say. Hold on a moment. Actually, no. 
So hearing no further business, this subcommittee stands 
adjourned.
    [Whereupon, at 12:53 p.m., the subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              


  Questions From Hon. Loretta Sanchez for Rear Admiral James Watson, 
      Director, Prevention Policy for Marine Safety, Security and 
     Stewardship, U.S. Coast Guard, Department of Homeland Security

    Question 1. To what extent is the Coast Guard enforcing the TWIC 
requirements, including verifying the TWIC holder's identity, at port 
facilities where the program has been implemented? Has the Coast Guard 
encountered any challenges to enforcing the TWIC requirements?
    Answer. The Coast Guard began phasing in Transportation Worker 
Identification Credential (TWIC) implementation at port facilities by 
Captain of the Port (COTP) Zones beginning on October 15, 2008, and 
continuing through April 15, 2009. Once the TWIC compliance 
requirements are established, the Coast Guard will begin enforcing the 
requirements in the COTP Zones. Coast Guard personnel will verify TWIC 
compliance during announced facility inspections and unannounced 
security spot checks. The Coast Guard will also conduct random TWIC 
compliance inspections as directed by the COTP based upon risk and 
resource allocation. The Coast Guard has not, as of yet, encountered 
any challenges to enforcing the TWIC requirements.
    Question 2. Why does an applicant for a Coast Guard license or 
Merchant Mariner's Document who has gone through the TWIC enrollment 
process need to also travel to a Coast Guard Regional Exam Center to be 
fingerprinted? Why can't the two agencies that exist within the same 
Federal Department share data so a mariner doesn't have to make a third 
trip to a Government office to get the credential he or she needs to 
earn a living?
    Answer. Consolidation of Coast Guard-issued mariner qualification 
credentials was proposed in a Supplemental Notice of Proposed 
Rulemaking in conjunction with the Transportation Worker Identification 
Credential (TWIC) Final Rulemaking on January 25, 2007. The proposal 
acknowledges the need to reduce the burden on mariners who now must 
apply for and carry a TWIC as well as mariner qualification 
credentials. The proposed Merchant Mariner Credential (MMC) would 
consolidate the Merchant Mariner's Document, license, Certificate of 
Registry, and endorsements required by the International Convention on 
Standards of Training, Certification and Watchkeeping for Seafarers 
(STCW), 1978, as amended.
    The proposed consolidation proposal includes provisions for the 
Transportation Security Administration (TSA) to supply the Coast Guard 
with information collected during TWIC enrollment so the Coast Guard 
can eliminate appearance requirements for mariners applying for new 
and/or renewal credentials. It also proposed to reduce the fees that 
some mariners must pay for their credentials by eliminating the need to 
pay for more than one credential. These proposed changes, if 
implemented would decrease the number of appearance requires for 
mariners.
    Question 3. The January 2007 TWIC rules allow for 30 days of 
interim work authority for new hires that have completed the TWIC 
enrollment process but have not yet received their TWIC. This can be 
extended to 60 days with the approval of the Coast Guard Captain of the 
Port. Given that many mariners report that it's taken much longer than 
30 days to get a TWIC, and given that work schedules in the many 
sectors of the maritime industry require individuals to be on a boat 
for 30 days or more, wouldn't it make sense to extend this period to a 
blanket 60 days, without requiring companies or mariners to jump 
through the hoop of requesting COTP approval?
    Answer. In accordance with the regulation (33 CFR 105.257), certain 
newly hired employees may be granted entry to secure areas of the 
facility for up to 30 consecutive calendar days prior to receiving 
their Transportation Worker Identification Credentials (TWIC) provided 
all of the requirements are met, and provided that the new hire is 
accompanied by an individual with a TWIC. If the Transportation 
Security Administration (TSA) does not act upon a TWIC application 
within 30 days, the cognizant Coast Guard Captain of the Port (COTP) 
may further extend access to secure areas for an additional 30 days. 
Any deviation from this process would require a change to the existing 
regulations.
    Question 4. There is the distinct possibility that Lockheed Martin 
and TSA will be overwhelmed by a flood of applicants within the next 
couple of months and that applicants will be face to wait a significant 
amount of time before they can attain a TWIC card. Will the Coast Guard 
modify the enforcement dates if TSA and Lockheed Martin are unable to 
process application requests in a timely manner?
    Answer. The Transportation Worker Identification Credential (TWIC) 
Final Rule, published on January 25, 2007, stated the Transportation 
Security Administration (TSA) could not guarantee processing of an 
individual's application and issuance of his/her TWIC in less than 30 
days. The TSA is currently overseeing 149 TWIC enrollment centers 
across the country. To date, the majority of these enrollment centers 
have extra capacity to facilitate additional enrollments and 
activations prior to compliance beginning in a particular COTP Zone.
    It is unlikely that enforcement dates would be changed. We announce 
compliance dates in both a press release and in the Federal Register 
prior to the compliance date when enforcement begins. By regulation, 
announcements must be made 90 days prior to the compliance date; 
however we have been announcing as far out as 120 days whenever 
possible. Leading up to the compliance date, we increase outreach 
efforts to those areas to make every attempt to notify individuals that 
TWIC compliance is coming and individuals with a need should obtain a 
TWIC. Lead outreach initiatives to date have encouraged maritime 
stakeholders, port partners and potential applicants to apply for their 
TWIC as early as possible.
    Question 5. Two months ago, the National Maritime Security Advisory 
Committee (NMSAC) submitted 17 pages of comments and concerns to the 
Coast Guard regarding the TWIC program.
    Why hasn't the Coast Guard responded to the input?
    Answer. The Coast Guard provided responses to questions submitted 
by the National Maritime Security Advisory Committee (NMSAC) on 
September 18, 2008.
    Question 6. How much money is the Coast Guard going to request next 
year for hand-held readers?
    Answer. On September 18, 2008, the Coast Guard awarded a 48-month 
contract to Science Applications International Corporation (SAIC) in 
the amount of $2,274,377 to provide training, warranty, help-desk 
support and the acquisition of up to 300 hand-held Transportation 
Worker Identification Credential (TWIC) readers. Future year funding 
needs will be assessed after the hand-held readers are deployed and 
evaluated.
    Question 7. It is my understanding that in the aftermath of 
Hurricane Gustav, the Captain of the Port of New Orleans issued a memo 
stating that TWIC holders should be classified as high-priority 
personnel and should be allowed onto the port. This was the first time 
that the TWIC card had been used in such a way. Will this become 
standard operating procedure in the future?
    Answer. TWIC was used as a valid identification credential for 
individuals who were critical components to the re-establishment of 
commerce and re-vitalization of the Port of New Orleans as identified 
by the Coast Guard Captain of the Port (COTP). This action is an option 
for future COTPs to assist critical industry and maritime personnel if 
re-entry into hurricane-impacted ports becomes hindered. Currently FEMA 
is looking at utilizing FIPS-201 interoperable credentials, among other 
identity credentials, to support incident management and response. TWIC 
is being considered as part of these discussions.

    Questions From Hon. Loretta Sanchez for Maurine Fanguy, Acting 
 Director, Maritime and Surface Credentialing, Transportation Security 
            Administration, Department of Homeland Security

    Question 1. What is your plan for the post-April 15, 2009 period?
    How will you ensure that everyone who needs to get a TWIC after 
that date can do so at least as conveniently as today?
    Answer. The Transportation Worker Identification Credential (TWIC) 
enrollment process was developed to support workers both pre- and post-
April 15, 2009. The Transportation Security Administration (TSA) has 
established 149 enrollment centers across the United States and in U.S. 
territories to serve workers in maritime areas. TSA will continue to 
operate centers to support workers in maritime areas, taking into 
account feedback from local security partners. It is anticipated that 
the number of enrollment centers will not change, however, based on a 
hub-and-spoke concept, there may be adjustments to hours and resources 
at outlying enrollment centers that are underutilized or where maritime 
operations are seasonal in nature. This will allow for a more efficient 
use of resources while still accommodating the individual workers.
    Question 2. Why should an applicant for a TWIC have to return to 
the enrollment center to pick up his or her card when a passport can be 
mailed back to the applicant? This seems like a significant burden on 
working Americans that can and should be eliminated.
    Answer. The Transportation Security Administration (TSA) 
established the enrollment and activation process based on national 
credentialing and security standards that included a requirement for 
workers to biometrically verify their identity at card pick-up. This is 
an important security step in the process and completes the ``chain of 
trust'' in the Transportation Worker Identification Credential (TWIC) 
model. The two-step process was included in the TWIC final rule and the 
burden to workers was included in the regulatory evaluation. TSA will 
continue to work with Government credentialing and security standards 
experts to identify areas for improvement, but there is no plan to 
change the process at this time.
    Question 3. Given that the TWIC card reader pilot must be completed 
and results analyzed before TSA can initiate the second rulemaking, 
when do you expect to start the pilot? What are the estimated time 
frames for issuing the second rule?
    Answer. The Security and Accountability For Every Port Act of 2006 
(SAFE Port Act) requires the Department of Homeland Security to issue 
final reader regulations no later than 2 years following commencement 
of the pilot programs. Those final rules must be consistent with the 
findings of the pilot program. The Transportation Security 
Administration (TSA) started working with pilot test participants and 
developing plans shortly after the SAFE Port Act was enacted. A plan 
for a three-phase test was approved in December 2007. The first phase 
of that plan included conducting technical tests of the Transportation 
Worker Identification Credential readers in a controlled environment. 
The first of those tests began on August 20, 2008. On October 7, 2008 
the first test results were made available to the pilot test 
participants and to the public. These, and other, reader tests will 
continue throughout the pilot. TSA expects to conduct field reader 
tests at pilot participant vessels and facilities during calendar year 
2009.
    The Coast Guard expects to issue an Advance Notice of Proposed 
Rulemaking (ANPRM) before the end of the year. An NPRM would follow, 
incorporating comments received on the ANPRM and any available pilot 
data. We expect to hold public meetings during the comment periods for 
both the ANPRM and the NPRM. A final rule would be issued once the 
pilot program is completed, as per the SAFE Port Act, taking the 
results of the pilot and all comments received into consideration.
    Question 4. TSA originally estimated that the TWIC enrollment 
contract would cost about $70 million. Since the enrollment population 
is greater than originally expected, to what extent has the total 
contract cost increased?
    Answer. The enrollment portion of the Transportation Worker 
Identification Credential (TWIC) enrollment services contract is 
transaction-based, and our contractor is paid $43.25 per enrollment. 
The price per enrollment does not change based on the number of 
enrollments. Furthermore, neither the contract ceiling nor the base 
period estimated expenditure will change as a result of the potential 
increase in the population estimate. The base period estimated 
expenditure would accommodate the potential rise in the population 
estimate from 850,000 to 1.2 million workers; at $43.25 per enrollment, 
this rise equates to an increase from $36,762,500 to $51.9 million; the 
remainder of the base period estimated ceiling would then be available 
for other activities associated with system maintenance and 
enhancements.
    Question 5. Is the TWIC enrollment contractor meeting all 
performance metrics stipulated in the contract? If not, what metrics 
are not being met and why? How has help desk performance and 
fingerprint reject metrics changed over time?
    Answer. The Transportation Security Administration (TSA) awarded 
Lockheed Martin a performance-based contract that includes Acceptable 
Quality Levels (AQLs) directly tied to the Transportation Worker 
Identification Credential (TWIC) program's enrollment objectives. 
Lockheed Martin is currently exceeding all AQLs in accordance with the 
contract.
    Lockheed Martin did not initially meet the AQL for help desk 
response times of 3 minutes. A corrective action plan was requested, in 
accordance with the Quality Assurance and Surveillance Plan (QASP), 
which Lockheed Martin provided and implemented. As a result of these 
corrective actions, Lockheed is reporting an average response time of 2 
minutes or less, which exceeds the AQL.
    The fingerprint rejection rate has consistently improved and is 
currently less than 1 percent. The fingerprint reject AQL in the 
contract is 2 percent.
    Question 6. What is TSA's official position on expanding the TWIC 
program to other modes of transportation beyond the maritime sector?
    Answer. The Transportation Security Administration does not 
currently have plans to expand the Transportation Worker Identification 
Credential beyond the maritime sector.
    Question 7. One of the more controversial TWIC issues has always 
been the encryption of fingerprint data. There's been a lot of 
discussion about whether encryption would create additional processing 
time, increase processing failures and drive up the cost. Despite all 
these concerns, DHS decided to go ahead and encrypt the card data. But 
now we're finding out that this system may not work. A recent report 
from the National Maritime Security Advisory Committee's TWIC Working 
Group states:

``It has been discovered that the encryption of the fingerprints on 
certain cards was not performed properly which causes the decryption to 
fail. No one will know the extent of the problem until those cards that 
have been issued are tested.''

    Can you talk to me about the extent of the encryption problem and 
when will it be fixed? What will happen to the malfunctioning TWIC 
cards? Who will pay the additional cost to fix it?
    Answer. The incorrect encipherment of the ANSI 378 biometrics 
template stored within the Transportation Worker Identification 
Credential (TWIC) card application is an extremely rare card issuance 
event. According to information provided as recently as October 8, 
2008, from the Transportation Security Administration's (TSA) prime 
contractor, less than 100 records in 600,000 were found to have an 
incorrect encipherment. All were identified and corrected, and new 
cards were ordered for the impacted workers. TSA and the TWIC prime 
contractor have taken steps to reduce this type of fault even further 
and, as already stated, are replacing the impacted cards at a cost to 
be borne by the program.
    Question 8. TSA contractors known as ``Trusted Agents'' enroll 
transportation workers who sign up for the TWIC. These people are on 
the front lines of the TWIC system. They schedule applicant meetings, 
answer their questions, troubleshoot any problems, verify applicants' 
personal information and take fingerprints. It's important that they be 
well-trained and fully qualified, because their errors can cost someone 
a job or even allow a terrorist to slip through the cracks. 
Unfortunately, a number of the problems we hear about with the TWIC are 
associated with trusted agents. Some of these trusted agents can't find 
the TWIC cards when applicants come to pick them up. They can't find 
people in the computer system or they don't collect or scan immigration 
documents properly.
    What kind of training are these people getting? What are the 
qualification requirements for trusted agents? Can you assure this 
committee that no one working as a trusted agent--or performing trusted 
agent duties--has done so while working through a temporary placement 
company?
    Answer. During the initial contract startup, the Transportation 
Security Administration (TSA) provided Lockheed Martin with a 
comprehensive Trusted Agent Training Package and conducted the initial 
training in support of the initial deployment. The Lockheed Martin 
training program is based on this initial TSA training package and 
Lockheed Martin continues to conduct training for all Trusted Agents. 
In addition, Lockheed Martin is conducting refresher training across 
the enrollment sites and provides periodic training updates. Lockheed 
Martin does contract with other companies to support the need for 
Trusted Agents; the contract does not restrict Lockheed Martin from 
using temporary placement companies to support the Trusted Agent 
requirements. All Trusted Agents, however, must successfully complete 
the Security Threat Assessment necessary to receive a Transportation 
Worker Identification Credential and must successfully complete the 
additional TSA Security process required of all TSA contractors. All 
Trusted Agents must follow the training guidelines and direction 
provided by Lockheed Martin. Lockheed Martin has established Area 
Coordinators, Field Coordinators, and Trusted Agent Supervisors to 
support the management of the Trusted Agents staffing the 149 
enrollment sites.
    Question 9. It's really common for Americans to move from one part 
of the country to another. That's especially true for workers who are 
required to have a TWIC. Mariners can leave from one port, spend months 
at sea, and return to a completely different port. In fact, I'm aware 
of a seafarer who applied for a TWIC in Florida but subsequently moved 
to the Great Lakes area. TSA says he's got to go back to Florida to 
pick up his TWIC even though he doesn't live there or even work there. 
He asked for the paperwork to be transferred, but the answer was no. He 
asked for the TWIC to be sent by FedEx, but the answer was no. He 
offered to pay for the FedEx fee, but the answer was no. What are 
people in this situation supposed to do? If we can mail a passport to 
somebody, why can't you mail out a TWIC?
    Answer. The Transportation Security Administration (TSA) has 
received a number of requests by workers to pick up their 
Transportation Worker Identification Credential (TWIC) at a different 
enrollment location other than the site where they initially enrolled. 
We have identified the requests for those individuals who are now at 
the October compliance ports, and Lockheed Martin is sending the TWIC 
cards to the requested location. In addition, we are working with 
Lockheed Martin on a solution that will allow the capability for 
transportation workers to request a change in the pick-up location. 
This solution is expected to be implemented in the near future. In the 
meantime, we will continue to support the requests with a priority 
going to those individuals where the compliance date has been 
announced.
    Unlike a passport that can be mailed directly to the individual, it 
is necessary for the individual worker to return to an enrollment site 
to activate his/her TWIC and to ensure the TWIC is working properly. 
TSA established the enrollment and activation process based on national 
credentialing and security standards that included a requirement for 
workers to biometrically verify their identity at card pick-up. This is 
an important security step in the process and completes the ``chain of 
trust'' in the TWIC model. The two-step process was included in the 
TWIC final rule and the burden to workers was included in the 
regulatory evaluation. TSA will continue to work with Government 
credentialing and security standards experts to identify areas for 
improvement, but there is no plan to change the process at this time.
    Question 10. It is my understanding that many workers are unfairly 
denied a TWIC by TSA based on inaccurate and unreliable criminal 
history information because 50 percent of the FBI's records are 
incomplete. What steps are being taken to clean up these databases and 
what role does TSA have in ensuring that the information that this 
information is accurate?
    Answer. No person has been unfairly denied a Transportation Worker 
Identification Credential (TWIC) based on inaccurate or unreliable 
information. The Transportation Security Administration (TSA) affords 
all TWIC applicants the opportunity to correct criminal records that 
are inaccurate or that have not been updated before a decision is made 
to either issue or deny a TWIC. In the case of a potential criminal 
disqualification, TSA sends the applicant a letter stating that he or 
she may not be eligible for a TWIC and lists the criminal record on 
which we are relying. We invite the applicant to appeal this initial 
determination and notify us if the criminal record is inaccurate within 
60 days (or more if the applicant requests an extension of time to 
reply). It is only after an applicant is given every opportunity to 
utilize our redress process that TSA makes a determination as to 
whether or not an applicant is eligible for a TWIC. TSA is able to 
grant the overwhelming majority of appeals because applicants provide 
us with corrected criminal records that show the applicant to be 
eligible for a TWIC.
    TSA has no role in the maintenance of or standards concerning the 
national repository for criminal history records criminal history. The 
Federal Bureau of Investigation (FBI), through the Criminal Justice 
Information Service (CJIS), maintains and has established submission 
guidelines for the States and Federal law enforcement agencies to 
follow. TSA staff has participated in working group meetings led by the 
Compact Council (the national independent authority that sets policy in 
this area) to discuss how the CJIS data may be improved.
    Question 11a. Currently, workers who do not speak English as their 
first language are having problems filling out the paperwork and 
submitting this information at the TWIC enrollment centers because of 
the absence of any meaningful policy to provide translated multi-
lingual services and interpreters, even at the ports with the largest 
immigrant populations.
    Please tell me what specific analysis TSA has done to determine the 
need for multilingual services, beyond allowing workers to bring 
friends and family members to help translate.
    Answer. When the Transportation Security Administration (TSA) 
conducted economic and related analyses for the Transportation Worker 
Identification Credential (TWIC) rulemaking, we discovered that there 
is very little data available on the people who enter maritime 
facilities and vessels. This view was generally articulated by all of 
the security partners who participated in the rulemaking process. As a 
result, the TSA has no specific numbers on TWIC applicants who may be 
considered to have limited English Proficiency (LEP).
    Question 11b. Are you aware that the Department of Justice's 
guidance on complying with Title VI of the Civil Rights Act of 1964 
strongly cautions against allowing non-qualified personnel, like family 
and friends, to translate especially in cases, like the TWIC program, 
which involve disclosures of sensitive personnel information, like 
criminal records and immigration status, and highly technical rules and 
policies?
    It is my understanding that TSA and Lockheed Martin are relying on 
families and friends to translate information and I would like to know 
if the current system is in compliance with Title VI.
    Please tell me what specific analysis TSA has done to determine the 
need for multilingual services, beyond allowing workers to bring 
friends and family members to help translate.
    Answer. The Transportation Security Administration is aware of the 
Department of Justice (DOJ) guidance on this issue. Section 2 of the 
Executive Order, entitled ``Federally Conducted Programs and 
Activities'' provides that each Federal agency must work to ensure that 
persons with limited English proficiency (LEP) have meaningful access 
to the agency's programs and activities. The DOJ Guidance on the 
Executive Order discusses a variety of tools that agencies may use to 
meet the spirit of the Order, including translating important documents 
and permitting LEP persons to use their own interpreters. For the 
Transportation Worker Identification Credential (TWIC) program, we have 
incorporated both of these suggested tools in the enrollment process. 
The TWIC Program provides communications materials in Spanish and 
English. Our pre-enrollment web site is offered in Spanish and English, 
as well as our help desk services. The TWIC Disclosure Form has been 
translated into 13 languages based on input from our security partners 
and ``field-testing'' and these have been placed on the web site. Also, 
as indicated on the disclosure form, TWIC applicants who are not 
proficient in English may bring a translator to enrollment to assist in 
completing the process. We continue to research other ways to assist 
individuals who have limited English proficiency, and work closely with 
our security partner groups such as the National Employment Law Project 
(NELP) and our TWIC Stakeholder Communications Committee (TSCC) to 
gather recommendations and feedback.
    Question 12a. It is my understanding that TSA does not know how 
many truckers will be required to attain a TWIC and that the Agency has 
only recently increased its outreach to the trucking population.
    Why doesn't TSA have this information?
    Answer. The Transportation Security Administration (TSA) originally 
conducted population estimates by working with academia, industry 
security partners, trade associations, labor unions, and other 
Government agencies to develop an initial population estimate for all 
maritime transportation workers, including truckers, who may require a 
Transportation Worker Identification Credential (TWIC). Nearly 700,000 
trucking companies operate in the United States and provide short-haul, 
long-haul, and drayage services and meet pre-planned, as well as just-
in-time delivery requirements. The fluidity and mobility of the 
trucking industry add to the complexity of developing population 
estimates for truckers who require a TWIC.
    Question 12b. Are you confident that 100 percent of the truckers in 
this country are aware of the fact that they will have to get a TWIC 
card if they transport cargo to and from maritime facilities?
    Answer. The Transportation Security Administration (TSA) has worked 
closely with the Coast Guard to ensure that truck drivers are aware of 
the TWIC requirement and are prepared prior to compliance. In New 
England, Coast Guard, in coordination with terminal operators, 
conducted pre-compliance checks to ensure that truck drivers were 
informed and ready for the new requirement. When compliance went into 
effect on October 15, 2008, TSA and Coast Guard received positive 
reports about trucker readiness from field personnel. Nearly all truck 
drivers presented a TWIC for entry to the terminals. TSA will continue 
to work closely with Coast Guard to conduct pre-compliance activities 
at all ports to ensure awareness and readiness.
    TSA has conducted extensive outreach to maritime transportation 
workers, including truckers who transport cargo to and from maritime 
facilities. In addition, the Transportation Worker Identification 
Credential (TWIC) Final Rule requires that owners and operators inform 
their workers of the need for a TWIC. Coast Guard Captain of the Ports 
have also conducted extensive local outreach to facility owners and 
operators, Area Maritime Security Committees, and regional trucking 
companies, to ensure this traditionally non-maritime population is 
aware of TWIC.
    TSA's communication campaign has included multiple outreach 
efforts, including:
  <bullet> A national TWIC Stakeholder Communications Committee (TSCC) 
        that includes representatives from trucking-related industry 
        associations and labor unions, such as the American Trucking 
        Associations (ATA), Intermodal Association of North America 
        (IANA), Owner-Operator Independent Drivers Association (OOIDA), 
        AFL-CIO, and the Teamsters. This group meets approximately 
        every month to review progress and answer stakeholder 
        questions.
  <bullet> E-mail communication with over 7,000 industry security 
        partners on a nearly weekly basis.
  <bullet> Attendance at national and local security partner meetings, 
        conferences, and workshops, including trucking-specific 
        meetings sponsored by industry associations and State trucking 
        associations.
  <bullet> Participation in locally sponsored TWIC working groups that 
        include trucking companies and drivers.
  <bullet> Advertising in trucking trade publications.
  <bullet> Local media events with locally known industry members and 
        elected representatives to promote TWIC enrollment and 
        compliance.
  <bullet> Satellite radio call-in programs.
  <bullet> Press releases tailored to drive local media attention.
  <bullet> Port-specific outreach brochures and flyers.
  <bullet> Industry-specific promotional materials, including specific 
        flyers for trucking, rail, mariner populations.
  <bullet> United States Coast Guard local exercises to promote 
        enrollment and compliance-readiness through spot checks at 
        access control points.
    Question 13. Railroad personnel will also be required to attain 
TWICs and it is my understanding that many of these men and women are 
unaware of this obligation.
    What outreach have you done with this community?
    Have you spoken with all of the labor organizations representing 
this large segment of the transportation population?
    Answer. The Coast Guard and the Transportation Security 
Administration (TSA) have met on numerous occasions with the American 
Short Line and Regional Railroad Association (ASLRRA), which represents 
over 500 shortline operators across the country, and the American 
Association of Railroads (AAR), which represents all Class I freight 
railroads in the United States. The Coast Guard and TSA have attended 
national and regional meetings with railroad operators and security 
personnel, to discuss the requirements of the Transportation Worker 
Identification Credential (TWIC) program, and provided maps of all 
facilities regulated by the Coast Guard pursuant to the Maritime 
Transportation Security Act of 2002 (MTSA) in North America to 
facilitate their planning. Both the AAR and ASLRRA have been proactive 
in ensuring the railroad operators are aware of the TWIC program and 
their responsibility to ensure that personnel who need unescorted 
access to secure areas of certain facilities must possess a TWIC. It is 
important to note that railroad employees are not specifically required 
by law or regulation to obtain a TWIC due to their occupation alone. As 
with other forms of transportation, such as trucking, the TWIC 
regulations impact all individuals who require unescorted access to 
secure areas of facilities or vessels which are regulated under MTSA. 
Currently, there are over 3,200 maritime facilities regulated pursuant 
to MTSA and over 10,000 vessels.

    Questions From Hon. Loretta Sanchez for Stephen M. Lord, Acting 
 Director, Homeland Security and Justice Issues, Government Accounting 
                                 Office

    Question 1. One of the challenges you reference in your testimony 
is the rate of enrollment, do you think that Department will be able to 
successfully overcome this challenge and meet the April 15 deadline?
    Answer. While about 498,000 enrollments (41 percent) out of an 
estimated target population of 1.2 million had been processed as of 
September 12, 2008, an additional 702,000 workers (59 percent) still 
need to be enrolled in the program by the April 15, 2009 deadline. 
Assuming current enrollment rates of about 45,000 workers per month, 
and as highlighted in the testimony, TSA could experience an enrollee 
shortfall of several hundred thousand workers by the April 15, 2009 
enrollment deadline. While it is difficult to predict whether TSA will 
successfully overcome this enrollment challenge, and whether additional 
resources will be devoted to help address this enrollment issue, we 
will continue to monitor enrollment trends as part of our on-going TWIC 
review.
    Question 2. Your written testimony references TSA's inability to 
successfully predict the number of TWIC applicants. What went wrong? 
Why was TSA unable to successfully identify the number of individuals 
who would be required to obtain a TWIC?
    Answer. According to the TWIC program director, it is difficult to 
estimate how many individuals will enroll in the program as no 
association, port owner, or Government agency previously tracked this 
information. It is difficult to estimate the numbers of some types of 
workers requiring TWICs at individual facilities, such as truckers, 
since they operate independently and are sometimes engaged in 
transporting activities at several ports. We are encouraged that TSA 
and its contractor are taking additional steps to update enrollment 
estimates for the Ports of Houston, New York, Baton Rouge, Los Angeles, 
and Long Beach.
    Question 3. The second challenge you reference is technology and 
the testing needed to ensure that the readers will be fully 
operational. What steps should TSA take to maximize the lessons learned 
from the testing that is currently on-going in South Carolina?
    Answer. As highlighted in the hearing, we believe that TSA should 
carefully test the TWIC technology before fully deploying it. We are 
encouraged that TSA is conducting tests of the TWIC technology to 
ensure that it can operate effectively in the harsh maritime 
environment and in a variety of vessels and port facilities. TWIC's 
economic impact on commerce is also being evaluated. As part of our 
current review, we will review TSA's testing and assessment of 
biometric card readers and other access control technologies in the 
maritime environment. A primary objective of the tests is to assess the 
effect that using TWIC for biometric verification of identity, 
credential authentication, and validation would have on the flow of 
commerce. According to TSA's plans, it will need to develop and 
promulgate a second rule to govern the use of these readers by ports 
and vessels. It will also need to establish a reader conformance 
testing program to support future acquisitions. To accomplish these 
objectives, TSA will need to carefully structure its tests to ensure 
that it will be able to collect the needed data to support these future 
decisions and activities. For example, to assess the effect on the flow 
of commerce, TSA will need to compare entrance processes and times, 
e.g., the number of seconds per transaction, using TWIC readers with 
baseline conditions that do not currently use TWIC readers.
    Question 4. TSA is going to begin TWIC enforcement before the fixed 
readers are in place. Why do you think it has taken so long for the 
Department to test the reader technology and rollout a complete program 
instead of giant flash-pass?
    Answer. Our current and prior work has identified a number of 
program challenges related to testing and the program roll-out. 
According to the program documentation we reviewed, the pilot tests 
will end in late 2009. However, we have not assessed whether this is a 
reasonable amount of time for completing these tests. Our final report 
will provide an update on the results of these tests, and the time 
taken to complete these tests.
    Question 5. TSA has not yet established an end date for the reader 
pilot test. How long should this pilot last and what should TSA do with 
the information that it gains from the pilot?
    Answer. TSA's TWIC program schedule indicates that the pilot tests 
will be completed in late 2009. At the hearing, the Coast Guard 
representative indicated that the draft rule would be issued soon after 
the hearing, that is, before the results of the pilot tests are 
available. It is important that the technology be fully tested before 
it is deployed, and that the results of the tests be used to help 
inform the development of the second rule. We will continue to monitor 
this issue as part of our on-going TWIC review.

   Questions From Hon. Loretta Sanchez for Judith Marks, President, 
   Transportation and Security Solutions, Lockheed Martin Corporation

    Question 1. How much money has Lockheed Martin spent on outreach, 
enrollment, screening, and other activities?
    Answer. Response was not provided at the time of publication.
    Question 2. What is your plan for the post-April 15, 2009 period? 
How will you ensure that everyone who needs to get a TWIC after that 
date can do so at least as conveniently as today?
    Answer. Response was not provided at the time of publication.
    Question 3. It is my understanding that TSA is currently 
considering whether or not it should give your company an award fee for 
the work it has done these past months. Do you believe that Lockheed 
Martin has earned this fee and if so, why?
    Answer. Response was not provided at the time of publication.
    Question 4. One of the issues raised today is the requirement to 
return to the Lockheed Martin enrollment center to pick up the TWIC 
cards. Many folks have argued that if the State Department can mail 
passports then the Homeland Security Department should be able to mail 
TWIC cards instead of requiring a second trip to the enrollment 
facility. Do you support the concept of mailing the TWIC cards to the 
applicants?
    Answer. Response was not provided at the time of publication.
    Question 5. It is my understanding that TWIC applicants have to 
pick up their TWIC cards at the place in which they enrolled. What 
happens if they move? Why can't Lockheed Martin send their card to the 
enrollment center that is closest to their new home?
    Answer. Response was not provided at the time of publication.
    Question 6. This morning we learned that Lockheed Martin has not 
made the application process available to workers who do not speak 
English as their first language, even though many ports, and especially 
the truck drivers who work there, have limited English proficiency. 
That includes the failure to hire qualified bilingual staff, especially 
in major ports with large immigrant populations, translate educational 
materials into critical languages, and other safeguards required of 
Government contractors under Title VI of the Civil Rights Act of 1964. 
Please tell us what specific analysis you have done to determine your 
obligations under Title VI at the various ports and what steps you have 
taken to provide multilingual services?
    Answer. Response was not provided at the time of publication.
    Question 7. We have heard from several witnesses about serious 
problems with the training of Lockheed Martin's ``trusted agents'' and 
the failure to collect all the proper citizenship and immigration 
paperwork so workers are not denied their TWIC. What type of training 
is provided to your employees?
    Answer. Response was not provided at the time of publication.
    Question 8. Fourteen TWIC enrollment centers were closed because of 
the destruction wrought by Hurricane Ike. What steps have been taken to 
bring these centers back on-line?
    Answer. Response was not provided at the time of publication.
    Question 9. In the short history of your firm's involvement with 
TWIC, there have been significant concerns raised about process and 
delays. Your firm underestimated the level of support that would be 
required for workers to complete the TWIC enrollment process. Can you 
assure me that you will devote the necessary resources to assist the 
projected 1.5 million transportation workers who will need these cards?
    Answer. Response was not provided at the time of publication.

  Questions From Hon. Loretta Sanchez for Stephanie Bowman, Manager, 
               Federal Government Affairs, Port of Tacoma

    Question 1. In your written testimony, you reference problems with 
the fingerprint readers at the enrollment centers. Please provide us 
with more information about this issue.
    Answer. Response was not provided at the time of publication.
    Question 2. Every time I talk with my constituents about the TWIC 
program, I hear about a lack of communication. What is happening at 
your port?
    Answer. Response was not provided at the time of publication.
    Question 3. According to your written testimony, the Port of Tacoma 
has developed is own guidelines for escorting personnel. What guidance 
has the Department given you with regards to this issue?
    Answer. Response was not provided at the time of publication.
    Question 4. What guidance has TSA given your port with regards to 
TWIC enrollment after the initial phase is completed?
    Answer. Response was not provided at the time of publication.
    Question 5. How much money and how long will it cost to install 
readers at your port?
    Answer. Response was not provided at the time of publication.

Questions From Hon. Loretta Sanchez for Philip L. Byrd, Sr., President 
                     and CEO, Bulldog Hiway Express

    Question 1. In your written testimony, you stress the need for the 
Federal TWIC to be the one-and-only transportation security ID. Why is 
this important? Why shouldn't individual States be allowed to have 
their own ID?
    Answer. Response was not provided at the time of publication.
    Question 2. How many different types of background checks do your 
drivers currently undergo?
    Answer. At Bulldog Hiway Express our drivers are subject to the 
following background checks:
  <bullet> TWIC
  <bullet> HME for the CDL
  <bullet> Individual sea port I.D. pass background checks.
    This constitutes approximately 12 port I.D.'s for my company.
    Question 3. It is my understanding that there has been limited 
outreach to the trucking community with regards to the upcoming TWIC 
enforcement deadline. What type of outreach has been done in South 
Carolina?
    Answer. I personally feel that the outreach to the community has 
been adequate concerning the upcoming enforcement deadlines.
    Question 4. On average, how many times have your drivers had to go 
to their respective TWIC enrollment centers?
    Answer. On average our drivers have had to make 2 trips to the 
enrollment center, and one trip to our office for pre-enrollment. We 
still have several drivers that have not received their TWIC card that 
date back to the first quarter of 2008.
    Question 5. On average, how long has it taken your drivers to 
attain a TWIC?
    Answer. On average it has taken 2.5 months for our drivers to 
attain a TWIC.

   Questions From Hon. Loretta Sanchez for Steve Golding, President, 
                           Golding Barge Line

    Question 1. What are the biggest problems your employees/members 
are experiencing with TWIC enrollment?
    Answer. Our employees are experiencing some fingerprint reader 
difficulty. This is particularly true with our older mariners. Several 
of our employees have been told that they could not pick up their TWIC 
cards because the office that they went to was experiencing ``computer 
glitches''. Overall the TWIC enrollment process has improved from what 
it was 6 months ago.
    Question 2. How long, in your experience, does it take from the 
time a mariner applies for a TWIC to the time he or she is notified 
that the TWIC is ready for pickup?
    Answer. The time that a mariner applies for a TWIC card until they 
actually are notified that the card is ready for pick-up has greatly 
improved. It is now down to about a 2-week average time.
    Question 3. Can you describe the changes your company has had to 
make to deal with the TWIC requirements? How have they affected your 
employees? Tell us about the typical Golding Barge employee who needs a 
TWIC and what this requirement has meant to him or her.
    Answer. The TWIC process is another obstacle to a new prospective 
employee choosing a career in the barge industry. Oftentimes we have to 
ask them to travel 2-6 hours round-trip from their home to the nearest 
enrollment center to apply, and then ask them to return for a second 
trip to pick up their card. It becomes another barrier to their entry 
into our industry. Most of the time the applicant needs a job as fast 
as he can find it. By adding this traveling and returning to the center 
to pick up the card, we have made it harder for us to attract new 
hires. We desperately need to alleviate the second trip back to a TWIC 
center to pick up the cards. There has to be a secure way to get these 
cards back to the mariner like a passport is done.
    We need to create more venues to allow a new hire to more 
conveniently enroll for a TWIC card. It is not uncommon for a new hire 
to have a 6-hour round-trip drive to the nearest TWIC center to get his 
or her card. We desperately need to be able to apply for these cards in 
post offices, airports, and Coast Guard offices so that we do not put 
up more obstacles toward our prospective new employees choosing our 
industry.
    We need the Coast Guard to be able to extend the interim work 
authority from 30 days to 60 days without having to get this approval 
from the ``Captain of the Port'' on each individual case. When we have 
a new employee and put him on the boat, he is gone for a 30-day period. 
He will normally get a notice that his new card is ready to be picked 
up between his 10th and 20th day on the boat. He may be 1,000 miles 
away from the TWIC center that he enrolled in and in the middle of his 
30-day hitch. We do not let our mariners get off the boat during their 
30-day hitch unless it is an absolute emergency. We will constantly be 
applying for a 60-day interim work authority on our new hires so that 
he or she can pick up their TWIC card on their ``days off'' after their 
first 30-day hitch. The work schedule of 30 days on and 15 days off 
just do not match up for only a 30-day work authority. We desperately 
need the 60 days to be made automatic on all new hires so that we do 
not have to keep going to the captain of the port and requesting the 
60-day authority.
    Question 4. Why do you think that card readers aren't necessary on 
towing vessels?
    Answer. Card readers have no place and serve absolutely no purpose 
on an inland towboat. We only carry a crew of six on our boats and 
every 2 weeks we only have 3 mariners getting off for crew change, and 
three getting on. This crew change is all the interchange of people 
that are coming and going on our vessels. Our crews are all very close 
friends, or they are related. They live with each other on-board for 8 
months out of the year and are only at home for 4 months out of the 
year. They know each other better than they know their own families. In 
most cases, they are more like family than co-workers. All of my crew 
members feel as thought it would be like having to go through a card 
reader to come into your own home. The boat is home to my crews and we 
want it to feel that way. These readers were designed for busy port 
facilities where dozens of people are coming and going each day. The 
crews on our towing vessels live together for 8 months out of the year 
and need no reader to come back to their homes after being off for 2 
weeks vacation.

    Questions From Hon. Loretta Sanchez for Laura Moskowitz, Staff 
            Attorney, National Employment Law Project (NELP)

    Question 1a. In your written testimony, you talk about how workers 
are unfairly denied a TWIC by TSA based on inaccurate and unreliable 
criminal history information because 50 percent of the FBI's records 
are incomplete. That happens mostly because the States fail to update 
the status of arrest records to let the FBI know if there has in fact 
been a conviction.
    Why is this a problem for workers applying for a TWIC card and what 
can TSA do right away to fix it?
    Answer. Response was not provided at the time of publication.
    Question 1b. What steps should the FBI take to fix its databases?
    Answer. Response was not provided at the time of publication.
    Question 2. According to your written testimony, many workers with 
criminal records are afraid to apply for a TWIC, which may have 
something to do with the low enrollment rates. In your experience 
providing training to workers and helping in various ports, what is the 
most important thing that TSA and Lockheed Martin can do right away to 
get at this serious problem?
    Answer. Response was not provided at the time of publication.
    Question 3a. We heard today, that even U.S. citizens are having a 
hard time navigating the process with Lockheed Martin's ``trusted 
agents'' and with TSA to prove that they are qualified for a TWIC.
    How often does this happen in your experience?
    Answer. Response was not provided at the time of publication.
    Question 3b. What should Lockheed Martin and TSA do right away to 
ensure that all eligible workers in this situation are not denied the 
TWIC and made to jump through so many hoops that they are discouraged 
from applying or appealing?
    Answer. Response was not provided at the time of publication.
    Question 4. Many non-native English speakers are struggling to fill 
out the TWIC paperwork and many of these individuals are having to rely 
on their friends and family to translate for them. In your experience, 
how often is this happening and where is this occurring?
    Answer. Response was not provided at the time of publication.
    Question 5. Over the past several months, you have helped many 
transportation workers track down missing paperwork so that they can 
appeal an initial disqualification. On average, how much time does it 
take and how much does it cost to track down this information?
    Answer. Response was not provided at the time of publication.
    Question 6. In your testimony, you highlight the current flaws with 
the administration's databases and watchlists--flaws that have made it 
more difficult for a former Navy reservist--a U.S. citizen--to obtain a 
TWIC card. What should the administration do to fix us this problem?
    Answer. Response was not provided at the time of publication.

                                 <all>

</pre></body></html>
